<html>
<title> - OVERSIGHT HEARING ON ``THE ROLE OF FEDERAL LANDS IN COMBATING CLIMATE CHANGE''</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                          THE ROLE OF FEDERAL
                          LANDS IN COMBATING
                            CLIMATE CHANGE

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, March 3, 2009

                               __________

                            Serial No. 111-7

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov






                  U.S. GOVERNMENT PRINTING OFFICE
47-754                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 
Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 20402-0001










                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            Don Young, Alaska
Neil Abercrombie, Hawaii             Elton Gallegly, California
Grace F. Napolitano, California      John J. Duncan, Jr., Tennessee
Rush D. Holt, New Jersey             Jeff Flake, Arizona
Madeleine Z. Bordallo, Guam          Henry E. Brown, Jr., South 
Dan Boren, Oklahoma                      Carolina
Martin T. Heinrich, New Mexico       Louie Gohmert, Texas
Peter A. DeFazio, Oregon             Bill Shuster, Pennsylvania
Maurice D. Hinchey, New York         Robert J. Wittman, Virginia
Donna M. Christensen, Virgin         Paul C. Broun, Georgia
    Islands                          Mike Coffman, Colorado
Diana DeGette, Colorado              Cynthia M. Lummis, Wyoming
Ron Kind, Wisconsin                  Tom McClintock, California
Lois Capps, California               Doc Hastings, Washington, ex 
Jay Inslee, Washington                   officio
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, March 3, 2009...........................     1

Statement of Members:
    Capps, Hon. Lois, a Representative in Congress from the State 
      of California..............................................     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     2
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington, Prepared statement of.................     3
    Kind, Hon. Ron, a Representative in Congress from the State 
      of Wisconsin, Prepared statement of........................     5
    Shea-Porter, Hon. Carol, a Representative in Congress from 
      the State of New Hampshire.................................     5

Statement of Witnesses:
    Armstrong, Thomas R., Senior Advisor for Global Change 
      Programs, U.S. Geological Survey, U.S. Department of the 
      Interior...................................................    13
        Prepared statement of....................................    14
    Brunello, Anthony, Deputy Secretary for Climate Change and 
      Energy, California Natural Resources Agency, Sacramento, 
      California.................................................    20
        Prepared statement of....................................    22
    DellaSala, Dominick A., Ph.D., Chief Scientist, National 
      Center for Conservation Science & Policy, and President 
      Elect, Society for Conservation Biology, North America 
      Section, Ashland, Oregon...................................    64
        Prepared statement of....................................    66
    Frank, Billy, Chairman, Northwest Indian Fisheries 
      Commission, Olympia, Washington............................    27
        Prepared statement of....................................    28
    Harmon, Mark E., Ph.D., Richardson Endowed Chair and 
      Professor in Forest Science, Department of Forest 
      Ecosystems and Society, Oregon State University, Corvallis, 
      Oregon.....................................................    55
        Prepared statement of....................................    57
    Jungwirth, Lynn, Executive Director, Watershed Research and 
      Training Center, Hayfork, California.......................    89
        Prepared statement of....................................    90
    Kimbell, Abigail, Chief, Forest Service, U.S. Department of 
      Agriculture................................................     7
        Prepared statement of....................................     8
    McCarthy, Forrest, Public Lands Director, Winter Wildlands 
      Alliance, Teton Village, Wyoming...........................    96
        Prepared statement of....................................    98
    Ridgeway, Rick, Director of Environmental Initiatives, 
      Patagonia Company, on behalf of Freedom to Roam, Ventura, 
      California.................................................    83
        Prepared statement of....................................    85
    Spiering, Eugene D., Vice President for Exploration, Quaterra 
      Corporation, Kanab, Utah...................................    53
        Prepared statement of....................................    54
    Williams, Jack E., Ph.D., Senior Scientist, Trout Unlimited, 
      Medford, Oregon............................................    73
        Prepared statement of....................................    75

Additional materials supplied:
    Sierra Pacific Industries, Redding, California, Press release 
      submitted for the record...................................    39

 
 OVERSIGHT HEARING ON ``THE ROLE OF FEDERAL LANDS IN COMBATING CLIMATE 
                                CHANGE''

                              ----------                              


                         Tuesday, March 3, 2009

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:00 p.m. in 
Room 1324, Longworth House Office Building, Hon. Raul M. 
Grijalva [Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Hastings, Napolitano, 
Holt, Heinrich, Christensen, Kind, Capps, Inslee, Herseth 
Sandlin, Sarbanes, Shea-Porter, Tsongas, Coffman, and Lummis.

 STATEMENT OF THE HONORABLE RAUL M. GRIJALVA, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you. Let me call the Subcommittee on 
National Parks, Forests and Public Lands oversight hearing to 
order. The subject of this hearing is the role of Federal land 
in combating climate change, and today our Subcommittee will be 
conducting an oversight hearing to explore the role of Federal 
lands in combating climate change.
    This will be the first in a series of hearings our 
Subcommittee will conduct on climate change. Today's hearing 
will focus primarily on the Forest Service and Bureau of Land 
Management lands. We expect to schedule a future hearing on 
National Park Service lands and climate change.
    The impact of climate change on our Federal lands is 
staggering. Science shows that climate change will cause a 
spread of invasive species, threaten native species, endanger 
watersheds, cause habitat loss, and increase the intensity and 
length of the fire season on our public lands.
    Today, we will be hearing more on these impacts and 
suggested policy solutions by reputable scientists, such as 
Mark Harmon from Oregon State University.
    Climate change not only threatens the world-class resources 
of our public lands but also the millions of Americans who 
depend on and enjoy our Federal lands.
    Today, we will also be hearing from witnesses about the 
role of rural public lands communities in combating climate 
change. We will receive the perspectives of Indian Country, the 
Human Power Recreation Community, and the hunter-angler 
community on this topic.
    There are two potential climate change solutions that I am 
particularly interested in exploring today.
    The first is climate change adaptation. Rick Ridgeway from 
Freedom To Roam will testify today about connecting habitat in 
order for wildlife to adapt to the impacts of climate change.
    The second solution we will explore is whether some of the 
key laws under the jurisdiction of the Committee on Natural 
Resources adequately reflect the reality of climate change. 
These laws include the National Environmental Policy Act 
[NEPA], as well as various organic acts for land management 
agencies.
    The State of California has moved far beyond the Federal 
government in this area by releasing a draft guidance for 
integrating climate change into the California Environmental 
Quality Act. Today, we will be hearing from Mr. Tony Brunello 
about California's efforts, and perhaps this can provide good 
guidance on our Federal efforts.
    President Obama has made climate change a top issue on his 
agenda. Today, I am pleased that we are joined by 
representatives of the Obama Administration to hear what 
ongoing work and future plans are for combating climate change 
on our public lands.
    Climate change on Federal lands will be a key agenda item 
of our Subcommittee and this Congress. I feel strongly that 
while our public lands are threatened by climate change, they 
are also critical in finding solutions to combat climate 
change. As Congress goes about developing climate change 
legislation, I will work to ensure that there is a role for 
public lands. I look forward to hearing from our witnesses 
today, and I will turn to the Ranking Member of the Full 
Committee, Mr. Hastings, for any comments that he may have. 
Sir?
    [The prepared statement of Mr. Grijalva follows:]

        Statement of The Honorable Raul M. Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    Today our Subcommittee will be conducting an oversight hearing to 
explore the role of federal lands in combating climate change. This 
will be the first of a group of hearings our Subcommittee will conduct 
on climate change. Today's hearing will focus primarily on Forest 
Service and Bureau of Land Management (BLM) lands, and we expect to 
schedule a future hearing on National Park Service lands and climate 
change.
    The impacts of climate change on our federal lands are staggering. 
Science shows that climate change will cause a spread of invasive 
species, threaten native species, endanger watersheds, cause habitat 
loss, and increase the intensity and length of the fire season on our 
public lands. Today we will be hearing more about these impacts, and 
suggested policy solutions, by reputable scientists such as Mark Harmon 
from Oregon State University.
    Climate change not only threatens the world class resources of our 
federal lands, but also the millions of Americans who depend on and 
enjoy our federal lands. Today we will be hearing from witnesses about 
the role of rural public land communities in combating climate change; 
and we will receive the perspectives of Indian country, the human-
powered recreation community, and the hunter-angler community on this 
topic.
    There are two potential climate change solutions that I am 
particularly interested in exploring today. The first is climate change 
adaptation. Rick Ridgeway from Freedom to Roam will testify today about 
connecting habitat in order for wildlife to adapt to the impacts of 
climate change.
    A second solution we will explore is whether some of the key laws 
under the jurisdiction of the Committee on Natural Resources adequately 
reflect the reality of climate change. These laws include the National 
Environmental Policy Act, or NEPA, as well as the various organic acts 
for the land management agencies. The State of California has moved far 
beyond the federal government in this area by releasing draft guidance 
on integrating climate change into the California Environmental Quality 
Act. Today we will be hearing from Mr. Tony Brunello about California's 
efforts, and perhaps this can provide good guidance for federal 
efforts.
    President Obama has made climate change a top issue on his agenda. 
Today I am pleased that we are joined by representatives of the Obama 
Administration to hear what their ongoing work and future plans are for 
combating climate change on our public lands.
    Climate change and federal lands will be a key agenda item for our 
Subcommittee this Congress. I feel strongly that while our public lands 
are threatened by climate change, they are also critical in finding 
solutions to combat climate change. As Congress goes about developing 
climate change legislation, I will work to ensure that there is a role 
for federal lands.
    I look forward to hearing from all of our witnesses today. I would 
now like to turn to Ranking Member Bishop for any opening statement he 
may have.
                                 ______
                                 
    Mr. Hastings. Thank you, Mr. Chairman. I appreciate being 
here today. I have to say that I am pinch-hitting today. The 
Ranking Member of this Subcommittee, Mr. Bishop of Utah, has a 
conflict, and so I am sitting in for him. I will submit my 
statement for the record.
    Mr. Grijalva. Thank you.
    [The prepared statement of Mr. Hastings follows:]

 Statement of The Honorable Doc Hastings, a Representative in Congress 
                      from the State of Washington

    Mr. Chairman, America has a vast expanse of public lands that are 
rich in resources. If we use these gifts wisely they can be a bountiful 
asset as we seek to overcome our current economic problems and increase 
our security through improved access to domestic supplies of energy, 
minerals, food, timber and other necessities.
    Public lands also will play a significant environmental role as we 
look for ways to build up our production and transmission of energy 
from non-polluting sources including solar, hydro, nuclear and wind 
energy.
    One thing is certain: we cannot meet any of our economic, 
environmental, lifestyle or national security objectives unless we make 
intelligent choices regarding the use of public land.
    There are two major issues I would like to see addressed at this 
hearing.
    First we need to know what new costs will be imposed on the 
American people by the whole range of restrictions, investments, taxes 
and cap and trade proposals being talked about to combat climate 
change.
    Second, before we act, we need to understand the magnitude of the 
effect alternative energy sources--particularly wind and solar--will 
have on public land. It has been estimated that tens of thousands of 
square miles would be have to be used to meet a fraction--even one 
fifth--of our power needs using wind power. Solar power raises similar 
questions.
    Perhaps it is time to apply the precautionary principle to some 
proposed green governmental actions such as subsidies, regulations, 
taxes and schemes that purport combat global warming.
                                 ______
                                 
    Mr. Grijalva. Let me now turn to a Member of the Natural 
Resources Committee, Ms. Lois Capps, for any comments she might 
have.

  STATEMENT OF THE HONORABLE LOIS CAPPS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Capps. Thank you, Mr. Chairman. I will just say thank 
you for holding this hearing. I believe this is a very 
important topic for us to be addressing, particularly under the 
umbrella or the rubric of climate change. The role of public 
lands in combating and adapting to climate change is a very 
real challenge before us.
    I want to thank the witnesses who have traveled to be here 
with us today, and one is in the third panel, who is my 
constituent, or, at least, from Ventura County, which I 
represent, and that is Rick Ridgeway. I appreciate his being 
part of our panel today of witnesses. Rick is the Vice 
President of Environmental Programs at a very well-known 
company called Patagonia, which is headquartered in my 
congressional district and one of America's leading green 
businesses.
    Patagonia helped found Freedom To Roam, a national campaign 
to create, restore, and protect wildlife corridors. I am proud 
of the continued expansion and success of Freedom To Roam, and 
I look forward to your presentation, Mr. Ridgeway.
    Mr. Chairman, climate change is a very real and present 
problem. Human activities have changed the climate of the 
earth, and I think today's hearing is particularly important 
for the western states of the United States because many 
scientists are now saying that the American West will 
experience the effects of climate change sooner and more 
intensely than perhaps most other regions.
    My home State of California has a lot at stake when it 
comes to global warming. Our scarce snow and water right now is 
already being impacted. Crops, such as California wine grapes, 
are already on the brink, and the warming climate is 
contributing to longer, wildland fire seasons with more extreme 
events. We can all attest to that anecdotally, and there is 
scientific evidence now as well.
    We have a world-class tourist industry which has flourished 
because of our natural beauty, but the impact of climate change 
on winter snowfalls, agriculture, and our public lands poses a 
major threat to the economic vitality of my state.
    This hearing today is exceedingly important to help us 
learn what is known and not known about the impacts of global 
warming, and so I thank you for having this hearing. I look 
forward to the expertise of our witnesses, and I will yield 
back.
    Mr. Grijalva. Thank you. Let me now ask our colleague, Mr. 
Coffman, if he has any opening comments.
    Mr. Coffman. Mr. Chairman, I think I will pass until it is 
time for questions.
    Mr. Grijalva. Thank you. Mr. Heinrich, any comments?
    Mr. Heinrich. Yes, Chairman. Thank you. You know, I come 
from the State of New Mexico and have a bit of a history in 
water management. I was chair of our water utility authority in 
the metropolitan Albuquerque area for some time, and one of the 
things that we have seen is a real change in how precipitation, 
and, particularly winter precipitation, is being impacted by 
climate change.
    Our functional water storage, much like in California in 
the Sierras, is high in the mountains. It is on Forest Service 
lands. We are seeing that snows not only run off much more 
quickly and much more intensely, but, oftentimes, sublimate 
directly to where it never makes it to the reservoirs in the 
first place. Many of these impacts have huge ramifications for 
not only our public lands but our entire population.
    So I think this is a timely issue. We have certainly seen 
changes in our fire regime throughout the Intermountain West, 
and, particularly, in New Mexico, that are very concerning to 
people who live in the urban wildland interface, and being 
proactive with these issues, I think, is a credit to this 
Committee, and I am looking forward to hearing what our 
witnesses today have to say. I yield back, Mr. Chairman.
    Mr. Grijalva. Thank you. Let me ask Ms. Shea-Porter, do you 
have any opening comments?

STATEMENT OF THE HONORABLE CAROL SHEA-PORTER, A REPRESENTATIVE 
          IN CONGRESS FROM THE STATE OF NEW HAMPSHIRE

    Ms. Shea-Porter. Yes. Thank you, Mr. Chairman. I am also 
grateful for this hearing because we have a beautiful White 
Mountain National Forest in New Hampshire, and there was a 
hearing, about a year and a half ago, and they talked about 
some of the impact of the climate change, and we had people 
coming who had been trappers, who had been hunters, fishermen, 
and also people who depended on our cold season for 
snowmobiling and other economically viable activities--skiing, 
of course, is critical--and what they were all saying was they 
were seeing such changes.
    They were seeing ticks, for example, in January and 
February, which we never had. They were seeing birds that 
should not be in our area earlier or later. They were seeing 
changes in the leaves and many, many signs of changes. The 
people who produce maple syrup were talking about the impact on 
their business.
    So this is very critical, and it is a very timely issue, 
and I am grateful that we are having this hearing. Thank you.
    Mr. Grijalva. Thank you. Ms. Tsongas, any comments?
    Ms. Tsongas. I do welcome your testimony. I have a daughter 
who was one of the many 12,000 young people who arrived 
yesterday in town, Power Shift, to address the issue of global 
warming and climate change.
    So this is very timely, and I look forward to your 
testimony. Thank you.
    Mr. Grijalva. Thank you. Mr. Kind?
    Mr. Kind. Thank you, Mr. Chairman. Mr. Chairman, I have a 
statement that I would like to submit for the record.
    Mr. Grijalva. Without objection.
    [The prepared statement of Mr. Kind follows:]

Statement of The Honorable Ron Kind, a Representative in Congress from 
                         the State of Wisconsin

    I would like to start by thanking Chairman Grijalva for calling 
today's hearing on this very important topic. As the evidence of 
climate change's effect on wildlife and their habitats continues to 
mount, the need to plan adequately for these and future impacts grows 
more and more urgent. This committee began delving into the topic 
nearly two years ago with a hearing in the Fisheries, Wildlife, and 
Oceans Subcommittee and subsequent inclusion of funding for planning 
and adaptation on federal lands during the development of the Energy 
Independence and Security Act of 2007. Today's hearing, I hope, will be 
another step forward in our understanding of the implications of 
climate change for public lands and the various purposes for which they 
were established, and our developing effective policies for addressing 
these challenges.
    Clearly, as I'm sure we will hear more about today, the challenges 
to our public lands will be difficult and varied. Federal land units, 
from the very small to the very large, are already susceptible to 
events influenced by climactic variability, which include drought, wild 
fires, impaired air quality, and severe storms. Climate change may 
alter the frequency and severity of these kinds of events. Dealing with 
these changes will require additional financial resources, as well as 
the flexibility to adapt to changing conditions and evolving 
priorities.
    Many of our National Parks, Wildlife Refuges, National Forests, and 
Bureau of Land Management lands serve vital ecological roles as 
sanctuaries where plants and wildlife can thrive without the pressures 
of excessive human development and interference. This role will become 
even more important as climactic pressures build. Due to their strong 
ecological integrity relative to other areas, these lands stand the 
best chance of withstanding changing conditions, and wildlife will 
increasingly utilize them as homes or as migration corridors as they 
seek new habitat.
    The prospect of greater reliance on federal lands by wildlife 
raises the need for better management to protect wildlife and their 
habitat. Unfortunately, there currently is no statutory or regulatory 
requirement to manage and maintain wildlife populations during the 
planning process for the Forest Service or the BLM, which together 
oversee 457 million acres, or about 65 percent of our public lands. 
Given the increasing importance of these lands in the future, it is 
critical that we institute policies that put wildlife on solid footing 
in our multiple use federal lands. That is why last year I introduced 
America's Wildlife Heritage Act.
    My bill would require the Forest Service and BLM to do their best 
to maintain viable, or self-sustaining populations of native and 
desirable non-native species on their lands. This would be implemented 
through the periodic management planning process and subsequent 
monitoring activities. Such planning and monitoring would revisit and 
improve upon former Forest Service rules and expand them to the BLM for 
the very first time.
    The Bush Administration's decision to repeal the Forest Service 
rules while also pursuing a lopsided focus on resource extraction on 
public lands has been extremely damaging to wildlife. Most of the 
evidence for this, however, is anecdotal because the federal government 
does not require adequate monitoring of most wildlife species, so very 
little accurate data exists. What is clear is that wildlife management 
must not be subject to administrative fiat. The America's Wildlife 
Heritage Act would provide the needed permanency in the form of a 
forward-looking law that incorporates the most up-to-date scientific 
principles and enough flexibility to make them workable.
    As this Congress moves toward a bold new effort to reduce 
greenhouse gas emissions in our country, I hope this committee and the 
agencies under our jurisdiction will be equally bold in their efforts 
to mitigate and adapt to the changes these gases have caused and will 
continue to cause. We cannot look to the past and rely on the same 
tools we have used before; rather, we must look to new ideas to build 
on what we have learned. I would like to thank all of the witnesses for 
being here today and say that I look forward to hearing your ideas for 
how we can move in that direction.
                                 ______
                                 
    Mr. Kind. I also want to thank you for holding this very 
important and timely hearing. I think all of us have been 
looking forward to hearing testimony from some of the experts 
on the impact of climate change on our public lands and on 
wildlife, in particular.
    It is one of the reasons why, last year, I introduced 
America's Wildlife Heritage Act. It would require, for the 
first time, because, right now, there is no statutory or 
regulatory requirement for the Forest Service or BLM to take in 
the impact of climate change on wildlife populations on our 
public lands. We are talking about 457 million acres, close to 
65 percent of the public lands with those two entities alone, 
and there is nothing in the planning process, either 
statutorily or regulatory, that would require them to measure 
that impact on wildlife and their habitat.
    So, hopefully, I will be able to work with this Committee 
as we move forward this year on that legislation and hear the 
testimony from our witnesses here today that can provide us 
further guidance on what practical steps we can take to deal 
with such a huge and growing issue.
    So thank you again, Mr. Chairman. I look forward to hearing 
the testimony.
    Mr. Grijalva. Let me thank my colleagues for their comments 
and turn to our first panel. I will begin with Chief Gail 
Kimbell, Forest Service, Department of Agriculture. Welcome 
again, and we look forward to your comments and testimony. 
Please.

       STATEMENT OF GAIL KIMBELL, CHIEF, FOREST SERVICE, 
                 U.S. DEPARTMENT OF AGRICULTURE

    Ms. Kimbell. Thank you, Mr. Chairman. Mr. Chairman and 
Members of the Subcommittee, thank you for inviting me here 
today to discuss the very important role that national forests 
and national grasslands play in addressing climate change.
    I am accompanied today by Dr. David Cleaves, who is our 
acting deputy chief for Research and Development.
    I would ask that my full statement be read into the 
record----
    Mr. Grijalva. Without objection.
    Ms. Kimbell [continuing]. Thank you--and I will summarize 
my statement.
    We have before us significant challenges and opportunities 
in managing our nearly 200 million acres of national forests 
and grasslands in a changing climate. Decisions being made 
today by policymakers and resource managers have implications 
through this century and beyond. History will judge the leaders 
of our age, including my own leadership, as chief forester, by 
how well we respond to this challenge.
    Our national forests and grasslands provide a wide spectrum 
of ecosystem services that are so very important to our 
society. They include clean water, clean air, outdoor 
recreation, fish and wildlife habitat, and forest products. 
They also include natural resource-based jobs, renewable 
energy, and carbon sequestration.
    However, observations show that climate change is currently 
impacting the nation's forests and grassland ecosystems in 
significant ways and, likewise, their ability to provide those 
ecosystem services.
    The mission of the Forest Service is to sustain the health, 
diversity, and productivity of the nation's forests and 
grasslands for present and future generations. Recognizing the 
changing context of our environment, we have developed a 
Strategic Framework for Responding to Climate Change. The 
Strategic Framework lays out seven key goals to help us set 
priorities and make informed decisions for sustaining forests 
and grasslands. I will focus on the first three of these goals: 
science, mitigation, and adaptation.
    The Forest Service has over 100 years of research and 
investigation that provide a firm, scientific foundation for 
our understanding of forests and grasslands and their 
management. Climate change has changed many assumptions.
    We have over 20 years of focused climate change research 
and over 30 years of air pollution effects research. Thirteen 
Forest Service scientists shared in the 2007 Nobel Peace Prize 
as part of the Intergovernmental Panel on Climate Change.
    The Forest Service and university and private sector 
research partners provide an evolving science and technology 
base for use in managing national forests and grasslands. We 
use that science in adaptation and mitigation to enhance the 
ability of the national forests to adapt to the stresses of 
climate change and to provide clean water, clean air, and other 
ecosystem services. Some ecosystems adapt rapidly enough to 
maintain productivity in the face of climate change. However, 
climate change impacts other forest types more significantly 
and exceeds their capacity to adapt.
    Managers and policymakers need to be nimble to use new 
science to adapt to changing conditions. The scope of climate 
change and its impacts are not always easy to predict. Dealing 
with risks and uncertainties introduced by climate change is 
becoming a more prominent part of every district ranger's and 
every forest supervisor's decision process.
    In some cases, failing to take management action can result 
in allowing catastrophic disruption to an ecosystem and its 
ability to provide for the things we have come to expect from 
our public lands: clean water, clean air.
    Each year, the Forest Service treats millions of acres of 
national forests to make them more resistant and resilient in 
the face of intense wildfire activity, insect and disease, 
tropical storms, and flooding. This same work helps to make 
these same lands more resilient and capable of sequestering 
more carbon.
    The Forest Service is working to identify different ways to 
utilize wood fiber and small-diameter material. When woody 
materials are removed in forest-restoration projects or any of 
our projects, it not only reduces the risk of damage from 
wildfire and other disturbances; it provides a source of 
cellulose for bioenergy or for other wood products and 
decreases emissions from forest fires. This work provides jobs, 
green jobs, and can contribute to the long-term economic health 
of rural communities.
    Ultimately, the issue that might bring people to 
understanding the importance of the health of their national 
forest ecosystems is water. In the West, 60 percent of 
municipal water originates on national forests. It is critical 
that those forest soils, those forest stands, the hydrologic 
systems, be able to function in the way they were designed to 
deliver clean and abundant water to streams and rivers for 
later use by not only the plants and animals that depend on 
them along the way but the ever-growing human population.
    Water is already a scarce commodity in many places across 
the United States, and the health of our forests is a critical 
consideration of how to manage in an era of climate change.
    Our national forests play a vital role in helping our 
nation respond to the challenges of a changing climate. The 
Forest Service is working to improve the health and 
sustainability of the national forests, which, in turn, will 
help these ecosystems adapt to the effects of climate change 
and permit them to absorb great quantities of carbon from the 
atmosphere.
    Thank you for the opportunity to discuss these issues with 
the Subcommittee. I will be happy to answer any questions you 
may have.
    [The prepared statement of Ms. Kimbell follows:]

         Statement of Abigail Kimbell, Chief, Forest Service, 
                     U.S. Department of Agriculture

    Mr. Chairman and members of the Subcommittee, thank you for 
inviting me today to discuss the important role national forests and 
grasslands play in addressing climate change. Healthy, resilient 
watersheds represent one of the best insurance policies we have in a 
changing climate. I will focus my remarks on the science-based 
management approaches we are employing to enhance the capacity of our 
national forests and grasslands to adapt to the effects and mitigate 
the impacts of climate change.
Forest Service Strategic Framework for Responding to Climate Change
    Our national forests and grasslands provide a wide spectrum of 
ecosystem services on which society relies, including clean water, 
scenic beauty, outdoor recreation, fish and wildlife habitat, natural 
resource-based jobs, forest products, renewable energy, and carbon 
sequestration. However, observations show that climate change is 
currently impacting the nation's ecosystems and services in significant 
ways and those alterations are very likely to accelerate in the future, 
in some cases dramatically. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ CCSP. May 2008. Synthesis and Assessment Product 4.3 (SAP 4.3): 
The Effects of Climate Change on Agriculture, Land Resources, Water 
Resources, and Biodiversity in the United States, P. Backlund, A. 
Janetos, and D. Schimel, lead authors. A report by the U.S. Climate 
Change Science Program (CCSP). Abstract.
---------------------------------------------------------------------------
    The Forest Service's mission is to sustain the health, diversity, 
and productivity of the Nation's forests and grasslands to meet the 
needs of present and future generations. To improve our ability to 
carry out our mission in a changing climate, the Forest Service 
developed a Strategic Framework for Responding to Climate Change.
    The Strategic Framework identified seven key goals to help us set 
priorities and make informed decisions for sustaining forest and 
grassland resources:
    Science--Advance our understanding of climate change.
    Adaptation--Enhance the capacity of forests and grasslands to 
adjust to the impacts of climate change.
    Mitigation--Promote the management of forests and grasslands to 
reduce the build-up of greenhouse gases.
    Policy--Integrate climate change considerations as appropriate into 
Forest Service policies, program guidance, and communications.
    Sustainable Operations--Reduce the environmental footprint of our 
operations and facilities.
    Education--Advance awareness and understanding.
    Alliances--Establish, enhance, and retain strong alliances and 
partnerships.
    These interrelated goals can assist our thinking in how we 
accomplish our work on National Forest System lands in the face of 
changing environmental, social, and economic conditions. To achieve 
these goals, the Forest Service will work collaboratively with the 
public and a broad range of agencies and partners. We recognize these 
goals will not be realized immediately. However, we plan to make our 
goals a reality over time through the ongoing implementation of actions 
to address climate change.
    I highlight below our efforts on three Strategic Framework goals 
directly related to federal lands and climate change: Science, 
Adaptation, and Mitigation.
Science
    Science that advances our understanding of the environmental, 
economic, and social implications of how climate change impacts forests 
and grasslands is essential for scientists, managers and policymakers. 
There is a wide range of existing science that needs to be translated 
into land management applications, tools and information. In addition, 
citizens knowledgeable about climate change and its impacts on 
ecosystems will be better prepared to participate in decisions and 
actions affecting their national forests and grasslands.
    Climate change presents significant challenges to sustainable 
management of National Forest System lands. Decisions being made today 
by policymakers and resource managers will have implications through 
the next century. Recent reports from the U.S. Climate Change Science 
Program (CCSP) and the Intergovernmental Panel on Climate Change (IPCC) 
highlight the impacts of climate change on forests and grasslands. 
These impacts include changes in precipitation and water availability, 
shifts in plant and animal distribution, and longer, warmer growing 
seasons. In 2008, the CCSP released a Synthesis and Assessment Report 
on the Effects of Climate Change on Agriculture, Land Resources, Water 
Resources, and Biodiversity. <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ Id., p. 118.
---------------------------------------------------------------------------
    The report found that:
    <bullet>  Climate change has very likely increased the number and 
frequency of forest fires and insect outbreaks in the Interior West 
(Colorado and the Great Basin), the Southwest, and Alaska, and will 
continue to do so.
    <bullet>  Rising CO<INF>2</INF> will very likely increase 
photosynthesis for forests, but this increase will likely only enhance 
wood production in young forests on fertile soils.
    <bullet>  Nitrogen deposition and warmer temperatures have very 
likely increased forest growth where adequate water is available and 
will continue to do so in the near future.
    <bullet>  The combined effects of rising temperatures and 
CO<INF>2</INF>, nitrogen deposition, ozone, and forest disturbance on 
soil processes and soil carbon storage remain unclear.
    <bullet>  Projected increases in temperature and a lengthening of 
the growing season will likely extend forage production into late fall 
and early spring, thereby decreasing need for winter-season forage 
reserves.
    <bullet>  Climate-change-induced shifts in plant species are 
already under way in rangelands. Establishment of perennial herbaceous 
species is reducing soil water availability early in the growing 
season.
    The Forest Service has a long history of researching and tracking 
many aspects of national forest and grassland ecosystems. We have over 
two decades of focused climate research, three decades of air pollution 
research, and experience in scientific assessments that provide a firm 
scientific foundation for addressing the challenges of managing these 
ecosystems relative to climate change. Over the years, nearly 125 
Forest Service scientists have published climate change research 
reports and peer-reviewed publications. Thirteen Forest Service 
scientists were involved in the climate change work of the IPCC that 
shared in the 2007 Nobel Peace Prize. In addition, the Forest Service 
and its research partners in the university and private sectors have 
established a strong science base for informing management practices 
under a wide range of stressors and management objectives. This science 
base is being blended with newer findings to provide an evolving 
science and technology base for use in managing national forests and 
grasslands in a changing climate.
    The Forest Service recently completed the Global Change Research 
Strategy for 2009-2019. The Strategy is aimed at providing science 
related to climate change for land managers, policymakers, scientists, 
and citizens. Our research will focus on adaptation, mitigation, 
decision support, and science delivery with support from research from 
other areas such as land use change, interactions between fire and 
fuels management, carbon cycles, ecosystem management, insects and 
disease, water, air, soils, wildlife, and social and economic sciences.
    The Forest Inventory and Analysis Program has tracked changes in 
the extent, health, and productivity of forests since the 1930s. In the 
early 1990s, additional forest health indicators were added to the 
program and this data can be used over the long term to detect changes 
in forests at regional and national levels. In addition, the nationwide 
network of federal experimental forests and ranges provides up to 100 
years of data on climate, hydrology, soil productivity, and 
silvicultural treatments from selected locations representing all the 
major forest types in the United States. Further scientific support 
comes from partnerships with universities, federal and state agencies, 
non-governmental organizations, and the forest industry.
    The challenge is to translate this science into information, tools, 
and technologies that people can use. In addition, we have important 
science gaps that need to be addressed. Climate models lack the ability 
to provide projections at the detailed scale that is most useful to 
land managers and local and regional planners. We lack critical 
information to determine the stresses of a warming climate and carbon 
dioxide on plant growth. We need more science about the timing, scale, 
and location of climate change impacts. Our scientists are looking for 
better ways of forecasting how terrestrial ecosystems will change in 
response to a changing climate and how the changes will affect animals 
and plants that depend on these ecosystems. The Strategic Framework, 
the Research Strategy and the USDA science strategy recognize these 
gaps, and the Forest Service is working with USDA and other federal 
agencies and partners to address them.
Adaptation
    The goal of climate change adaptation for forests and grasslands is 
to enhance their ability to adapt to the environmental stresses of 
climate change, which will help to ensure their ability to serve as 
fully functioning ecosystems that provide a broad range of ecosystem 
services. The ability to adjust to climate change is critical because 
of its expected effects.
    Even under the most optimistic carbon dioxide emission scenarios, 
important changes in sea level, regional and super-regional 
temperatures, and precipitation patterns will have profound effects. 
Management of water resources will become more challenging. Increased 
evidence of disturbances such as forest fires, insect outbreaks, severe 
storms, and drought will command public attention and place increasing 
demands on management resources. Ecosystems are likely to be pushed 
increasingly into alternate states with possible breakdown of 
traditional species relationships, such as pollinator/plant and 
predator/prey interactions, adding additional stresses and potential 
for system failures. <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ Id., Abstract.
---------------------------------------------------------------------------
    Some forest systems may experience near-term productivity 
increases, but over the long term, many such systems are likely to 
experience overall decreases in productivity that could result in 
economic losses, diminished ecosystems services, and the need for new, 
and in many cases significant, changes to management regimes. 
<SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ Id., Abstract.
---------------------------------------------------------------------------
    Managers and policymakers will need to be nimble in using new 
information to adapt to changing conditions because the scope of 
climate change and its impacts on ecosystems are difficult to predict. 
In addition, dealing with risks and uncertainties introduced or made 
worse by climate change will need to be a more prominent part of our 
management decision processes. In some cases, failing to take 
management actions will result in significant disruptions to 
ecosystems, so we must maintain as many options as possible now and in 
the future for handling unexpected events and conditions.
    The primary focus of climate change efforts on National Forest 
System lands is to facilitate the adaptation of ecosystems to the 
effects of these changes. Each year, we manage millions of acres of 
National Forest System land to make forests and grasslands more 
resistant to wildland fires, insects and diseases, and more resilient 
to major disturbances such as intense wildfires, tropical storms, and 
floods. For example, we conduct prescribed burning and thin dense 
stands to reduce competition, alter species composition, reduce fuels, 
and improve forest health. These same treatments help our national 
forests and the species that depend on them adapt to the stresses 
associated with climate change.
    Water is one of the most critical ecosystem services provided by 
forests and grasslands. Water quality, quantity, and the timing of 
water flow have important environmental, social, and economic 
consequences. Forests in the United States provide 53% of the Nation's 
drinking water to more than 180 million people, with 66 million relying 
directly on National Forest System lands as their water source. Plants, 
animals, natural and managed ecosystems, and human settlements are 
susceptible to variations in the storage, fluxes, and quality of water, 
all of which are sensitive to climate change. Precipitation, 
streamflow, and stream temperatures are increasing in most of the 
continental United States. The western United States is experiencing 
reduced snowpack and earlier peaks in spring runoff, and we are seeing 
increased drought severity and duration in the western and southwestern 
United States. <SUP>5</SUP> Clearly, we need effective approaches to 
address these changes, and we are developing a water strategy to 
address these issues.
---------------------------------------------------------------------------
    \5\ Id. Executive Summary.
---------------------------------------------------------------------------
    More extensive application of these efforts is vital for adaptation 
of national forests and grasslands, and will need to be part of future 
research, planning and management actions. To accelerate our learning 
and understanding, we are practicing science-based adaptive management, 
an approach that promotes learning through doing. This approach 
involves actively making decisions and monitoring results to improve 
our understanding about the complex systems we manage.
    Some management actions may need to be expanded, such as planting a 
more diverse species mix in reforestation efforts that may be better 
adapted to future climate projections. New management strategies may be 
useful, such as assisted migration of species and solutions to moderate 
extreme stream flows. Specific techniques need to be continually 
developed, tested and evaluated. Monitoring the effectiveness of our 
actions is a critically important component of this adaptive adjustment 
process.
Mitigation
    Adaptation and mitigation activities are inherently interrelated. 
The goal of climate change mitigation for forests and grasslands is to 
reduce the buildup of greenhouse gases by removing carbon from the 
atmosphere while sustaining these ecosystems. To significantly reduce 
its greenhouse gas emissions, the United States will need to implement 
a variety of mitigation strategies, including sequestering more carbon 
in forests, grasslands, wetlands, soils, and wood products, planting 
trees, implementing carbon capture and storage from point sources, and 
conserving energy through multiple options, including product 
substitution and use of alternative fuels. A wide variety of strategies 
can cumulatively contribute to a significant decrease in emissions.
    Net carbon uptake by terrestrial ecosystems in the United States, 
coupled with storage in wood products and landfills, currently offsets 
about 12 percent of United States greenhouse gas emissions from fossil 
fuel combustion and cement production. <SUP>6</SUP> Management of 
forests and grasslands to enhance terrestrial carbon storage, including 
planting trees and avoiding forest conversion, has considerable 
potential as an important component of the global capacity to mitigate 
effects of fossil fuel emissions.
---------------------------------------------------------------------------
    \6\ US EPA. April 2008. Inventory of U.S. Greenhouse Gas Emissions 
and Sinks: 1990-2006. USEPA #430-R-08-005
---------------------------------------------------------------------------
    The long-term ability of forests to sequester carbon depends in 
part on their resilience. Mitigation is actually dependent on how 
successful we are in keeping forests well-adapted to the changing 
climate we are trying to remedy. The interplay between mitigation and 
adaptation can result in delicate balances and difficult tradeoffs in 
our decision-making.
    Active management may increase the resiliency of forests and arid 
lands to respond to climate change. Forest thinning can reduce fire 
intensity, increase drought tolerance and reduce susceptibility to 
insect attack. Grazing management and control of invasive species can 
promote vegetation cover, reduce fire risk, and reduce erosion. 
<SUP>7</SUP> These management practices, designed to restore ecosystem 
health, may in the near-term reduce total stored carbon below current 
levels. However, in the long-term the overall capacity of these 
ecosystems to sequester carbon can be enhanced.
---------------------------------------------------------------------------
    \7\ CCSP. May 2008. SAP 4.3. p. 78.
---------------------------------------------------------------------------
    As one of the mitigation strategies, the Forest Service is looking 
at ways to use smaller diameter woody biomass from overcrowded forests. 
Biomass removal through forest restoration projects reduces the risk of 
damage from wildfires and other disturbances and provides a source of 
cellulose for bio-energy and wood products. The removed biomass also 
decreases the net effective emissions from disturbance events, offsets 
fossil fuel emissions, and increases long-term carbon storage. The 
Forest Service Bioenergy and Bio-based Products Strategic Direction was 
recently completed and is aimed at providing science to analyze and 
inform policy and develop a variety of tools useful for landowners and 
land managers. We are working to provide the science and technology to 
effectively utilize this type of biomass.
    The implementation of restoration activities and increases in 
renewable energy products and bio-fuels can provide jobs for 
economically depressed areas with high unemployment and contribute to 
the long-term economic stability of rural forest communities. 
Sustainable forest management can provide woody biomass materials that 
could be used in the future production of renewable energy which may 
reduce greenhouse gas emissions.
    The 2007 Energy Act amended the Renewable Fuel Standards to 
increase annual amounts of transportation fuel required to be obtained 
from renewable fuels. The Clean Air Act defines renewable fuels as 
transportation fuel produced from renewable biomass. The 2007 Energy 
Act's definition of renewable biomass excludes materials from federal 
lands except those obtained from the immediate vicinity of buildings 
and other areas regularly occupied by people, or public infrastructure, 
at risk of wildfire. We continue our analyses of these and other 
provisions of these laws, and are in the process of developing policy 
considerations to utilize woody biomass from federal lands through 
improvement in infrastructure to process woody biomass, better the 
economic utility of this biomass as a source of renewable energy, and 
enhance cost-effective forest restoration treatments that improve 
forest health and reduce risk of wildfire.
Conclusion
    The changing climate is shifting precipitation patterns, vegetation 
and species distribution, and disturbance patterns, none of which 
respect administrative boundaries. We are taking science-based adaptive 
management approaches today to improve the health and sustainability of 
our national forests and grasslands, which in turn will help these 
ecosystems adapt to the effects of climate change and mitigate the 
amount of carbon in the atmosphere. Private forests and rangelands also 
have a very significant role to play in combating climate change. We 
are working with partners to adapt our forest and rangeland management 
programs to anticipate the effects of climate change and mitigate the 
potential impacts across all ownerships.
    Thank you for the opportunity to discuss these issues with the 
Subcommittee. I would be happy to answer any questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you, Chief.
    Let me ask Mr. Thomas Armstrong, Senior Advisor for Global 
Change Program, U.S. Geological Survey, Department of the 
Interior. Sir, welcome.

  STATEMENT OF THOMAS R. ARMSTRONG, SENIOR ADVISOR FOR GLOBAL 
CHANGE PROGRAM, U.S. GEOLOGICAL SURVEY, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Armstrong. Thank you. Mr. Chairman and Members of the 
Subcommittee, thank you for the opportunity to participate on 
behalf of the Department of the Interior in today's hearing on 
combating climate change and the role of Federal lands.
    My name is Tom Armstrong, and I am the Senior Advisor for 
Global Change Programs at the U.S. Geological Survey. I also 
represent the USGS and the Department of the Interior as a 
principal member of the U.S. Climate Change Science program.
    Perhaps no subject relevant to public resource managers is 
as complex and challenging as global climate change. DOI is 
focusing its resources on better understanding the impacts 
related to climate change and helping to identify potential 
adaptation strategies for managing our natural resources and 
vital ecosystems in the face of these changes.
    Let me give you some specific examples of climate-change-
related impacts on DOI lands, waters, and other resources.
    The Bureau of Land Management is a steward of the national 
system of public lands: 258 million acres of surface lands and 
700 million acres of subsurface Federal mineral estate, 
encompassing climate-sensitive arctic tundra, coastal forests, 
and the vast mountain deserts, and rangelands of the American 
West. They provide water resources, wildlife habitat, 
recreation opportunities, forest products, livestock forage, 
and mineral and energy resources.
    The National Park Service units represent a wide range of 
ecosystems scattered across the Nation that present a 
tremendous opportunity to observe the effects of climate change 
on resource conditions that scientists and managers have 
documented over decades.
    Begun almost nine years ago, the National Park Service 
Natural Resource Challenge Initiative has funded parks across 
the Nation to conduct inventories and initiate climate-
relevant, viable science monitoring of national resources under 
the NPS's jurisdiction. This information has provided timely 
examples of the effects of climate change now visible in many 
of the nation's national parks.
    The U.S. Fish and Wildlife Service biologists working on 
the ground are observing changes in many of our natural systems 
as well. These changes are more acutely evident in arctic 
ecosystems, where observations include wetland drainage, 
earlier green-up of arctic vegetation, and changes in the 
hydrology of glacially fed streams.
    Increased arctic temperatures have also contributed to 
earlier onset of snowmelt and the lengthening of the melting 
season, resulting in decreased total ice cover at summer's end.
    Climate change in the arctic will continue to affect the 
habitats of ice-dependent species, such as the polar bear and 
the walrus. Now, let me briefly discuss how we are focusing our 
resources to combat climate change and its impacts.
    The USGS is collecting, monitoring, analyzing, and 
providing scientific information about natural resources 
conditions, issues, and problems for use by decisionmakers in 
the Department, at all levels of government, and by the general 
public. This information, coupled with its effective 
dissemination, is the key to combating the effects of climate 
change.
    To this end, the USGS has created a climate effects 
network, an early warning system on the effects of climate 
change, as well as the National Climate Change and Wildlife 
Science Center for understanding fish, wildlife, and related 
habitat response to changing climate.
    The efforts of USGS will result in new knowledge and tools 
to support land and resource managers, citizens, and other 
stakeholders in managing and making decisions that will be 
cost-effective, provide for more resilient ecosystems and 
watersheds, and, ultimately, safer communities.
    The Administration recognizes the important role science 
plays in understanding and addressing the impacts of climate 
change. The President's 2010 budget blueprint includes more 
than $130 million in additional funding for the Department to 
monitor, adaptively manage, and assess the impacts of climate 
change on the nation's lands, fish, waters, and wildlife. While 
more details relating to the Department's budget will become 
available as the planning process continues, this is an 
important endorsement of the need for scientific analyses to 
understand and address these changes.
    The Department of the Interior has a natural leadership 
role among Federal agencies addressing climate change on 
Federal lands and can bring all of its resource management, 
scientific, and information capabilities to bear in 
accomplishing this goal.
    All of the Department's land-managing bureaus have taken 
actions to identify and address the impacts of climate change, 
but the complexity of the problem and the scope of the issues 
demonstrates that more work is, indeed, necessary.
    As Secretary Salazar assembles his team, the Department 
will work with its counterparts in this Administration to 
address the important issues.
    Thank you, Mr. Chairman, for the opportunity to present my 
testimony, and I will be pleased to answer any questions you 
and the other Members may have for me.
    [The prepared statement of Mr. Armstrong follows:]

Statement of Dr. Thomas R. Armstrong, Senior Advisor for Global Change 
   Programs, U.S. Geological Survey, U.S. Department of the Interior

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to participate on behalf of the Department of the Interior 
in today's hearing on combating climate change and the role of Federal 
lands. My name is Thomas R. Armstrong, and I am the senior advisor for 
Global Change Programs at the U.S. Geological Survey (USGS). I also 
represent the USGS and the Department as a Principal member of the U.S. 
Climate Change Science Program (CCSP).
    The Department has a natural leadership role among Federal agencies 
addressing climate change on Federal lands and can bring all of its 
resource management expertise, capacity for alternative energy 
development, and scientific and information capabilities to bear in 
accomplishing that goal. As Secretary Salazar assembles his team, the 
Department will work with its counterparts in the Administration to 
address these important issues.
    My statement today largely focuses on the USGS's role with regard 
to climate change research and science, focusing on climate impacts on 
our natural resources, including water, land, and wildlife. In 
addition, Section 711of the Energy Independence and Security Act (P.L. 
110-140), enacted into law in December 2007, authorized the Secretary 
of the Interior, acting through the Director of the USGS, to develop an 
assessment methodology and conduct a national assessment of geological 
storage capacity in collaboration with other relevant agencies. The 
USGS's ability to collect, monitor, and analyze relevant data allows it 
to provide scientific information about natural resource conditions, 
issues, and problems to decision-makers in the Department, at all 
levels of government, and the general public. This information--
baseline scientific information, trends detection, modeling and 
forecasting, together with the effective dissemination of information 
and decision support tools--is key to understanding and addressing 
climate change and its effects.
    The Administration has recognized the important role science plays 
in understanding and addressing the impacts of climate change. The 
President's 2010 Budget Blueprint includes more than $130 million in 
additional funding for Interior, of which $40 million is shared with 
the States to monitor, adaptively manage, and assess the impacts of 
climate change on the Nation's lands, fish and wildlife. While more 
details relating to the Department's budget, and these particular 
activities, will become available as the planning process continues, 
this is an important endorsement of the need for scientific analyses to 
understand and address these changes.
    My statement also includes summary information on the impacts of 
changing climate as seen on the ground by the Department's land 
managing bureaus and the Bureau of Reclamation, as well as a brief look 
at adaptation and mitigation issues facing the bureaus as they carry 
out their missions. I am also joined by representatives from the Bureau 
of Land Management, the National Park Service, and the U.S. Fish and 
Wildlife Service, who are here to answer any questions you might have 
with respect to their programs.
Background
    Perhaps no subject relevant to public land managers is as complex 
and challenging as global climate change. The Department of the 
Interior manages one in every five acres of the U.S. land mass. The 
bureaus within it operate dams and irrigation facilities that provide 
water to farmers and manage leases from which one-third of the Nation's 
domestic energy supplies are produced. Lands and waters under the 
Department's management jurisdiction account for significant 
contributions to our alternative energy supply from sources such as 
biomass, geothermal, solar, and wind power. Our wildlife refuges and 
national parks provide important wildlife habitat and manage extensive 
areas of shoreline and important wetlands. In Alaska alone, where the 
most tangible effects of climate change are being seen in the United 
States, the Department manages tens of millions of acres of public 
land, parks, and refuges.
    Climate change affects biota, water, ecosystems, cultures, and 
economies. The Fourth Assessment Report of the Intergovernmental Panel 
on Climate Change (IPCC) notes that climate change is expected to 
affect precipitation patterns, vegetation types and distribution, 
wildlife habitat and behavior, fire frequency, sea levels, the spread 
of pests and diseases, as well as a broad range of human activities. In 
order to effectively manage its lands and trust resources, the 
Department, working within the broader U.S. interagency climate change 
science framework, has a responsibility to further the scientific 
understanding of climate change processes and impacts. USGS scientists 
were contributing authors of the Climate Change Science Program's 
Synthesis and Assessment Product 4.4: Preliminary Review of Adaptation 
Options for Climate-Sensitive Ecosystems and Resources, drawing on 
their expertise to identify adaptation strategies for National Parks 
and National Wildlife Refuges. The USGS conducts scientific research to 
understand the likely consequences of climate change, especially by 
studying how climate has changed in the past and using this historical 
record to forecast responses to shifting climate conditions in the 
future; distinguishing between natural and human-influenced changes; 
and recognizing ecological and physical responses to changes in 
climate. These strengths allow USGS to play a critical role in 
conducting climate change science across the Nation's terrestrial, 
freshwater, and coastal systems--within and beyond Federal lands--and 
in providing objective science to assist decision-makers.
USGS Climate Change Science
    Using these integrated assets, the USGS is creating a Climate 
Effects Network, an early warning system on the effects of climate 
change. USGS is also developing a National Climate Change and Wildlife 
Science Center for understanding fish and wildlife responses to 
changing climate and for testing and validating related adaptation 
decisions by land managers and other stakeholders. The efforts of USGS 
will result in new knowledge and tools to support land and resource 
managers, citizens, and other stakeholders in making decisions that 
will be cost effective, provide more resilient ecosystems and 
watersheds, and safer communities.
    The USGS provides on-the-ground scientific information from its 
numerous observation and monitoring networks and research activities. 
These observations and related research efforts are important 
components for building climate models, especially those that deal with 
the impacts of climate change to terrestrial, freshwater, and marine 
ecosystems. The ability to provide ground-truthing across multiple 
scientific disciplines in a wide variety of spatial and temporal scales 
enables the USGS to play a key role within the climate science 
community as we, and others in the international community, strive to 
develop adaptation and mitigation measures.
    Regarding climate impacts on Federal lands, USGS findings and data 
provide critical information to decision-makers regarding many 
important climate-related issues, such as:
    <bullet>  Proliferation of invasive species and impacts on 
biodiversity, habitat, and ecosystems. The USGS is conducting several 
major studies throughout the United States looking at the evolution of 
forest and rangeland communities as a response to warming climate and 
changes in precipitation. The U.S. Forest Service, several land 
resource bureaus of the Department, and numerous State resource 
agencies are important stakeholders.
    <bullet>  Current and future trends of climate warming in the 
Arctic and resultant permafrost degradation and impacts on energy and 
transportation. The USGS is conducting several coordinated studies on 
the North Slope and Yukon Basin of Alaska. Emphasis is on permafrost 
and climate effects monitoring and related ecological and socio-
economic changes. This work is a partnership with the U.S. Forest 
Service, the U.S. Fish and Wildlife Service, the Bureau of Land 
Management, the National Park Service, the University of Alaska, Alaska 
State agencies, and various Native communities.
    <bullet>  Coastal erosion in Alaska. A recent study, led by the 
USGS, finds that average annual erosion rates along part of the 
Beaufort Sea climbed from historical levels of about 20 feet per year 
between the mid-1950s and late-1970s, to 28 feet per year between the 
late-1970s and early 2000s, to a rate of 45 feet per year between 2002 
and 2007. While the findings could represent a short-term episode, the 
study, published in the current issue of Geophysical Research Letters, 
could represent the future pattern of coastline erosion in the Arctic.
    <bullet>  Consequences of abrupt changes in climate including sea-
level rise and impacts to low-lying coastal communities. USGS projects 
include two Priority Ecosystem Studies in the Chesapeake Bay and the 
Everglades. The USGS is collaborating with many partners, including the 
Army Corps of Engineers, the U.S. Environmental Protection Agency, the 
National Oceanic and Atmospheric Administration (NOAA) and the land 
management bureaus within the Department.
    <bullet>  Impacts of climate change on land use and landscape 
change. In partnership with the National Aeronautics and Space 
Administration and NOAA, the USGS is involved in a variety of 
activities that are critical to understanding the impacts of climate 
change on public lands. These include monitoring of coastal zone 
topography and bathymetry; the production and distribution of national 
topography data; and improving our knowledge of topographic surface 
change through Landsat, and light-imaging detection and ranging (LIDAR) 
and radar imaging of the U.S. national land surface.
    <bullet>  Future availability of water for people and ecosystems. 
Specific projects underway include hydroclimatology studies in the 
Pacific Northwest and arid Southwest to assess current and future 
changes in water availability for these regions, and to identify 
associated impacts on dam and reservoir management strategies. The 
Bureau of Reclamation and several State water agencies are principal 
stakeholders for this work.
    Scientific findings related to climate change must be effectively 
conveyed and delivered in a timely manner so that decision-makers are 
informed by the most relevant, up to date, objective information 
possible. Furthermore, scientists must provide this information with 
accurate estimates of uncertainty so that conclusions and 
recommendations drawn from scientific studies can be properly 
evaluated. The CCSP, of which both the USGS and the Department are 
members, is actively involved in developing a more effective decision 
support strategy for all interested stakeholders.
    Although science has come far in understanding the impacts of 
climate change on people and ecosystems, many significant challenges 
and unique opportunities to better understand the long-term climate 
future for our planet remain. These include:
    <bullet>  Developing a holistic, earth-systems science approach to 
help communities and natural resource managers prepare for climate 
change impacts;
    <bullet>  Developing a better understanding of how the earth and 
its physical and biological processes interact, and with this 
understanding respond to climate change over the short-term and well 
into the future;
    <bullet>  Forecasting climate-related impacts for physical and 
biological systems;
    <bullet>  Forecasting precipitation changes as a consequence of 
changing climate;
    <bullet>  Determining how global warming may alter the frequency, 
intensity, and paths of strong storms, including hurricanes, as well as 
their impacts on coastal communities and natural resources; and;
    <bullet>  Understanding effects of climate change on entire 
ecosystems.
    Included below is a summary of the impacts of changing climate on 
our bureau assets and resources and a brief look at adaptation and 
mitigation issues that the bureaus are currently facing. As can be 
seen, all the Department's land managing bureaus have taken some 
actions to identify and address the impacts of climate change, but the 
complexity of the problem and the scope of the issues to be addressed 
means more work is necessary.
Bureau of Land Management
    The BLM is steward of the National System of Public Lands, 258 
million acres of surface lands and 700 million acres of subsurface 
Federal mineral estate that are tremendously diverse. Encompassing 
Arctic tundra, coastal forests, and the vast mountains, deserts, and 
rangelands of the American West, they provide water resources, wildlife 
habitat, recreation opportunities, forest products, livestock forage, 
and mineral and energy resources.
    The effects of climate change may already be apparent on public 
lands managed by BLM. One example is the desertification of public 
lands as a result of an increase in the frequency and duration of 
drought, which has recently been linked to long-term changes in the 
climate system. This has been accompanied by reductions in surface flow 
and groundwater levels, and a reduction in water availability. 
Vegetation in some places has converted to more drought hardy species, 
accompanied by or resulting from the expansion of non-native and other 
undesirable species. In some instances, species numbers have been 
reduced and, in affected habitat, some species have been lost. The 
overall results of these changes are more fragile ecosystems, a greater 
susceptibility to the outbreak of attacks by parasites and disease, 
increased vulnerability to wildland fire and erosion, and an overall 
reduction in carrying capacity. In Alaska, increased melting and other 
loss of glacial masses is seen and permafrost melting is occurring, 
resulting in loss of soil stability and increased erosion.
    As a bureau, BLM is beginning to address climate change as a 
comprehensive factor in general management planning, and to identify 
the effects under cumulative impact analysis in environmental 
assessments. At this point, however, there is little guidance in 
dealing with this issue; as knowledge of climate change processes 
matures, the bureau's ability to address it will evolve and almost 
certainly improve. The BLM is currently working on refinements to 
enhance integration of science, planning, and project implementation. 
The BLM is also working to increase its ability to monitor, assess, 
predict, and respond to landscape changes over time, and is also 
continuing and expanding science research partnerships with the USGS, 
Department of Energy, other agencies, and universities.
    The BLM is also implementing programs to address climate change on 
a broader scale. Maintaining and restoring healthy, resilient 
ecosystems is crucial to ameliorating and adapting to the effects of 
climate change. Much has been learned as this effort has evolved. Most 
importantly, the Bureau has recognized that landscape-scale problems 
require landscape-scale responses. Effective management must apply 
science, integrate disciplines, involve partners, coordinate 
jurisdictions, and link local actions to regional management strategies 
and priorities. Examples include the Great Basin Restoration Initiative 
underway in Nevada, Oregon, and Idaho, and the Healthy Forests 
Initiative, which focuses on restoring forest ecosystems across public 
lands.
    The BLM is providing opportunities for increased production of 
renewable energy through permitting on public lands of wind, solar and 
geothermal generation projects--of which there is vast potential--and 
projects for use of woody biomass resulting from forest management. The 
BLM's completed programmatic plans estimate that, by 2025, wind energy 
capacity on public lands could reasonably increase five-fold from 
current levels. The projected increase for geothermal energy is even 
greater. Fully 90 percent of the existing and future geothermal 
resources in the United States are on Federal lands, and geothermal 
energy capacity could reasonably increase 15-20-fold by 2025. 
Similarly, solar energy on public lands holds great potential, and BLM 
is currently completing a programmatic environmental impact statement 
to assess potential development scenarios for solar energy and to help 
facilitate the development of solar energy projects on the public 
lands.
    The public lands may also have an important role in efforts to 
mitigate emissions through terrestrial and geologic carbon 
sequestration. The capability to capture and store carbon dioxide in 
geologic formations could have a significant role in mitigating carbon 
dioxide emissions, which are a key factor in climate change. Geologic 
carbon sequestration is also considered especially important because it 
could enable the more climate-friendly use of the Nation's vast coal 
resources. However, the challenges of geologic carbon sequestration are 
complex and significant, and many technological, scientific, legal and 
logistical questions exist. The BLM is working in cooperation with the 
Department of Energy to assess the feasibility of geologic 
sequestration, and BLM is currently preparing recommendations regarding 
the potential administration of geological sequestration projects on 
public lands.
    Finally, BLM is implementing policies and practices that result in 
reduction of energy and other natural resources used by the bureau, as 
well as production of pollutants that exacerbate climate change 
effects.
National Park Service
    National park units represent a wide range of ecosystems scattered 
across the nation that present a tremendous opportunity to observe the 
effects of climate change on resource conditions that scientists and 
managers have documented over decades. Begun almost nine years ago, the 
National Park Service Natural Resources Challenge Initiative has funded 
parks across the nation to conduct inventories and initiate vital signs 
monitoring of natural resources under the NPS's jurisdiction. The 
combination of these sources of information, long-term legacy 
monitoring data, and new inventories has provided timely examples of 
the possible effects of climate change now visible in parks.
    Based on NPS and other collaborative research, climate change 
presents significant risks and challenges to national parks. Warming 
temperatures have caused accelerated melting of mountain glaciers, 
reduced snowpack, and changes in timing and amount of stream flow. As 
noted above, these impacts are particularly felt in Alaska, where 
melting sea ice threatens marine mammals as well as coastal 
communities, and thawing permafrost is contributing to the loss of 
buildings, roads, and facilities and disrupting the structural basis of 
large regions of interior Alaska. Shoreline vulnerability maps for 
parks, created by the USGS, predict that rising seas will erode beaches 
and coastlines and submerge wetlands and Native American cultural 
artifacts at coastal park units. Inundation of coastal estuaries, 
intertidal zones, and beaches will result in beach loss. Elevated water 
temperatures are causing coral bleaching and disease, and aggravating 
water quality problems that lead to harmful algal blooms. Estuaries, 
which are essentially fish nurseries that filter pollutants and protect 
the coast from storm surges, will be submerged faster than new sediment 
can build up. Valuable habitat for eelgrass beds, foraging waterbirds, 
shorebirds and nearshore fish will be lost. While some impacts are 
already measurable, the long-range effects of climate disruption on NPS 
natural and cultural resources, park infrastructure, and visitor 
experience are not currently known.
    Because climate change has been identified as one of highest 
priorities for the NPS, many actions and activities have been 
undertaken at parks and within regions. The NPS is now in the process 
of developing a strategic framework for action that will detail long 
and short-term actions in three major areas: mitigation, adaptation, 
and public communication. The NPS has hired a Climate Change 
Coordinator, created six ad-hoc working groups--Legal & Policy; 
Planning; Science; Resource Stewardship; Greenhouse Gas Emission & 
Sustainable Operations, and Communication--to explore key goals and 
strategic actions that need to be addressed at park, regional, and 
national levels; and has held a series of regional and interagency 
workshops to explore climate change impacts and coping strategies and 
to develop action plans. In conjunction with the Environmental 
Protection Agency, in 2003 the NPS initiated the Climate Friendly Parks 
Program to promote sustainable operations in parks and create action 
plans to reduce greenhouse gas emissions, with almost 50 parks now 
participating. The NPS also created the Environmental Management 
Systems Programs with the goal of sustainable park operations and 
reduction of environmental impacts. Finally, NPS formed a service-wide 
Climate Change Response Steering Committee to foster communications, 
provide recommendations, and serve as an advisory body to NPS 
leadership; the Committee adopted the NPS Ocean Park Stewardship Action 
Plan in 2006 to guide actions to reduce ocean-related climate change 
impacts.
    Looking to the future, the NPS will seek opportunities to 
capitalize on, and expand, the potential that units of the national 
park system provide for understanding long-term effects of climate 
change, testing innovative measures for adapting to climate change, and 
informing the public about climate-change-caused effects on natural and 
cultural resources and on the ability for visitors to experience 
enjoyable park visits.
U.S. Fish and Wildlife Service
    The Service is a field-based organization, and biologists working 
on-the-ground are observing changes in many of our natural systems. 
Like the other land managing bureaus, these changes are more acutely 
evident in Arctic ecosystems where, in addition to the previously 
mentioned changes, observations include wetland drainage earlier 
``green-up'' of Arctic vegetation, and changes in the hydrology of 
glacially-fed streams. Increased Arctic temperatures have also 
contributed to the earlier onset of snow melt and the lengthening of 
the melting season, resulting in decreased total ice cover at summer's 
end. Climate change in the Arctic will continue to affect the habitats 
of ice-dependent species such as polar bear and walrus.
    Like the polar regions, the Northwest and the Mountain-West have 
been experiencing reductions in annual snowpack, with USGS estimating 
that climate changes over the last 50 years in these areas have led to 
as much as a 17 percent decline in annual winter snowpack. The result 
has been a decreased recharge of ground water systems, increased stress 
to public water systems, changes in the timing of river ice-outs, and 
reduced river flows that affect temperature, depth, and other 
characteristics of spawning environments for fish such as Pacific 
salmon. Snowpack declines also have been accompanied by earlier annual 
peaks in river run-off, as documented in stream gage monitoring and 
analyses across the lower 48 States and throughout Alaska. As snow pack 
melts earlier throughout the western United States, reservoirs designed 
upon 20th century hydrology may not be able to adequately store the 
runoff. Predictions of less frequent, but more intense, summer storms 
may exacerbate storage and supply concerns.
    Land managers face the growing reality that these recent 
observations may not be part of annual or even decadal change in 
weather patterns, but are possibly linked to a long-term change in the 
climate system. If this is the case, the implications for wildlife and 
fisheries management are substantial and will require extensive changes 
in the design and placement of projects to store water, protect and 
restore habitats, and manage populations.
    Service biologists are also noting changes in abundance and 
distribution of species, including the expansion of pests and invasive 
species. Expansion of the mountain pine beetle into higher latitudes 
and elevations--areas once too cold to support it--is well correlated 
with observed temperature changes. This range expansion is increasingly 
impacting forest habitats, not just killing trees, but making these 
landscapes more susceptible to catastrophic wildfires and creating the 
potential to drive fundamental shifts in ecosystem function and 
structure. While some species will adapt successfully, some will not. 
Species most at risk are those that are unable to generalize or adapt. 
Long-distance migrants and birds with limited geographical ranges, for 
instance, may not be able to adjust to the changes caused by rising 
temperatures. Species at the end of geographical or elevational 
gradients will have difficulty adapting because they have nowhere to 
which they can migrate. Increased competition for habitat and the lack 
of suitable or available food in new locations would mean that a shift 
poleward may change the size of bird populations and composition of 
bird communities adapting to climate change.
    Other significant changes associated with increased warming include 
rising sea levels and water temperatures that pose threats to marine 
habitats, coastal wetlands, and estuaries which are part of more than 
160 National Wildlife Refuges the Service manages along the nation's 
coastline. Pea Island National Wildlife Refuge, part of the Alligator 
River National Wildlife Refuge Complex along the North Carolina coast, 
is losing ground annually to the Atlantic Ocean. The projected rise in 
sea level over the next 50 to 100 years will likely transform large 
expanses of marsh to open water, forest to marsh, and complicate 
habitat conservation for species such as the Federally endangered red 
wolf and many other species of birds and wildlife.
    While the primary factor causing incidents of harmful algal blooms 
in the Gulf of Mexico is nutrient runoff, increased ocean temperatures 
are also accelerating the intensity of these blooms, or ``red tides.'' 
These increased incidents can cause significant fish kills, contaminate 
shellfish and, when inhaled, can create severe respiratory irritation 
to human. Increased ocean temperatures also contribute to more frequent 
and more intense events of coral bleaching and disease which can stress 
and kill corals. With the rise of atmospheric carbon dioxide levels, 
our oceans are becoming more acidic. As oceans absorb more carbon 
dioxide, the availability of carbonate ions is reduced. Reef-building 
organisms and shellfish require an abundance of carbonate ions to build 
their skeletons and shells.
    The Service has established an impressive track record of adapting 
and mitigating strategies, including pioneering partnerships in habitat 
restoration and terrestrial sequestration. The Service is also 
beginning to address the potential for significant sea level rise. A 
comprehensive modeling effort using what is called the Sea Level 
Affecting Marshes Model (SLAMM) has been undertaken to determine the 
potential effects of sea-level rise on coastal National Wildlife 
Refuges. The SLAMM model simulates the dominant processes involved in 
wetland conversions and shoreline modifications during long-term sea 
level rise. SLAMM results will be crucial elements in developing refuge 
and landscape-scale adaptation strategies and in revising refuge 
comprehensive conservation plans.
    The Service is working with other agencies, States, and partners to 
understand developments as quickly as possible and develop the capacity 
to respond to impacts on lands it manages and trust species under its 
jurisdiction.
Bureau of Reclamation
    The Bureau of Reclamation is the largest wholesaler of water in the 
country, bringing water to more than 31 million people and providing 
one out of five Western farmers with irrigation water for 10 million 
acres of farmland. Reclamation is also the second largest producer of 
hydroelectric power in the western United States, with 58 powerplants 
annually providing more than 40 billion kilowatt hours--enough 
electricity to serve 6 million homes.
    There is extensive study and discussion within the scientific 
community about the potential impacts of a changing climate on western 
water resources. For example, in 2007, a report from the National 
Academies of Science on Colorado River Basin Water Management concluded 
that ``higher temperatures will result in less upper basin 
precipitation falling as snow, increased evaporative losses, and will 
shift the timing of peak spring snowmelt to earlier in the year.'' The 
need to increase the predictive capabilities of climate change models 
was discussed earlier in this statement. As those improvements occur, 
Reclamation will be looking to where and how to incorporate new climate 
change information.
    Fortunately, Reclamation possesses operational flexibility to 
respond to hydrologic change and fulfill its mission to deliver water 
and power in the West. Drought, flood, and wide climate variability are 
all common occurrences in the western United States. Given its mission, 
Reclamation must manage with this variability in mind. However, 
solutions and strategies for incorporating climate change science into 
water project operations is an emerging effort being undertaken by all 
western water management interests, not just Reclamation. Identifying 
the information needed will require coordinated participation from all 
the organizations that can provide expert climate and hydrologic 
sciences.
    Reclamation works with its many partners to better understand and 
incorporate climate information into western water resource management, 
including the USGS. The Reclamation Research and Development (R&D) 
Office is working with climate change experts in the USGS to help 
define the impact of changes in climate variability and climate change 
on western water resources.
Conclusion
    In conclusion, there is a growing consensus that changes in the 
natural and human systems related to the effects of climate change must 
be better understood, monitored and forecasted so that all of the 
Nation's resources can be effectively managed and protected. The 
Department's bureaus are in an important position, partnering with 
USGS, to evaluate and develop responsive strategies for the impacts 
that we are observing and cataloging on resources in the Arctic, water 
resources in the southwest, and on the abundance and distribution of 
wildlife.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony on behalf of the Department. I will be pleased to answer 
questions you and other Members of the Subcommittee might have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much.
    Mr. Anthony Brunello, Deputy Secretary for Climate Change 
and Energy, California Natural Resources Agency. Mr. Secretary.

  STATEMENT OF ANTHONY BRUNELLO, DEPUTY SECRETARY FOR CLIMATE 
    CHANGE AND ENERGY, CALIFORNIA NATURAL RESOURCES AGENCY, 
                     SACRAMENTO, CALIFORNIA

    Mr. Brunello. Thank you, Mr. Chairman, distinguished 
Members. My name is Anthony Brunello. I am the Deputy Secretary 
for Climate Change and Energy at the California Natural 
Resources Agency.
    Federal lands account for approximately 43 percent of 
California's total land ownership and are explicitly linked to 
our ambitious climate change and energy goals across the state. 
Of our 32 million acres of forest land, the Federal government 
manages over 13 million acres that emit and sequester vast 
amounts of greenhouse gases annually.
    National forests in California are estimated to be net 
carbon sinks throughout the entire year, making our forests a 
primary contributor to our national net sinks total.
    The BLM oversees vast landscapes in California, with 
enormous solar, wind, and geothermal energy potential, holding 
the key to powering millions of homes in the West with 
renewable energy. And the National Park Service manages habitat 
for many wildlife and aquatic species that could become extinct 
due to increasing temperatures, shifting precipitation, and 
rising sea levels.
    How the Federal government will require its agencies and 
projects to account for, mitigate, sequester, and monitor 
greenhouse gases and how to adapt to future climate impacts 
should be carefully weighed with their economic, environmental, 
health, and safety considerations while complementing existing 
state climate policy efforts.
    California has a detailed and aggressive portfolio of 
regulations and incentives to reduce the state's greenhouse gas 
emissions, increase its resilience to anticipated climate 
impacts, and to promote the sustainable development and 
utilization of renewable energy resources that we hope will 
match Federal efforts.
    In my submitted testimony, there is much more information 
on our regulations that I discuss there.
    For the remainder of my time, I would like to highlight 
four opportunities for the Subcommittee to continue to provide 
climate and energy policy leadership on Federal lands, 
including, first, work to maintain and increase carbon stocks 
on public lands and, in particular, by reducing catastrophic 
wildfire.
    California's forests are already under threat, as has 
already been mentioned, from development, wildfire, insects, 
pests, disease, and now climate change. Wildfires, in 
particular, are a major driver of forest carbon loss in 
California and for the nation. Over three million acres of 
Forest Service land in California suffered wildfire damage 
between 2000 and 2008, with over 300,000 acres completely 
deforested.
    Climate scientists are predicting that the situation will 
only worsen as temperatures rise. California has been working 
closely with the Forest Service, over the last three years and 
further, to improve our climate-related efforts, but these 
efforts have been marginally funded and need additional 
support.
    Support should be provided to help reforest areas 
devastated by wildfire, fund the expansion of the Forest 
Inventory Assessment, which is absolutely essential to 
understand and have better accounting for carbon on our 
national lands, and expand forest fuels treatment on public 
lands using sustainable harvesting practices in allowing woody 
biomass to be characterized as a renewable fuel.
    This last point is sensitive between the Forest Service, 
industry, and the NGO community, but a solution is needed to 
reduce fire risks and to meet our national climate and energy 
goals.
    Second, consider state actions to assess greenhouse gases 
and environmental impact assessments, such as the California 
Environmental Quality Act, to inform similar efforts for the 
National Environmental Act. This includes basic ``do's,'' such 
as counting of projects' greenhouse gas emissions and 
mitigating for those emissions, to ``do not's,'' such as taking 
away authority for lead agency discretion.
    The third point: Increase public lands' resilience to 
future climate impacts, which has already been discussed today. 
In particular, states need better coordination amongst Federal 
agencies, and this is key: more and better policy-oriented 
research and more funding to implement these efforts. The cap-
and-trade bill will not stop expected sea level rise, 
temperature rise, or reduce rainfall over the next century. 
Adapting to these impacts is a necessity.
    The climate-adaptation text of last year's H.R. 6186 
climate legislation introduced by Representative Markey is a 
good place to start.
    The fourth point: Ensure Federal land management agencies 
have the financing, policies, and authority to quickly and 
effectively process renewable energy applications in 
sustainable locations. This would include providing full 
support for recently created BLM renewable-energy coordination 
offices that will expedite the permitting of wind, solar, 
biomass, and geothermal projects, along with needed electrical 
transmission facilities.
    More details of these measures can be found in my submitted 
testimony.
    Thank you for giving me the opportunity, and I look forward 
to your questions.
    [The prepared statement of Mr. Brunello follows:]

  Statement of Anthony Brunello, Deputy Secretary for Climate Change 
            and Energy, California Natural Resources Agency

    Chairman Grijalva, Ranking Member Bishop, and distinguished members 
of the Subcommittee; thank you for the opportunity to appear today to 
offer testimony regarding the role of federal lands in combating 
climate change in California. My name is Anthony Brunello and I serve 
as the Deputy Secretary for Climate Change and Energy for the 
California Natural Resources Agency (CNRA).
    Federal lands account for approximately 43% of California's total 
land ownership and are explicitly linked to California's ambitious 
climate change and energy goals. For example, of the 32 million acres 
of forestland in California, the U.S. Forest Service (USFS) manages 
over 13 million acres that emit and sequester vast amounts of 
greenhouse gases (GHG) annually. Unlike most of the U.S., California 
forests are estimated to be net carbon sinks throughout the entire 
year. making California forestland a primary contributor to the large 
estimated net carbon sink of U.S. forests. The U.S. Bureau of Land 
Management (BLM) oversees vast landscapes with enormous solar, wind, 
and geothermal energy potential holding the key to powering millions of 
homes in California with renewable energy. And the U.S. National Park 
Service (NPS) manages habitat for many wildlife and aquatic species 
that could become extinct due to increasing temperatures, shifting 
precipitation and rising sea levels.
    How the federal government will require its agencies and projects 
to account for, mitigate, sequester, and monitor GHGs, and how to adapt 
to future climate impacts, should be carefully weighed with their 
economic, environmental, health and safety considerations, while 
complementing existing state climate policy state efforts. I hope my 
testimony provides insight into California's climate policy context as 
the Subcommittee develops new climate policies for federal lands.
California Climate Policies Related to Public Lands
    California has a detailed and aggressive portfolio of regulations 
and incentives to reduce the state's GHG emissions, increase its 
resilience to anticipated climate impacts, and to promote the 
sustainable development and utilization of renewable energy resources 
to meet state energy and climate goals. California's central climate 
policy is the Global Warming Solutions Act (or Assembly Bill 32, AB32) 
signed by Governor Schwarzenegger in 2006 to reduce state GHG emissions 
by roughly 28% below 1990 levels by 2020, and by 80% by 2050. This is a 
mandatory economy-wide target providing broad authority to our state 
air regulating body, the California Air Resources Board (CARB), to use 
regulatory and market-based mechanisms, such as a cap and trade system 
to reach this target.
    In December of 2008 CARB adopted the AB32 work plan (referred to as 
``the Scoping Plan'') to reduce an estimated 172 million metric tons of 
CO<INF>2</INF> equivalent (MMTCO<INF>2</INF>E) by 2020, which includes 
measures related to public lands. Although AB32 is a state law, USFS 
and BLM were directly engaged with state efforts led by CNRA to meet 
forestry and renewable energy goals, in particular. For the forestry 
sector, the Scoping Plan sets a target for the entire state to 
sequester 5 tons or greater across all lands including federal lands.
    Senate Bill 97 (SB97) was passed by the California State 
Legislature in 2007 requiring the state to provide technical guidance 
within the California Environmental Quality Act (CEQA) for how 
individual projects should assess GHG activities from their project 
activities. The guidelines will be complete by the end of 2009, but 
current plans require all projects to: provide an analysis of the 
potential effects of GHGs on the environment; provide a calculation of 
GHG emissions from direct and indirect sources; determine the 
significance of potential impacts assessed and supported by substantial 
evidence; avoid duplicative and costly analysis where it is possible to 
tier from state or regional efforts; adopt feasible mitigation where 
there are significant impacts; and allow Statements of Overriding 
Consideration.
    Regarding renewable energy, Governor Schwarzenegger signed 
Executive Order (EO) S-14-08 in November 2008 requiring California 
utilities to get 33 percent of their electricity load from renewable 
energy sources by 2020. This order sets a renewable portfolio standard 
that leads the nation. A key constraint in reaching this goal is 
efficiently permitting renewable projects on public lands. The EO 
requires state agencies to develop a new streamlined review and 
approval process for renewable energy sites and to cooperate, through 
an MOU with BLM and the U.S. Fish and Wildlife Service (FWS), to create 
a streamlined process that will make it easier for wind, solar and 
geothermal sites to be built in California.
    Regarding climate impacts in California, Governor Schwarzenegger 
signed EO S-13-08 also in November 2008 to enhance the state's 
management of climate impacts from sea level rise, increased 
temperatures, shifting precipitation and extreme weather events. The EO 
initiated California's first statewide climate change adaptation 
strategy with multiple Agencies and Departments to be complete by June 
2009, requested the National Academy of Sciences to assess sea level 
rise impacts specific to California, and ordered state agencies to plan 
for sea level rise in designated coastal and floodplain areas for new 
projects. Given the serious long-term threat of sea level rise and 
other climate impacts to California's water supply and coastal 
resources, an adaptation plan is the first step in reducing assets at 
risk from climate change (largely from wildfire and flooding) that 
could significantly alter our state's economy, population and natural 
resources.
RECOMMENDATIONS
    There are several opportunities for the Subcommittee to continue to 
provide climate and energy policy leadership for federal lands. 
California's recommendations below are based on four general goals 
including: (1) maintain and increase carbon stocks on public lands (in 
particular in reducing catastrophic wildfire); (2) increase public land 
resilience to future climate impacts; (3) ensure federal land 
management agencies have the financing, policies, and authority to 
quickly and effectively process renewable energy applications in 
sustainable locations; (4) and consider state actions to assess GHGs in 
Environmental Impact Assessments, such as in the California's 
Environmental Quality Act (CEQA), inform similar efforts for the 
National Environmental Quality Act (NEPA).
I.  Maintain and increase carbon stocks on public lands
    California's forests are under threat from development, wildfire, 
insects, pests, disease and climate change. Wildfire, in particular, is 
a major driver of forest carbon loss in California, and for the nation. 
Over 3 million acres of USFS land in California suffered wildfire 
damage between 2000 and 2008, with over 300 thousand acres completely 
deforested. Climate scientists are predicting that the situation will 
only worsen as temperatures rise.
    California has been working closely with USFS Region 5 over the 
last 3 years to improve carbon accounting in state and federal forest 
lands, to develop joint forestry GHG emission reduction and forest 
adaptation projects and plans, and to develop markets for biomass 
residue from forest thinning (fuel hazard reduction and forest health) 
and timber harvesting. But, these efforts have been marginally funded 
and need additional support. We recommend the following specific 
activities to ensure we are increasing carbon stocks on public lands.
    1.  Reforest areas that have been devastated by wildfire--As 
mentioned, over 300,000 acres have been completely destroyed and 
deforested from fire over the last decade. Restoring and reforesting 
these lands could require over 30,000 acres per year that could 
eventually sequester 2-5 tons per acre per year. For the 300,000 acres 
of planting there is a potential of sequestering 2-8 MMTCO<INF>2</INF>E 
every year. Replanting has the additional benefit of reducing mudslides 
and promoting habitat restoration.
    2.  Fund the refinement and expansion of the USFS Forest Inventory 
Assessment (FIA)--The FIA is essential in developing, tracking, and 
monitoring any national climate change policy efforts regarding land-
use GHG emissions and sequestration. The refinement and expansion of 
plots in California are essential to demonstrating the contribution of 
forests to GHG reduction and to ensuring that California forests meet 
our state climate goals. FIA data will also, assumedly, be used to set 
state and national baselines for any carbon compliance effort including 
forests as a carbon offset.
    3.  Expand forest fuels treatment on public lands using 
``sustainable harvesting'' practices and utilize extracted woody 
biomass to supplant carbon-based fuels--A key ``no regret'' climate 
policy on federal lands is to support expanded fuels treatment that can 
reduce GHG emissions, reduce fire hazards, and improve public health. 
Current estimates indicate that less than 100,000 acres of USFS land 
are receiving fuels treatment annually, which could easily be doubled 
pending environmental review and, most importantly, funding under the 
Forest Land Use Management Plans. Estimates of biomass residue 
available through fuels treatment could be in the range of 500,000 to 
1,300,000 tons that could be used for the production of liquid fuels, 
electricity, or thermal energy.
    4.  Support research that tracks, monitors, and models GHG 
emissions from catastrophic wildfire, and research that shows project-
level GHG benefits from fire mitigation and adaptation efforts. The 
USFS has a strong research program that already has accomplished a 
great deal of important research about the relationship between forests 
and climate change. Supporting research that provides a foundation for 
tracking catastrophic wildfire GHG emissions and actions to reduce 
these fires will help the policy discussions move from arguing the 
science, to actually supporting projects to reduce these risks. One key 
component will be to finish life cycle biomass utilization analysis 
(this has been started, but needs further support). Completion of this 
research with additional efforts, will better establish the 
relationship of the utilization of biomass from fuel hazard reduction 
treatments as a feed stock source for the production of bioenergy 
(liquid fuels, heat, and electricity).
    5.  Work with states to define how biomass extracted from private 
and federal lands could qualify as a renewable fuel under national 
renewable energy programs--Currently, the Federal Energy Policy Act of 
2005 excludes the use of biomass produced from federal lands. Due to 
the size of the federal ownership in California this excludes 
approximately half of the biomass that could be used to meet the 
state's Renewable Portfolio Standard for increasing the amount of 
renewable energy. Governor Schwarzenegger has stated that 20% of 
renewable energy goals and 20% of renewable fuels should be produced 
using biomass feed stocks. It will be extremely difficult for 
California to meet these objectives if federal law prohibits use of 
biomass from federal lands. We welcome the opportunity to work with the 
Subcommittee on this topic.
II.  Consider state actions to assess GHGs in Environmental Impact 
        Assessments, such as in the California's Environmental Quality 
        Act (CEQA), to inform similar efforts for the National 
        Environmental Quality Act (NEPA)
    In California, SB 97 (as summarized above) requires the state to 
develop guidelines for CEQA concerning GHGs that reinforce CEQA's 
traditional framework for analysis. SB 97 is one piece of a larger 
state approach to regulate and control the destabilization of 
atmospheric conditions via analysis and mitigation such as AB 32. 
However, unlike the holistic and retroactive approach of statutes such 
as AB 32, SB 97 only addresses project-specific impacts via the 
development and permitting processes throughout California, and only 
applies to projects falling within the discretion of ``lead agencies''. 
Further, CEQA, unlike other regulatory processes, only addresses 
specific impacts from projects through litigation.
    NEPA is the federal counterpart to CEQA, but is in no way governed 
or otherwise controlled by CEQA or its analytical approach. Like CEQA, 
when federal actors engage in activities that could impact the 
environment, they are required to analyze the potential impact of those 
activities. NEPA regulators may choose to look to the CEQA guidelines 
as an example of how to prepare for this analysis in NEPA documents. 
Since NEPA and CEQA environmental review are often done together, use 
of CEQA's approach to GHGs could prevent inconsistent results 
analytically. Below are two specific recommendations including:
    1.  As currently written, draft CEQA guidelines show a number of 
project recommendations that could be a helpful starting point for NEPA 
regulators--These Guidelines include: an analysis of the potential 
effects of GHGs on the environment; a calculation of GHG emissions from 
direct and indirect sources; determination of the significance of 
potential impacts assessed and supported by substantial evidence; avoid 
duplicative and costly analysis where it is possible to tier from state 
or regional efforts; adopt feasible mitigation where there are 
significant impacts; and Statements of Overriding Consideration will be 
allowed. The amended Guidelines will not proscribe thresholds of 
significance, require a hierarchy or menu for mitigation, or mandate 
compliance with statewide plans for greenhouse gas mitigation.
    2.  Consider use of general principles now being used under CEQA 
Guidelines:
       <all>  Lead agencies will maintain traditional discretion to 
establish thresholds and adopt mitigation measures;
       <all>  The GHG guidelines will not assume climate change is the 
impact, but rather allow lead agencies to develop science that fully 
describes potentially significant outcomes as a result of GHG 
emissions;
       <all>  Focus on tiering from regional and statewide plans for 
the reduction of GHGs that will assist local lead agencies in 
efficiently engaging in their obligations;
       <all>  Prevent conflation with other, related statutes;
       <all>  Consider all interested stakeholder views are considered 
to ensure impartiality and fairness
III.  Reduce climate change risks to public lands in California
    California is already experiencing climate change impacts. For 
example, it is scientifically documented that sea levels have increased 
by 7 inches in San Francisco Bay over the last century, increasing 
coastal erosion and pressure on levees for California's water supply in 
the Sacramento-San Joaquin Delta. The state has also seen increased 
average temperatures, more extreme hot days, fewer cold nights, a 
lengthening of the growing season, shifts in the water cycle with less 
winter precipitation falling as snow, and both snowmelt and rainwater 
running off sooner in the year. <SUP>1</SUP> The greatest link with 
federal lands, besides water, is the risk facing California forests and 
public lands as warmer and drier conditions lead to longer and more 
intense wildfires. In the next three decades the trend of these 
characteristically intense wildfires are projected to significantly 
increase.
---------------------------------------------------------------------------
    \1\ Moser, Susanne C., Guido Franco, Sarah Pitiglio, Wendy Chou, 
and Dan Cayan (2008). The Future is Now: An Update on Climate Change 
Science, Impacts, and Response Options for California, California 
Climate Change Center and California Energy Commission, PIER Energy-
Related Environmental Research Program, Sacramento, CA, report in 
review.
---------------------------------------------------------------------------
    EO S-13-08 provides direction for California's state agencies to 
develop multi-sector, multi-agency climate adaptation strategies by 
June 2009 based on climate change science funded by the California 
Energy Commission. Seven separate working groups were established 
(forestry, public health, infrastructure, oceans, agriculture, water, 
biodiversity and habitat) and have been coordinating adaptation 
strategies to reduce our risk to climate impacts.
    Early state implementation efforts have shown several key areas 
where federal lands and federal management agency assistance will be 
instrumental to reducing California's climate risks. These include:
    1.  Establish a federal climate policy adaptation team made up of 
all federal agencies to translate known science into actionable climate 
adaptation strategies--For climate adaptation strategies on public 
lands to be implemented, they will require policy changes that go 
beyond any single agency. A working policy team should coordinate and 
develop strategies based on collective science in cooperation with 
states. California's existing climate adaptation coordinating structure 
and policy guidance would and should fit directly with federal agency 
needs.
    2.  Support the National Oceanic Administrative Agency's (NOAA) 
concept to develop a National Climate Service to coordinate climate 
research, and provide support to states to develop climate 
vulnerability studies--Climate change science and adaptive responses to 
climate change are being developed in every other state separately at 
all levels of tribal, public, and private sector organizations. Most of 
this work should be coordinated within one central federal entity. 
These diverse decision-makers require better access to relevant and 
usable scientific information, and assistance in how to use it 
appropriately and effectively. Thus, it is not enough to just do more 
research; what is required is improved linkage and collaboration 
between the sciences and the decision-makers who can use scientific 
findings. The proposed NCS by NOAA could and should be this vehicle, 
but a final NCS should be developed in partnership with the states and 
provide support to their state climate adaptation strategy efforts.
    3.  Fund more climate change research, especially related to 
economic impacts, to improve regional and state-level information on 
climate change and resulting impacts, and toward assessing climate 
mitigation and adaptation project effectiveness--One of the most 
critical challenges that agencies and stakeholders face in managing 
climate change risks is the lack of scientific understanding. In some 
instances, it is a matter of gathering and making available the data 
and information that have already been collected. In other instances, 
it is a lack of continuous data that would be needed to detect change 
and determine environmental trends and causes. Identifying the costs 
and benefits of implementing specific adaptation strategies as well as 
of more general, over-arching strategies, such as a research program 
dedicated to adaptation, is a common need across sectors.
    4.  Establish a system of Sustainable Habitat Reserves across 
federal lands in partnership with state and local partners--To protect 
fish and wildlife across California from increasing threats to their 
habitat, the federal government should work toward establishing a set 
of habitat reserves for vulnerable species.
IV.  Ensure BLM and USFS have the financing, policies, and authority to 
        quickly and effectively process renewable energy applications.
    EO S-14-08 advances California's renewable energy goal of serving 
33% of our demand by renewable energy resources. In particular, the EO 
directs state agencies to create comprehensive plans to prioritize 
regional renewable projects across all California lands based on an 
area's renewable resource potential and the level of protection for 
plant and animal habitat.
    To implement and track the progress of the EO, the California 
Energy Commission (CEC) and the Department of Fish and Game (DFG) 
signed a Memorandum of Understanding formalizing a Renewable Energy 
Action Team (REAT). The REAT has started the Desert Renewable Energy 
Conservation Plan in the Mojave and Colorado Desert regions and 
identify other preferred areas that will benefit from a streamlined 
permitting and environmental review process. This will dramatically 
reduce the time and uncertainty normally associated with building new 
renewable projects.
    1.  Support the California REAT process to ensure BLM and FWS are 
able to support state and federal renewable energy goals
    2.  Ensure full support for recently created BLM Renewable Energy 
Coordination offices that will expedite the permitting of wind, solar, 
biomass, and geothermal projects, along with needed electrical 
transmission facilities. The action was taken to achieve the 
Congressional goal in Section 211 of the Energy Policy Act of 2005, 
which calls for the development of 10,000 megawatts of non-hydropower 
renewable energy projects on public lands by 2015.
    3.  Ensure the USFS finalizes its renewable energy policy 
assessment in the near future and work with California to update 
individual forest plans to incorporate these policies when complete. 
The Forest Service owns and manages nearly one-quarter of all the land 
in California. However, unlike the BLM, USFS does not have a 
consistent, statewide policy with regards to the development of 
renewable energy. Currently, individual National Forests typically 
determine the treatment of renewable energy on Forest Service lands 
inconsistently. As one might imagine, this leads to inconsistencies 
between Forests, even within the same Region.
CONCLUSION
    Thank you Chairman Grijalva and members of the Subcommittee for the 
opportunity to appear today to offer testimony about how the nation can 
combat climate change on public lands. California is pleased to serve 
as a resource to the Subcommittee for future planning efforts.
                                 ______
                                 
    Mr. Grijalva. Thank you very much.
    Mr. Billy Frank, Chairman, Northwest Indian Fisheries 
Commission. Mr. Chairman.

STATEMENT OF BILLY FRANK, CHAIRMAN, NORTHWEST INDIAN FISHERIES 
                COMMISSION, OLYMPIA, WASHINGTON

    Mr. Frank. Thank you. Thank you, Mr. Chairman, and thanks 
for gathering everybody here today to listen to some of our 
maybe bad news and, hopefully, good news.
    Climate change; we have to adapt to it, we, all of us, not 
just the Indian tribes throughout our country, and we have 
adapted to so many things and changes that happened throughout 
our thousands of years here.
    My name is Billy Frank. I am the Chairman of the Northwest 
Indian Fisheries Commission, and I have been coming back and 
forth here for the last 30 years testifying in front of the 
U.S. Congress, and I am happy to be back here again. I have 
about 50 more years to go, Mr. Chairman, so hang with me.
    You know, if there is any legislation to be legislated into 
law, we want the tribal governments to be a part of that. We, 
on the Pacific Coast, where I live, in the State of Washington, 
and represent 24 tribes along the Pacific Coast and up and down 
the Columbia River and the Snake River. We sit on the U.S.-
Canada International Treaty. We have our science team, our 
infrastructure together. We manage the Pacific salmon from 
Alaska clear down to Mexico and the State of California and 
throughout the United States here, and we are natural resources 
managers.
    When we are talking about natural resources, we are talking 
about warming of the water that is affecting our fish runs. We 
see our forests gone. We see nothing holding the water back 
anymore. The forests have been cut down, clearcut, and old-
growth timber gone, very important to the natural resources, 
the food chain of our life, the cycle of life.
    As I travel throughout all of our land along the Pacific 
Coast and throughout the Southwest here, I have witnessed 
things that are happening, such as the Barrow, up with the 
Eskimo villages up there falling into the sea, into the Arctic 
Ocean, the Bering Sea. I have witnessed these things, and it is 
not good to witness these things, and where are these people 
going to go?
    I just came from Hawaii on a two-day meeting, and the 
people are preparing, in the Pacific Rim, to start moving 
people from these islands. Where are they going to move them 
to?
    These are real things that are happening in our world, in 
our little world, around us. We have to start addressing these 
things, the U.S. Government and our leadership throughout our 
country, and, hopefully, we have a new day coming right now 
that we can organize and start addressing some of these things.
    How climate change is affecting the tribes, and what we can 
do about it; we can do a lot of things. We have a lot of 
technology right now. We have streams that are warming up, you 
know, from what I just indicated about the habitat. We have to 
think about how we can cool those streams down so when the 
salmon come home, and our life comes home, back to Puget Sound 
and along the Pacific Coast, that we can start making the water 
temperature maybe cooler instead of hotter.
    You know, these things are very important to life that 
exists out there, and the food chain is in serious condition in 
the Pacific Ocean. We have dead zones along Florence, Oregon, 
clear up into Kalaloch Beach in the State of Washington. We 
have these all documented by the University of Oregon and the 
University of Washington and California. Everything that is 
dying is coming to shore. We have pictures of this. This is 
serious.
    Now, I do not know whether anybody in this room knows about 
these things, but we know what is going on. We are there. We 
are managers along the Pacific Ocean, our tribes. Within Puget 
Sound, we have dead zones in Hood Canal. We have dead zones in 
South Puget Sound, where I live, you know, 50 miles south of 
Seattle. We have dead zones up into the Georgia Straits into 
Canada. All of these things are not good things to hear.
    Now, what can we do about it?
    We can uphold the Interior and Commerce Departments' 
commitments to abide by the terms of Secretarial Order 3206; 
what we negotiated with the Secretary, and it took us three 
years to do that, the Indian tribes.
    Implement salmon recovery plans and other natural resource 
restoration plans while supporting and harmonizing the exercise 
the tribal rights, the 1855 treaties.
    Develop and coordinate with tribes on national energy 
policies to address climate change that is compatible with 
treaty rights and fish habitat [e.g., reduce peak demands 
through conservation and offset climate change pressure on 
salmon].
    Involve tribes in climate change solutions in Indian 
Country, including carbon offsets, habitat protection, and 
energy conservation.
    Reach out to the tribes as governmental partners to address 
climate change.
    We are collaborators. We collaborate with the State of 
California, the State of Alaska, and the States of Washington, 
Oregon, and Idaho. Throughout all of the nation, we are 
collaborators. We try to keep the wheels on the wagon in 
managing our natural resources, and we all have to do that 
together. Thank you.
    [The prepared statement of Mr. Frank follows:]

               Statement of Billy Frank, Jr., Chairman, 
                 Northwest Indian Fisheries Commission

    Chairman Grijalva and honorable members of the Subcommittee, I am 
Billy Frank, Jr., Chairman of the Northwest Indian Fisheries 
Commission. It has been my pleasure to testify in front of the 
committees of the United States Congress for more than thirty years on 
behalf of the twenty Treaty Indian Tribes in Western Washington. Today 
I will share my thoughts with you pertaining to tribes and climate 
change--the impacts we are witnessing and the things we tribes propose 
be done about it.
    I have been fortunate to be able to travel extensively across this 
continent and spend time with my Indian brothers and sisters of many 
tribes. I can personally attest to the fact that the impacts of climate 
change are, in fact, hurting both people and resources in the 
continent's interior and from coast to coast. When Hurricane Katrina 
ripped through the south in 2005, much attention was devoted to the 
unfortunate victims in New Orleans. But no one heard of the Chalmette 
Tribe that was completely washed away. Everything they had was 
destroyed, after having lived near what is now New Orleans for 
thousands of years. In Alaska, more than 125 Alaskan Native 
organizations have signed a resolution urging stronger action from 
Congress, as they rightfully blame climate change for endangering their 
lives and culture as even the mighty polar bear finds it harder and 
harder to survive, and peoples' houses fall into the sea, giving way to 
melting ice. On the East Coast, storms rage more severe due in some 
measure to dynamic changes in the Gulf Stream, and our own Pacific 
Ocean temperatures and de-oxygenated currents have resulted in killer 
storms and massive fish kills. All of these impacts, and much more, are 
brought about or enhanced by climate change, and as you know the vast 
majority of scientists today attest to the fact that man's pollution 
and exploitation are the primary cause of this phenomenon. As an 
indigenous person, whose parents told him the stories and taught him 
the things their parents taught them, I bring to you today the memories 
of a thousand generations, accumulated from this continent. As such I 
can tell you that there has been climate change before. But there has 
never been climate change like we are seeing today, and certainly not 
the kind of impact brought on so widely through the infestation of man.
    As a representative of tribal leaders, I speak to you today on 
behalf of our people and our culture. I also speak to you on behalf of 
our jurisdiction. Let there be no mistake. This is a jurisdiction-
related issue. Tribes are sovereign governments, and have been for a 
long, long time. They provide services to their citizens and watch out 
for their interests, as best they can, a task made much more difficult 
by the broken promises of our federal trustee. Tribes are also 
sovereign nations, and in that capacity, many of them signed treaties 
with the United States as they were asked to relinquish millions of 
acres of land for settlement. Treaties are, by definition, contracts 
between sovereign nations. They are also, as defined in the United 
States Constitution, the Supreme Law of the Land. When our leaders of 
seven generations ago signed treaties with officials of your 
government, they reserved certain rights and resources, on and off 
reservation, which have nonetheless been consistently trampled upon--a 
fact made all the more unbearable by the blind eye that past federal 
officials have turned to our plight.
    The fact is that the tribes are typically hit first and hardest by 
the impacts of climate change. One of the primary reasons this is true 
is that our cultural resources, our foods, our water, our medicines--
everything that makes us who we are--is hit first and hardest. We live 
on the oceans and on the rivers. We work hard to protect our people and 
our resources, but we still too often find ourselves ignored by our 
trustee, and we find that the states and counties allow people to move 
in on our lands overharvest our cultural resources--from berries to 
mushrooms--that make us who we are, even as the waters warm and the 
forests turn brown from intensifying heat and resulting insect 
infestations and rot. We see lights from houses built high on our 
hillsides now, and fear the impacts of the poisons that fill our rivers 
and seas.
    Most of the studies and debates on potential climate change, along 
with its ecological and economic impacts, have focused on the ongoing 
buildup of industrial greenhouse gases in the atmosphere and a gradual 
increase in global temperatures. This line of thinking fails to 
consider another potentially disruptive climate scenario. It ignores 
recent and rapidly advancing evidence that Earth's climate repeatedly 
has shifted abruptly and dramatically in the past, and is capable of 
doing so in the future--to a degree that we, nor our ancestors, have 
ever experienced before--largely due to man's impact.
    Our traditional knowledge and science demonstrates that Earth's 
climate can shift gears faster than anyone ever thought possible, 
establishing new and different patterns that can persist for decades 
and even centuries. Strange as it may seem, even as the Earth continues 
to warm gradually, large regions may experience disruptive shift into 
colder climates. Our ancestral memory, is backed by archaeological 
science. It fools some people to see more snow in some areas, but the 
fact is that this trend may well continue, and even bring us closer to 
another ice age. There are those who still foolishly say it is arrogant 
for man to think his activities can impact the weather. Yet, I say the 
real fool is one who thinks he can predict, with full accuracy, what 
will occur when mankind messes--as he already has--with Mother Nature.
    Sadly, we have passed the tipping point with climate change. 
Thousands of scientists here in the United States and all over the 
world agree this is true. The United States has been shamefully slow to 
respond to this massive problem, and has, in fact, continued to be the 
world's greatest consumer and polluter--choosing for years to pretend 
the problem doesn't exist, and in some cases even denying it. There 
will be many changes due to man's transgressions and disrespect for 
Mother Earth. There will be sea level rise and there will be some 
species we cannot save. There will be changes in our forests and there 
have already been many changes in our waters. The fact is that we must 
take firm action now, and listen no longer to those who would deny, 
very foolishly, that climate change, does not exist. It does, and we 
are in it.
Anticipated Impacts on The Northwest
    Global warming modeling published by the University of Washington's 
Climate Impacts Group in two reports commissioned by King County and 
the Puget Sound Action Team found that the Pacific Northwest warmed up 
faster (2.3 degrees) than elsewhere on the planet (1.1 degrees 
Fahrenheit) during the 20th century.
    By 2050, average annual temperatures for the Pacific Northwest 
could be up to 5 degrees higher than they were during the last 30 years 
of the 20th century. What will this likely mean to us in the Northwest?
     1.  Wetter winters with more intense rainfall. Drier summers. 
Earlier spring snowmelt. More frequent and more intense storms.
     2.  Significant retraction of the snowline in our mountains due to 
warmer winters--reducing our water ``warehouse.''
     3.  Rise in sea level by as much as 3.3 feet in the South Sound 
and 1 foot at Neah Bay by 2100
     4.  Increased acidification of ocean water will slow or impair 
growth of shellfish and other species, and some species may not 
survive.
     5.  Earlier onset of spring (already 2 weeks early in parts of the 
Puget Sound region).
     6.  Inundation and shift of habitat types in existing salt 
marshes, mud flats, and beaches.
     7.  Change in salinity, stratification, nutrient cycling and ocean 
productivity affecting the Puget Sound food web and expanding the 
existing dead zones.
     8.  Lack of summer creek/river flows to maintain salmon runs in 
some watersheds, severe reductions in others.
     9.  Disruption to species when spring conditions trigger earlier 
hatching and migration or warm winter temperatures cease to trigger 
hibernation.
    10.  Increases in pests and diseases that affect crops, shellfish 
and forests throughout the region.
    11.  Intensified storm water problems: far more massive and regular 
flooding, erosion, and combined sewer overflows.
    12.  Favorable conditions for even more invasive species.
    13.  Negative economic effects on fisheries, hunting and gathering 
as well as agriculture, forestry, tourism, and even hydropower.
    Our new President speaks very affirmatively, as do Members of 
Congress, about the fact that climate change is a reality. The fact 
that your members have brought ``non-believers'' in climate change 
before you to effectively and courageously accuse them of lying for 
profit speaks for itself. We applaud that, and we plead with you to 
take strong and collaborative action now. There is no time to waste. We 
are now in a position of adapting to pending change and trying to 
minimize effects. These are efforts that the Federal and Tribal, as 
well as State governments must work on together--cooperatively--at 
every opportunity.
    Intertwined with climate change and every bit as severe is ocean 
acidification. Our oceans are poisoned. Man has put too many poisons 
into the air for far too long, creating challenges with acid rain which 
we have known about and done little about, for decades. The problem is 
not just atmospheric; it has reached into both surface waters and 
ground waters and the pollutant-problems have multiplied many times 
over. We have come to realize that no place on Earth is safe from this 
challenge. Even Alpine Lakes--places as high as one could possibly 
hike--are as polluted as every other part of the Earth. The same carbon 
dioxide that is creating the warming effect in our atmosphere is 
dissolving in our oceans, creating a dangerous increase in the PH of 
our oceans. Together, we must work to remedy this situation. There is 
nowhere else to go!
So, What Can We Do Together?
    First, I want to re-emphasize that tribes have not been sitting on 
their hands. Our scientists and other workers are actively working, 
stretching every possible dollar, in watersheds throughout our region, 
to restore habitat, from stream banks to wetlands, and we work hard to 
convince our state and local governments that it makes no sense to keep 
on with business as usual, placing natural resource management on the 
back burner. Even in tough financial times, if we do that, what makes 
sense to place on the front burner? Education? What sense does it make 
for us to educate our children in the classroom if we simultaneously 
trash the planet that sustains them? Jobs? There ARE no jobs without 
natural resources and the environment. Natural resource management must 
be placed on the front burner where it belongs. Period.
    In the Northwest, there are important instances in which this has 
led to highly positive results, ranging from the U.S.-Canada Salmon 
Treaty to the Timber-Fish-Wildlife/Forests and Fish program. But, 
frankly, because we live in a ``growth'' region, much of the urban 
sprawl has continued and it has been a huge challenge to catch up with 
the impacts of growing exploitation and development. Part of the lesson 
man must learn from history is that it is suicidal to overpopulate, 
over-develop and over-exploit. The impacts of all environmental 
problems are inter-related, and sustainability is key to all 
environmental challenges, including climate change.
    We have participated, government-to-government, with such processes 
as the Puget Sound Initiative, and more to the point with climate 
change, the Governor's Climate Change Initiative. This initiative, 
launched by Governor Gregoire in 2007, convened a task force and a 
number of subcommittees. Two related legislative bills, and climate 
change-related bills currently being considered by the State 
Legislature, are just starting points. Along with other participants, 
we realize that a resilient system would be more able to handle change. 
We must create robust habitat areas, such as wide stream riparian zones 
and multilayered intertidal shoreline and upland areas. For example, if 
increasing water temperatures or a drop in water volume will stress a 
stream, a thick canopy of tree cover can help minimize the impact.
    We also know it is important to make hard decisions that are fair 
but effective. We recognize the need to focus resources in areas that 
will give longer-term benefits. For example, modeling shows that 
rainfall-dependent (i.e., lower lying) watersheds will be less affected 
by global warming than snow-fed watersheds. Such conditions should be 
considered as we plan for restoration and protection work. The need for 
water reclamation is very apparent. Reclaimed water is water that has 
already been used for one purpose, has been treated and can be reused 
for certain types of use (irrigation, for example). Due to state 
mismanagement, our rivers are over-allocated, and we must build the 
infrastructure now for distribution of reclaimed water--it isn't cheap. 
We will not be able to afford to use potable water for nonpotable needs 
in the future. It is critically important to leave water in creeks and 
rivers to support fish wildlife. It is a treaty-protected right.
    We have a major problem with storm water in the Northwest. We need 
to reduce the need for storm water combined systems by separating 
sanitary waste from storm water. New capitol improvements must consider 
the effects of long term climate change to ensure that salmon and other 
natural resources critical to tribes will have enough water. Toxic 
chemicals and nutrients in urban runoff must be curbed. Standards must 
be adopted to greatly reduce impervious surfaces and infiltrate all 
storm water on-site, rather than conveying it to streams.
    Septic systems have got to be cleaned up or replaced with clean and 
efficient sewer systems. It is urgent that we eliminate septic system 
problems because their contributions to dead zones, such as those in 
Hood Canal, will be amplified by climate change.
    It is important to support the efforts of tribes with forest lands 
to consider setting Cap and Trade programs, which can be effective 
tools for reducing pollution and protecting human health and the 
environment. These systems provide efficient incentives for early 
pollution reduction and innovations in control technologies and work 
well inter-governmentally, providing multiple benefits, including 
greenhouse gas emission control.
    Today, most regulatory actions taken by local, state and federal 
agencies--those which ARE enforced--are taken without consideration of 
potential climate change impacts. For example, new coastal structures 
should be designed for a higher sea level or buildings must be set back 
so that structural controls are not needed at all. We must be vigilant 
that regulations and ordinances are completely thought out. Wherever 
possible, the choice must be made to keep open spaces rather than 
build, to go with permeable rather than impermeable surfaces, and to 
end forestland conversion. Society needs to go on a Low-Carbon Diet. 
From driving vehicles fewer miles and carpooling/using mass transit to 
planting more trees and weatherizing houses and apartments, every 
citizen can and must be educated to help reduce the output of 
greenhouse gases.
    People have got to be made more aware of Environmental Justice. The 
most needy in our society may be forced to pay more of their budgets 
for basic needs such as drinking water, energy and food because of 
climate change. Also, as has been pointed out, tribes live close to the 
water. It's our culture, and we depend very directly on the fish and 
wildlife that depend on a healthy ecosystem. We stand to lose the most 
from the impacts of climate change.
    For many people, the issue of climate change feels like a distant 
idea, not an imminent threat. They're wrong, and they need to know it. 
We must all understand that action is needed--now. Education is, of 
course, one of the great things we can do--together. Tribes have too 
often been a voice in the wilderness on natural resource issues. We 
have warned, almost always without being heard, that Mother Earth must 
be respected, that she is fragile and delicate--that we must never take 
more than we need as humans, and always use all that we take. We have 
warned, for a very long time, that we must always think of the needs of 
our descendants to come--for seven generations and more, and be aware 
that every action we take today affects those descendants in either a 
good or a bad way. These principles, known by many today as 
sustainability, are as valuable as they ever have been. Had they been 
heeded when we began to warn non-tribal people about them, we would not 
have the climate change challenges we face today. These lessons, which 
have been passed to us by our ancestors, must become part of all of our 
legacies. As I have pointed out, we know we have passed the tipping 
point with climate change. There are motions in action upon our Mother 
Earth which we cannot stop. But we can adapt, and we can do things to 
minimize their impact. The lessons of our ancestors are lessons of 
respect, human dignity and brotherhood. They are lessons of hope.
    The State of Washington passed legislation three years ago, HB 
1495, as well as subsequent legislation, which made it easier for 
tribes and Indian teachers to convey these lessons of Traditional 
Knowledge, from our culture of stewardship to our languages, in 
classrooms across the state. Although many more of our people now 
complete high school and achieve higher education degrees than before, 
we ask you to consider increasing your commitment to Indian education. 
We ask you to consider legislation that would achieve similar tasks as 
HB 1495 on a national scale. We also ask that Congress take a stand to, 
once and for all, acknowledge that tribes, and the stewardship ethic we 
hold dear, has much to offer all citizens across this great nation, 
particularly in this time of dire environmental challenge. Let it be a 
message of truth--that in building this nation, much has been taken 
from the tribes unfairly, and that the human rights of the Indian 
people, including their treaty-protected rights, have never been 
understood or enforced--and that the time has come for the Native 
People of this land to receive their due acknowledgement, rights and 
respect. Let this statement from Congress also be one to educate your 
citizens about the great value of considering our long held values as 
values that have much to teach citizens from all walks of life who now 
call themselves Americans.
    Change and/or enforce the Rule of Law. In some cases, you will need 
to develop new laws. In some cases, you will need to enforce existing 
laws. But you must work with us to identify those things that are 
harmful to our people and our culture--and to stop/control them. As it 
is, and as it has been from the beginning of our contact with one 
another, your people are harming these precious things. It is a direct 
violation of our treaties and of your trust responsibility to us. When 
it comes to climate change, it must begin with an assessment. Our 
scientists work in our watersheds and on our marine waters day in and 
day out, year in and year out. This assessment must be done in 
collaboration with us. It is a little known fact that the Tulalip 
Tribes have achieved the first ever full-river climate change 
assessment--anywhere. In a nutshell, it was found that the removal of 
the forest canopy and wetlands had weakened the abilities of the system 
to withstand floods and other impacts that will be greatly increased by 
the sea level rise and increased storms resulting from climate change. 
Effective actions obviously begin with knowledge, and that tribe is 
working to remedy that situation with new ideas as well as traditional 
ones--and, like other tribes facing similar problems, will continue to 
need your help to do so.
    There is need for a comprehensive collaborative natural resources/
environmental management plan--not just in our Pacific Northwest, but 
nationwide--that incorporates tribes across the country and the Federal 
as well as other governments. There is need for legislation calling for 
such a plan, and for adequate funding to back it up, and there is need 
for such a plan NOW. We wish to work with you to develop this 
legislation, as decision-makers.
    We have a new Administration and I think there is no surprise in 
the fact that this is something our Indian Nations have prayed for and 
are thankful for. Our budgets have been cut back, and we have been 
virtually ignored for far too long. But there is new hope on the 
horizon. The President's selection of Carol Browner, former Director of 
the Environmental Protection Agency, as his Climate Change Director, 
certainly helps substantiate that hope. When she was EPA Director, she 
selected one of our tribal leaders from the Pacific Northwest, Terry 
Williams from the Tulalip Tribes, to head her new Office of Indian 
Affairs. It was the first time in the history of the United States that 
such an office had been formed by the EPA, and Terry did a splendid 
job. We look forward to more of the same.
    I must be honest. We are still waiting to see some desperately 
needed financial support for natural resource management requests. 
Those must be honored because they are needs that directly affect our 
treaty-protected rights and they are most assuredly inter-related with 
resources impacted by climate change. We will be watching that closely, 
of course.
    But today I will simply remind you that we face a huge challenge 
with climate change, and that it is a challenge we must all face--
together.
    Realizing this, the tribes served by the Northwest Indian Fisheries 
Commission and those served by the Columbia River Inter-Tribal Fish 
Commission conducted high level meetings and strategy sessions leading 
up to the inauguration of President Obama, and, together, published a 
booklet that we make available to you today. ``Treaty Tribal Natural 
Resources Management in the Pacific Northwest includes the specific 
requests being made, collectively, by the 24 treaty fishing tribes of 
the Pacific Northwest. These requests focus on the needs of salmon and 
other natural resources, and on the Federal trust responsibilities to 
the tribes. We ask you to note that among these priority needs and 
requests is the following statement on climate change:
    ``Climate change is real and its effects are already being felt in 
the rivers and streams of the Pacific Northwest. Tribes are leaders in 
the region in restoring riparian habitat, which is a key measure to 
address climate change effects. Natural resource management, climate 
change and energy independence are closely linked as the Northwest 
endeavors to safeguard salmon and other species.''
    We ask you to further note that we made five priority requests of 
the Obama Administration and the 111th Congress to fulfill its trust 
responsibilities as they relate to climate change. We ask you to 
support these priority requests:
    1.  Uphold the Interior and Commerce Departments' commitments to 
abide by the terms of Secretarial Order 3206: American Indian Tribal 
Rights, Federal Trust Responsibilities, and the Endangered Species Act.
    2.  Implement salmon recovery plans and other natural resource 
restoration plans while supporting and harmonizing the exercise of 
tribal treaty rights.
    3.  Develop and coordinate with tribes on a national energy policy 
to address climate change that is compatible with treaty rights and 
fish habitat (e.g., reduce peak demands through conservation and offset 
climate change pressures on salmon).
    4.  Involve tribes in climate change solutions in Indian Country, 
including carbon offsets, habitat protection, and energy conservation.
    5.  Reach out to tribes as governmental partners to address climate 
change.
    I thank you for inviting me to testify today, and I ask that you 
continue to consider tribal input on climate change as well as all 
natural resource and environmental issues on an ongoing basis, on a 
government-to-government basis.
    Our strength in facing the many challenges that exist today will be 
greater with greater understanding of treaty-protected rights, the 
Federal Trust responsibility to the tribes and the responsibilities we 
all share to the generations to come.
    Thank you.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, Mr. Chairman.
    Before we begin with questions or comments from my 
colleagues, let me indicate that I anticipate that we will be 
called to a 3:30 vote, somewhere around that time, so we will 
recess and return after those votes are done.
    Let me ask Chief Kimbell a couple of questions. We are 
going to hear from witnesses later about the importance of old-
growth forests in combating climate change, based on the amount 
of carbon stored in mature, old forests. Has the Forest Service 
conducted any studies on this particular subject, this matter?
    Ms. Kimbell. Yes. The Forest Service has conducted studies 
on the amount of carbon sequestered in different kinds of 
forests and the rate of carbon sequestration. So much depends 
on the health and vigor of those forest stands, where those 
forests are located, and their risk or susceptibility to 
catastrophic wildfire.
    Mr. Grijalva. Thank you. Under current law, the National 
Forest Management Act and NEPA, are those sufficient to deal 
with the impacts, the mitigation, and the adaptation that might 
be required by agencies, such as the Forest Service, in the 
future? I guess the question is, do we need updates on those 
laws to deal with this?
    Ms. Kimbell. When NEPA was passed in 1969 and the National 
Forest Management Act in 1976, I do not think anybody could 
have foreseen the kinds of change and the rate of change that 
we are going through right now, and, no, the language that is 
in those two acts does not begin to address the rates of change 
that we see in the ecosystems that we work in.
    In January, the Forest Service issued direction to all of 
our field units to incorporate discussion of climate change in 
all of our environmental analyses and in the national forest 
planning process. Along with that, we have a group of 
scientists working together, not just Forest Service scientists 
but working with others, and looking at the global information 
available on climate change and working to try and scale that 
down to different scales so that it can be, at least, referred 
to in an environmental analysis.
    It is so very hard to predict what might happen in one 
single location, given the kind of global information that we 
have right now that has been through a peer-review process and 
science.
    So we do have a team of people that is working together to 
try and help us scale down that information to make it more 
usable at the local level, and we hope to have something very 
soon. But we did issue direction in January, and we think we 
can work within the regulatory framework to continue updating 
that information.
    Mr. Grijalva. But there needs to be, at some point, a 
revision update of the particular laws that I referenced.
    Ms. Kimbell. It could be in statute, but it might very well 
be in the regulation.
    Mr. Grijalva. OK. Thank you.
    Mr. Armstrong, in the last administration, adequate 
protection of our natural and cultural resources was on the 
back burner as we moved forward on expedited energy permitting. 
Moving forward now, how will you see adequately protecting the 
integrity of natural and cultural resources on these public 
lands in reference to the whole discussion we are having today 
about climate change and the need to protect and conserve those 
areas?
    Mr. Armstrong. Mr. Chairman, I think that everybody at DOI 
would agree with your statement that we need to take a balanced 
approach when we look at climate change and its impacts, the 
relationship to energy resources and natural and cultural 
resources as well.
    At the Department of the Interior, including USGS, who I 
work for, the science wing of the Department of the Interior, 
we are constantly striving to better understand that balance 
and to achieve that balance, and I know that that issue is of 
paramount importance to Secretary Salazar. But early in the 
start of his tenure, I am sure he will be giving great thought 
to that and bringing his forming team together to address that 
issue more effectively.
    Mr. Grijalva. Thank you. You are very kind.
    One other point: Presently, Mr. Armstrong, does the Bureau 
of Land Management currently have the capacity to monitor the 
impacts of climate change on the vast resources that they are 
responsible for managing?
    Mr. Armstrong. I think that the Bureau, from my personal 
experience as the scientist in charge of the U.S. Geological 
Survey and my interactions with scientists and managers at the 
Bureau of Land Management, they do a very good job, a very 
effective job, of managing their natural resources through 
monitoring programs.
    But I will say this, that the Department of the Interior, 
across all of the career employees I have ever talked to, we 
realize that no single bureau can do it alone. It takes not 
just the entire Department working in unison to coordinate and 
communicate its vast fleet of monitoring assets, but we need to 
work with other Federal agencies, such as NASA, NOAA, the U.S. 
Forest Service, which we work very closely with, to provide 
additional information on monitoring on and off the Bureau of 
Land Management's jurisdiction.
    In order to really understand climate change, we need to 
get beyond just the immediate jurisdiction of the Bureau of 
Land Management, the Fish and Wildlife Service, the National 
Park Service and look at the system in totality, and, in order 
to do that, we all need to be working together with state and 
local agencies, with tribal organizations, with academia. It 
really is that large of a problem. We all need to be working 
together.
    Mr. Grijalva. That leads me to the question for Mr. 
Brunello. In your testimony, you recommend the formation of a 
Federal Climate Change Adaptation Team. We just heard Mr. 
Armstrong speak somewhat to that. How important is that 
coordinated Federal effort, over different boundaries of our 
land management agencies, to deal with this subject area?
    Mr. Brunello. I am glad you asked that one. It is dear to 
my heart.
    I think, right now, in California, as an example, we are 
developing our statewide adaptation strategy. What is helpful 
for all of us, as you move ahead in any new effort, is you stay 
in your stovepipe, and so here, in the natural resources 
agency, we have energy, water, Fish and Game, and other 
committees that are in our jurisdiction, many areas that will 
have environmental impacts.
    What we have learned is we cannot really develop 
thoughtful, thorough adaptation strategies unless we 
communicate with our public health officials, for example, or 
our air regulators, or our Department of Transportation. It 
does not work.
    So what really needs to happen is to step even outside of 
the land management agencies. For example, the transportation 
issues you will discuss in this coming year; that is huge. That 
area, for us in California, is what guides a lot of our habitat 
restoration efforts.
    So what we are trying to accomplish is challenging. It is 
not easy, by any means, but what has to happen is to have the 
Federal entities have some type of framework that are the 
policy people having discussions that are using information 
that is fed up to them on adaptation measures so they can talk 
and discuss and work things out. It is not going to work if it 
is just the science, and that is what we are learning.
    To do an adaptation strategy requires three things. First, 
you need good science, so you need to support the science; but, 
second, you need to have strategies that actually allow you to 
adapt to future climate impacts; and then the third part, which 
we have all missed the boat, is actually to act, and we want to 
get beyond research and to actually fund action.
    I know that is tough in all of our budget climates, 
specifically, in California, but, really, you have to move to 
actually fund things. That does not mean all new resources. It 
may mean just including things in new roads or in development 
of new properties along the coast that are going to experience 
sea level rise.
    So I think having it outside of just the land management 
agencies is fundamental in where you move forward.
    Mr. Grijalva. Thank you.
    Last question: Chairman Frank, what would be the immediate 
steps that the Federal government could take to improve the 
involvement of tribes, Indian Country, in the climate change 
adaptation efforts, policy efforts?
    Mr. Frank. One of the things I see is that we are not 
included a lot of times within the state and then a lot of 
times within the Federal government. It seems to me, like, when 
the states and the Federal government include the tribes, they 
have success, but when they do not include the tribes, they do 
not have success.
    I see too many people micromanaging our resource, 
micromanaging it from the outside, and they are old, retired 
people that are going around, and they want to make money now; 
they are consultants, you know. We have to stop.
    Mr. Grijalva. Like some Members of Congress.
    Mr. Frank. Yes. I mean, it has got to stop. We have to 
start managing. We cannot be walking around, saying, ``Hey, we 
are going to study this one more time.'' We are studying it.
    This is real. This climate change is real, and it is upon 
us, and the temperatures are warming up, the floods are coming, 
and the storms are here, and we have to adapt to that, but we 
have to put it together. We have to manage together.
    Mr. Grijalva. Thank you, Mr. Chairman. Mr. Hastings?
    Mr. Hastings. Thank you, Mr. Chairman. Chief Kimbell, in 
your written testimony, you made reference to managing forests 
and, specifically, thinning forests. You did not say that 
orally. If you did, I apologize; I did not hear it. Would you 
elaborate briefly on that?
    Ms. Kimbell. I would be happy to. Thank you.
    The reference to thinning forests; I think we have some 
fabulous examples just from the last several fire seasons. One 
I will point to, since there are so many folks here who are 
familiar with California, is the Angora fire near South Lake 
Tahoe, where, through extended public involvement and work in a 
collaborative process, there was a whole series of hazardous-
fuel-reduction projects identified, including thinning.
    When the Angora fire was started by a campfire, it burned 
very quickly through a whole drainage and burned quite a number 
of homes. The fire behavior was monitored in both the areas 
that had been thinned and the areas that had not been thinned. 
The fire mortality was measured in the areas that had been 
thinned and in the areas that had not been thinned, and there 
were significant differences in the intensity of the fire, the 
fire behavior, and the mortality of the remaining trees in 
those areas.
    I think that that is just one example. We have many others 
around the West, and we have quite a few in the East now. We 
have a fabulous example in Florida, where the fire that was 
burning in the Okefenokee Swamp two years ago, when it came out 
into the Florida forest lands, the way it burned through areas 
that had not been treated was very, very different from the 
areas that had been thinned, and where the areas had been 
thinned, actually, firefighters were able to suppress that 
fire.
    Mr. Hastings. Well, I want to congratulate you. I have 
always felt that that is an integral part of managing our 
forest lands.
    Today, we got a news release from Sierra Pacific 
Industries, in Redding, California, saying that they are 
closing one-half of their two-mill complex, and it is the small 
log complex. The significance, I think, of Sierra Pacific is 
because this is part of the Quincy Library Group negotiations 
that everybody up and down the West Coast, and probably 
nationwide, was aware of because it was a very difficult 
agreement that was put together. But everybody felt that it was 
going to work, and, as a result of that, Sierra Pacific built 
this small log facility.
    They are now closing it because, as they say, in their news 
release, there is not a sufficient amount of small logs coming 
off national forest lands to keep this mill going. In fact, 
they cite that the target of the Quincy Library Group was 
whatever it was, but they have only been able to log about 20 
percent of the target because of litigation. Do you have a 
comment on that?
    Ms. Kimbell. Well, I would add to litigation the incidence 
of wildfire.
    I visited on some of those forests last summer after the 
great, big fire siege that started in late June, with all of 
the lightning that hit across Northern California, and there 
were a number of those projects that the Quincy Library Group 
had worked so hard on for so long that had come through the 
appeals process and litigation, and those projects were ready 
to be implemented when the fires burned through those projects 
and changed the condition rather dramatically.
    Mr. Hastings. I mean, it begs the larger question, it seems 
to me, if we are going to look at climate change and how to 
somewhat mitigate what would happen with natural forces, like 
forest fires, for example, and I heard that the forest fire in 
Australia put in the air more than double what Australia 
civilization puts in the air in one year, that national forest. 
But it disturbs me to see that a mill is closing down because 
they cannot get small logs. Small logs are essentially what you 
thin, and they can only get 20 percent of the target.
    So that leads, I guess, to a larger question that I would 
like to ask all of you. If litigation is somewhat of a problem 
that affects climate change, is there a place for looking at 
the regulations that guide us on this that should be looked at 
and perhaps changed?
    I would ask this of Interior and BLM, specifically, because 
you have more open lands where, presumably, alternative energy 
sources, like wind and solar, would be in place. Would you be 
in favor of reducing some of the regulatory measures so you 
would not have the litigation to cite these potential projects?
    Ms. Kimbell. I think Mr. Brunello answered this question in 
his oral comments, to some extent, the need for adaptive 
management.
    Mr. Hastings. Well, I know my time has run out here, but go 
ahead and respond, and I will make a statement, and maybe you 
can respond to that one.
    Mr. Armstrong. The fundamental thing in California, which 
we are continually addressing, is the fires are not going to 
stop, and that is a fundamental issue, in our mind, is that we 
see the fires getting worse, they are year-round, and they are 
going to continue to happen.
    So as you discuss about how can you feasibly and 
economically use the dead and dying wood there, we can keep 
wrestling about the science and keep wrestling with options, 
which I think we have to do, but we keep seeing the fires. So 
we are looking for all different----
    Mr. Hastings. Well, maybe a short response to that is to 
use that biomass in some way to create electricity. It seems to 
me to be an obvious thing to look at. If you are going to have 
these fires all of the time, and it is predictable where it is, 
why do you not go in and thin it and use that biomass? That 
might be one thing you ought to look at.
    I have to say this because, last week--California is 
supposedly the forerunner of alternative energy sources, and I 
found out, for goodness sakes, that they are going to buy wind 
energy from my district--apparently, Con Edison, or whoever it 
is down there in Southern California could not build enough 
wind energy to satisfy your constitutional needs, or, at least, 
statutory needs, of so much alternative wind, so now you are 
going to buy it from my state.
    I find that just absolutely incredible. I guess we do not 
mind the business, but, for goodness sakes, if you are going to 
have all of these regulations, then why do you not become 
sufficient?
    The wind always blows on the ocean. It seems to me that 
that would be a pretty good place to put wind farms. Has that 
ever been talked about?
    Mrs. Capps. It sure has.
    Mr. Hastings. It has?
    Mrs. Capps. Oh, yes.
    Mr. Hastings. And what has been the response?
    Mr. Brunello. In my testimony as well, one of the things 
that we are pushing right now is to try and have our utilities, 
and all utilities across the state, have 33 percent of their 
electricity drawn from renewables. So we are doing a number of 
efforts, and the state Governor, Schwarzenegger, just announced 
that they did a complete reorganization of all of our energy 
agencies so we can align our transmission-corridor-permitting 
authority.
    We are also looking at, with BLM, Fish and Wildlife 
Service, how we can improve our land-permitting system so that 
we can have large, consolidated--we call them ``NCCPs''--
Natural Community Conservation Plans so that you are not having 
different little blotches all over the state for wind or solar 
or geothermal but try and consolidate in areas that have a low 
impact.
    So we are focusing very much with our Federal partners.
    Mr. Hastings. Well, so far, you have focused them in 
central Washington. I guess I should be thankful for that.
    Mr. Chairman, thank you for your indulgence. I ask 
unanimous consent that the press release from Sierra Pacific be 
part of the record.
    Mr. Grijalva. Without objection, sir.
    [The Sierra Pacific press release submitted for the record 
follows:]

Sierra Pacific Industries
P.O. Box 496028
Redding, CA 96049-6028
(530) 3788000
                ,--                                   ,        For Immediate Release        Contact: Mark Pawlicki
        March 2, 2009                530-378-8000
      Sierra Pacific Industries Announces Mill Closure at Quincy, 
   California--Blames Environmental Litigation and Market Conditions

    Anderson, CA--Sierra Pacific Industries (SPI) today announced it 
will close its small-log sawmill located in Quincy, California on May 
4, 2009. According to SPI, the challenging lumber market combined with 
litigation over timber harvests on nearby national forest lands were 
the primary drivers behind the decision to close the plant.
    ``We are deeply saddened over this announcement, as many hard-
working, dedicated employees who have been with the company for a long 
time will be unemployed,'' said area manager Matt Taborski. ``The 
reduced availability of national forest timber resulting from 
litigation forced SPI to transport logs over long distances at greater 
cost to keep the mill running,'' he added. ``Today's lumber prices are 
not sufficient to cover these increased costs. To make things worse, 
environmental litigation has not only reduced the mill's raw material 
supply, but also increased the risk of wildfires in the area,'' he 
continued.
    This mill is part of a two-mill complex--one cutting small diameter 
logs and the other cutting large diameter logs into lumber for domestic 
consumption. About 150 employees will be affected by this closure. 
Approximately 160 will remain employed at the large-log facility and 
biomass electric generation plant.
    The Quincy mills rely in large part on the sale of national forest 
timber for their raw material. Sierra Pacific constructed the small-log 
mill when it appeared the Berger-Feinstein Quincy Library Group Forest 
Recovery Act (QLG) would pass in Congress. That law approved in 1998, 
promoted tree thinning on national forest timberlands to reduce the 
threat of wildfires while providing raw material for local 
manufacturing. It was anticipated that the QLG Act would result in the 
harvest of enough small diameter trees to run the mill.
    Unfortunately, environmental activists have brought a series of 
appeals and lawsuits against these projects, drastically reducing the 
amount of timber available for harvest. Overall, the Forest Service has 
been able to achieve less than 20% of its QLG sawlog sales target due 
to appeals and litigation. Nearly two-thirds of the current year's 
timber sale program is enjoined or withheld from sale pending the 
outcome of litigation.
    Workers at the Quincy mills are represented by the Carpenter's 
Industrial Council. Employees and union representatives were informed 
of the mill closure during meetings today. Sierra Pacific spokesman 
Mark Pawlicki stated, ``SPI will consider affected employees for other 
potential opportunities within the company for those who are interested 
in relocating or transferring.''
    Sierra Pacific Industries is a third-generation family-owned forest 
products company based in Anderson, California. The firm owns and 
manages nearly 1.9 million acres of timberland in California and 
Washington, and is the second largest lumber producer in the U.S. 
Sierra Pacific is committed to managing its lands in a responsible and 
sustainable manner to protect the environment while providing quality 
wood products for consumers.
                                 ______
                                 
    Mr. Grijalva. Mrs. Capps, any questions, comments?
    Mrs. Capps. Please, and thank you, Mr. Chairman.
    First, to Mr. Frank, my constituents of the Chumash Nation 
will be very pleased, Chairman Frank, to know of the wisdom 
that you have shared with us, wisdom that comes from the ages, 
and you spoke on their behalf as well, so I thank you for that.
    I also want to thank all of the witnesses for your 
excellent testimony and to remind you, Chief Gail Kimbell, that 
we met, I believe, in Santa Barbara, when you were honored by 
the Forest Service Foundation a few years ago, and it is a 
pleasure to have you be here today.
    I have a question for you, and I also cannot skip by my 
Californian, Mr. Brunello, for a question as well in this short 
time.
    Of course, the warming climate is contributing to longer 
wildland fire seasons with more extreme events, greatly 
increasing the risk to human lives and buildings, particularly 
within the wildland-urban interface. I do not have to remind 
you of three major incidents in Los Padres National Forest, 
which are close to homes in my district, in the last year and a 
half, most recently, the Tea Fire last fall, just a few months 
ago, in which over 230 homes and part of a liberal arts college 
were burned to the ground; the Gap Fire, earlier that summer; 
and also, significantly, the Zaca Fire in the summer and fall 
of 2007, one of the largest fires in the history of California. 
Over 200,000 acres burned over a three-month period of time. We 
still have the ash in our neighborhoods from that particular 
fire.
    Wildland fires are likely to become increasingly difficult 
to manage unless we can figure out fire-dependent ecosystems in 
the near future and also do some really serious, long-range 
planning, which you have touched upon, and I thank you for 
that.
    As you described the way the Forest Service is 
collaborating among fire and climate scientists, maybe you 
could be specific. I am thinking particularly of the homeowners 
in Santa Barbara who want to rebuild those homes, and I have 
heard of--I will set this out for you--some adaptive-management 
strategies.
    I heard of one called ``Firewise,'' and maybe you would 
describe it for us because it is going to make a tremendous 
difference. As Tony said, we are going to continue to have 
fires. What we have to learn to do is be smart in adapting to 
them.
    Ms. Kimbell. And thank you for that. ``Firewise'' is a 
wonderful program that we implement across the country, but it 
helps communities be able to help private landowners design 
their homes, design their facilities, and design their 
landscaping with fire in mind. So it provides information about 
different kinds of building materials, different kinds of 
landscaping, and spacing.
    We share responsibility for this program with the state 
foresters, and we deliver it. California certainly has a very 
active Firewise program, as does Nevada, as do most of the 
states that have heavy fire programs.
    There is fabulous information available there, and I 
encourage not only the forestry community to be interested in 
it but certainly communities who are setting standards and 
guidelines for the construction of homes, whether they are 
being reconstructed or brand-new construction, for the 
construction of homes and businesses in fire-prone areas.
    Mrs. Capps. And, Mr. Chairman, if I could request that 
Chief Kimbell maybe submit a document to that for the record of 
this testimony, I would appreciate that.
    Ms. Kimbell. We would be happy to.
    Mrs. Capps. Thank you. Mr. Brunello, you spoke already 
about projections to programs and plans enhancing our ability 
to manage our public lands using the science that is available, 
and you really touched us when you said, We have to act. We 
cannot just study this any longer; we have to act.
    Specifically, what lessons can be learned and applied at 
the Federal level from California's efforts to integrate 
climate change into CEQA, into the California design?
    Mr. Brunello. That is probably for a whole hearing.
    Mrs. Capps. I know it is. I am so sorry, but I want to get 
it out, at least, to start.
    Mr. Brunello. Exactly. We had a bill called S.B. 97 that 
was passed two years ago that was to provide guidance for all 
projects on how to account for greenhouse gas emissions. So it 
was probably hastily completed, many would say, and what we are 
learning is that there is a very narrow focus, looking 
specifically at projects and, more, in particular, projects 
that are litigated. But what we have found, particularly in the 
testimony, it hits on start with the basics, account for 
greenhouse gas emissions on projects.
    There is debate about what thresholds do you use for 
greenhouse gases. Should it be zero? Should there be some 
formula?
    We are finding it very difficult, but we know that people, 
at least, have to track their emissions and to mitigate for 
those emissions, so that is a primary thing you should walk 
away with.
    How you deal with climate impacts is exceptionally 
challenging--that is something that I know was mentioned by the 
Chairman--and, in particular, what we are finding in our 
science is that you really need to ask three questions, and I 
think, on some areas, we are just not there yet. We are trying 
to push as much as we can, but what impacts happen where, when?
    Mrs. Capps. Yes.
    Mr. Brunello. Three very basic questions, but if you are 
looking at specific projects, with NEPA, in particular, it is 
very difficult to answer those questions.
    The final big question is cumulative impacts, and I would 
leave it with what is even more important, is that there is 
comprehensive climate legislation that is passed and that 
specific projects, as you are doing a CEQA or a NEPA analysis, 
and they will go together, link with that broader structure 
because if NEPA is done on its own without the bigger context, 
it creates a number of difficulties.
    Mrs. Capps. That is a very good summary, for starters. 
Thank you very much.
    Mr. Grijalva. Mr. Bishop? No? Excuse me. Mr. Coffman?
    Mr. Coffman. Thank you, Mr. Chairman and Ranking Member 
Bishop, for holding this hearing today. Our public lands are a 
valuable resource. They provide many opportunities for outdoor 
recreation and hold vast energy deposits.
    Trees also act as carbon repositories. As they grow, they 
absorb carbon. When trees die, they cease to absorb carbon and 
begin slowly releasing it back into the atmosphere. This carbon 
can also be released rapidly during forest fires.
    In Colorado and across the nation, we have vast swaths of 
standing dead trees waiting to erupt in flames. This will 
threaten lives and property. It will also release tons of 
carbon into the atmosphere. Each year, millions of tons of 
carbon are released into the atmosphere by carbon. According to 
the National Center for Atmospheric Research, during Colorado's 
2002 fire season, just as much carbon was released into the 
atmosphere from forest fires as was released from the entire 
state's transportation emissions.
    Now, we have a choice. We can push policies that will 
prevent catastrophic fires, or we can go with the status quo 
and allow hazardous fuels to continue choking our forests. I, 
for one, hope we will pursue proactive policies of active 
forest management.
    Chief Kimbell, thank you for your time today. A 2007 report 
by the University of Colorado and the National Center for 
Atmospheric Research estimated that fires release about 290 
million metric tons of carbon dioxide a year. It seems to me 
that reducing forest fires would reduce carbon emissions. What 
are the main obstacles in the way of doing fuel treatments in 
our forests and getting ahead of these fires before they start?
    Ms. Kimbell. Thank you, Mr. Coffman. Since the start of the 
National Fire Plan, together with Department of the Interior 
agencies, we have treated over 30 million acres of public lands 
for hazardous fuels. About 19 million of that has been on 
national forests and grasslands.
    The Colorado situation is something we have spent 
considerable time talking about. We focused resources there, 
last year and this year, to work together with the State of 
Colorado to treat lands. We are working with Denver Water. We 
are working with a whole host of interests in that front range 
country and what some people like to call the ``back range.''
    Challenges to being able to conduct those treatments are 
partly around just the social license to be able to conduct 
those treatments. There are many people who really do not want 
activities on their public lands and are very vocal about that, 
very active in that, and these are public lands. We manage them 
for the public. We do it in a collaborative process. We 
encourage public involvement, to a great extent, in everything 
we do. Part of it is social license and the ability, then, to 
be able to move projects forward in a timely way.
    The Forest Service has a research project--it is actually 
in California--the Alder Springs project, where we are working 
hard on managing, analyzing, and measuring a whole carbon 
budget around the issue that you raised with the amount of 
carbon being produced in a fire versus the carbon that might be 
removed and put to another product while another healthy, green 
stand is allowed to get started and to start sequestering 
carbon rather than emitting carbon. But the Alder Springs 
project has a lot of great potential to be able to teach us a 
lot, and there are some similar projects around the country.
    Mr. Coffman. Would any other panel members like to comment 
on that?
    [No response.]
    Mr. Coffman. Mr. Chairman, I yield back the balance of my 
time.
    Mr. Grijalva. Mr. Heinrich, any questions?
    Mr. Heinrich. I do. Chief Kimbell, it is great to have you 
here today. Are you familiar with the Gila National Forest in 
New Mexico?
    Ms. Kimbell. I have read a lot about the Gila, never spent 
a lot of time on the Gila.
    Mr. Heinrich. I would encourage you to spend time there. It 
is an incredible place.
    My background, for a number of years, I worked as a guide 
outfitter, taking kids into the back country, and managed a 
540-acre forest property that had been cut around the turn of 
the century back in probably the 1910's. That property had 
incredible proliferation of small-diameter trees because of the 
combination of fire-suppression and previous management 
activities.
    You know, I am somebody who has literally cut down tens of 
thousands of trees, and I do not apologize for that fact 
because we were trying to restore a forest condition, but I 
think this broad-brush approach that says that the only way to 
reduce, you know, the potential for catastrophic wildfire is 
sometimes simplistic.
    The example I would give is that the healthiest forest I 
have ever seen is in the middle of the Gila wilderness, and the 
reason why it is so healthy is because it has never been fire 
suppressed. The Ponderosa pines are three-to-four-feet thick. 
There is very little underbrush to create ladder fuels to the 
surface.
    So, I guess, one of my questions revolves around the fact 
that if we are going to do these treatments that put us back on 
the track within ecosystems that are fire-adapted, and anytime 
you are dealing with Ponderosa pine, you are dealing with a 
fire-adapted ecosystem, is it feasible, even, to do those 
treatments, other than concentrating them around the urban-
wildland interface, but in the broader areas, where we want to 
restore a more natural condition, a condition that is better 
fire-adapted? If not, do we need to then rely on the judicious 
use of prescribed fire to create that natural condition?
    Ms. Kimbell. Well, you are absolutely right. There is no 
one answer. There is no cookie-cutter approach to dealing with 
the health of forest land. Some of our employees like to talk 
about how forests are really the lungs of the earth, and a 
healthy forest is taking in a lot of carbon and putting out a 
lot of oxygen.
    Part of what we have learned in our climate change research 
is that there are very different things going on in different 
places in the country, and we cannot assume that what is going 
on in New Mexico is the same thing that is going on in Florida. 
That is the important part of stepping down some of this global 
science that we have and being able to step it down to a more 
local area so that we can look at the opportunities in 
different places to be able to improve that forest's ability to 
be able to sequester carbon and provide all of the services 
that we look to have off of those National Forest System lands.
    With that, in many of our Forest Service regions, we have 
taken a regional approach to look at the priorities for 
treating lands to prevent those catastrophic wildfires and the 
effects of those catastrophic wildfires.
    So there are many places that are prioritizing treatments 
that may be far outside the wildland-urban interface, but some 
other areas that might need some address to be able to perhaps 
prevent that fire, when it does get started, from roaring into 
Big Sur or wherever else, into Evergreen, Colorado, and to be 
able to improve the health so that that forest is able to 
handle precipitation, so it is able to sequester carbon, so it 
is able to provide the recreation resources that we count on 
from our public lands.
    So, yes, we are looking at the whole spectrum of lands and 
not just in the wildland-urban interface.
    Mr. Heinrich. Just a quick followup. Do you have a sense 
for the relative cost? What does it cost these days to go in, 
and I know it varies widely by forest type, but when you have 
to manually thin an acre of forest, what does that generally 
cost the public?
    Ms. Kimbell. There is no single number I can quote you. A 
key component is in what might be available in the local 
community to be able to use that woody biomass that might be 
cut, that might be removed, where there is an outlet for that 
that makes it much more economical to be able to treat those 
acres.
    There is a symbiosis here where being able to treat those 
acres can also be very, very good for a community, and those 
things need to be considered as a whole and not in separate 
parts.
    You mentioned prescribed burning before. Prescribed burning 
in Mississippi is much cheaper than prescribed burning around 
Lake Tahoe. There are just different costs. There are different 
factors of doing business in a wildland-urban interface on 
steep hills with continued drought and other issues versus 
doing it in a recurring area that might be a gentler terrain, 
and many other factors.
    So it is really, really hard to give you a number for what 
it might cost for thinning because it really varies, depending 
on what the rest of the industry's infrastructure might look 
like, or what the economic opportunities are around that 
project.
    Mr. Heinrich. Mr. Chairman, I yield back.
    Mr. Grijalva. Thank you. Mr. Bishop?
    Mr. Bishop. Chief Kimbell, if I could just ask one quick 
question. So you are recommending that we burn Mississippi. Is 
that what you are saying?
    Ms. Kimbell. No, absolutely not, but I do recommend that we 
keep underburning to be able to do the kind of work we are 
doing on restoring long-leaf pine.
    Mr. Bishop. Let me ask you about one area that is slightly 
different from that because we will have other testimony coming 
in later. To try and put some parameters around the magnitude 
of the effect of the alternative energy sources, particularly 
wind and solar, and how that will have on public lands, some 
people have estimated that tens of thousands of square miles 
will be needed to meet even a fraction of our power needs, if 
we are using wind power; the same kind of concept with solar 
power.
    Can you put into some kind of perspective the spacing needs 
that would be needed for wind or solar as it supplants 
traditional forms of power?
    I can see, by your face, you want to give me that in 
written form.
    Ms. Kimbell. I would love to give you that in written form, 
Mr. Bishop, if that would be all right with you.
    Mr. Bishop. That is fair game. Thank you.
    Ms. Kimbell. Thank you.
    Mr. Bishop. For a price.
    Mr. Grijalva. Thank you, Mr. Bishop. Ms. Shea-Porter?
    Ms. Shea-Porter. Thank you, Mr. Chairman. I referenced New 
Hampshire in the beginning of my remarks, and we have certainly 
had a terrible time. I do not think there are too many people 
in New Hampshire who do not believe we are experiencing climate 
change.
    Our little state had a tornado that impacted 55 miles last 
summer. That came after several floods, and then, in December, 
we were visited by an ice storm, the likes of which we have not 
seen, that put power out for about 450,000 people. It was 
really very, very damaging.
    In looking at all of this, and knowing that we have 16 
miles of ocean--do not laugh, California--they are beautiful--
and we have some stunning mountains, but what is your plan now 
for New Hampshire and for the Northeast? We have a variety of 
environmental problems, and we have people working on it. The 
University of New Hampshire certainly is in the forefront for 
this.
    What is your plan? Who are you working with right now, and 
what is going to be the change in your agency in the way that 
you actually implement management for our mountains?
    Ms. Kimbell. I have family in New Hampshire and Vermont, 
and they have not complained about the snow this year. They 
have just loved the snow, but they were very unhappy about the 
power outages. They are all skiers.
    The work we are doing in the White Mountain National Forest 
and in the Green Mountain National Forest is very important. We 
have been working together with not only those universities--
the University of Vermont, my alma mater, and the University of 
New Hampshire--but also with landowners in Maine, New York, 
Massachusetts, Connecticut, and Rhode Island.
    We have a research station, we have people actually 
physically located in New Hampshire and Vermont who are working 
together with all of those different entities, looking to 
incorporate the climate change science into our on-the-ground 
management so that Dr. Cleaves' staff is working with the 
staffs on the national forests to do a technology transfer, but 
also working with the state foresters to ensure that technology 
transfer.
    We just recently published a paper where we noted the 
migration of a number of hardwood species that, with 
monitoring, we have been able to demonstrate that there are 30, 
I think, hardwood species that are actually moving in their 
range. They are moving northward. It has been the subject of 
anecdotal kinds of conversation for many, many years, but now 
we actually have the science to show that.
    That is the kind of information we want our on-the-ground 
managers to have, whether they are working on national forests 
or any forest land, to be able to assess what species are going 
to fare well on different sites and what species might be able 
to provide the most to us, in terms of sequestering carbon and 
providing clean water and clean air.
    Ms. Shea-Porter. Thank you. So do I have one more minute?
    So do you anticipate any changes? There is a lot of debate 
about land use up in that area, recreation versus economic 
impact there. Do you have any changes planned, or are we going 
to see pretty much the same policy of management that we have 
had over the past years?
    Ms. Kimbell. The White Mountain National Forest recently 
completed its land management plan. The piece that needs to be 
continually addressed is the adaptive management piece, which I 
think is a very good tie to what we have been talking about in 
this hearing, with adaptive management related to climate 
change. The science needs to continually influence the 
implementation of that forest management plan.
    Ms. Shea-Porter. OK. Thank you very much. I yield back.
    Mr. Grijalva. Thank you. Mrs. Lummis, any questions?
    Mrs. Lummis. Yes, Mr. Chairman. Thank you.
    Chief Kimbell, welcome. It is nice to see you. I am from 
Wyoming.
    Ms. Kimbell. The great State of Wyoming.
    Mrs. Lummis. The Great State of Wyoming, and I want to 
follow up on something that my neighbor to the south, Colorado, 
was touching on earlier.
    The beetle kill in Colorado and Wyoming is absolutely 
devastating. In fact, your own Forest Service predicts that, by 
2012, beetles will have killed nearly all of the mature, 
lodgepole trees in Northern Colorado and Southern Wyoming.
    I believe that my neighbor, Mr. Coffman, and I could agree 
to that assessment. It is a frightening prospect.
    So my question for you is, what types of adaptive-
management tools would allow you to better manage this 
devastating problem? And, furthermore, when you were speaking 
earlier, you mentioned treatments for hazardous fuels, and I am 
just curious as to what that means in lay language.
    Ms. Kimbell. That is an excellent question because we have 
gotten wrapped around the axle just a couple of times talking 
about hazardous fuels: What are ``hazardous fuels''? Hazardous 
fuels are fuels that may contribute to irregular or dangerous 
fire behavior so that they might be ladder fuels, as was 
discussed earlier. They might be so many tons per acre of a 
certain moisture content. It really varies from site to site.
    Lodgepole pine is an interesting species, in that we know, 
from the fires in 1910, the forests that came back after the 
1910 fires and the lodgepole pine type came back almost 30,000 
stems to the acre. I worked on a forest in the Great State of 
Washington where we had 30,000 stems to the acre, pretty 
significant.
    Lodgepole pine is a species that is susceptible to insect 
and disease, particularly when it reaches some stress level 
when it is about 100 years' old. I think we are seeing that not 
only in Colorado and Wyoming; we are seeing it in Idaho and 
Montana, and, certainly, British Columbia and Alberta have been 
through some pretty exciting times with Banff, Jasper, and the 
mountain pine beetle epidemic there.
    So when I talk about adaptive management relative to 
lodgepole pine, there are things we can do to address the 
density of forest stands. Certainly, the density contributes to 
the physical stress that they experience during periods of 
drought.
    I also had some discussion with a silviculturist in Vail, 
who was talking about the appropriateness of planting different 
species perhaps at different elevations to be able to have some 
confidence that it would be a long-lived species and to be able 
to provide all of the benefits that we look for from trees.
    So adaptive management may take a number of different 
roles. We are trying to address the issue in Wyoming with our 
Economic Recovery and Reinvestment Act funding, and we hope to 
be able to get on that one right away.
    Mrs. Lummis. Thank you very much, and I hope to follow up 
with you specifically on that point because we are terribly 
concerned, so thank you very much for addressing that.
    I am wondering, as a followup, whether there is a way to 
turn lemons into lemonade here, in that because of the massive 
pine beetle kills in areas, is it possible to address the 
biofuels issue with pine beetle-killed trees; in other words, 
to harvest the dead trees to create biofuels that would help 
expand our energy portfolio in this country and diversify it so 
we are turning these dead trees that are potential fire hazards 
and potential carbon emitters, in the event of a conflagration, 
into biofuel, which then actually becomes a diversifier to our 
energy portfolio?
    Ms. Kimbell. Absolutely, and we do have a part of our 
science program that is focused on looking at the opportunity 
to create liquid fuel and wood products from cellulose. The 
Forest Service is not working on that alone. Certainly, the 
Department of Energy has interest in that, and we have been 
working internationally with Sweden, Finland, looking at the 
potential for converting cellulose into some kind of liquid 
fuel, and there is tremendous potential right there in Colorado 
and Wyoming.
    Mrs. Lummis. Well, I am very pleased to hear that.
    Mr. Chairman, just one comment. Mr. Bishop mentioned 
earlier about the footprint of wind-energy turbines. One of the 
reasons for the spacing requirements is because of the wake 
effect. When the wind turbines turn, they create a wake that 
affects those wind turbines behind them and behind them, so 
spacing becomes a big issue.
    So when you are doing a massive wind-energy project, which 
is really required in order to justify putting the transmission 
lines into it, it takes up enormous acres. So I do think we 
have to look at some other alternatives, like offshore, and 
improve the technology so that is possible; otherwise, we are 
taking what is a very small footprint, with this new 
directional drilling of oil and gas, where you can drill 55 
wells on one wellpad and recover oil from an octopus-like 
structure underground, and, instead, replacing it with 
something that really covers thousands, tens of thousands, of 
acres of surface and destroys the viewshed. So thanks, Mr. 
Chairman, and thank you for being here.
    Mr. Grijalva. Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chairman. I am very glad to 
see our California representative here, who has been very 
active with the Bay-Delta on analyzing the sea level rise. It 
is quite important in my Subcommittee on Water and Power, and 
power being the energy.
    Ms. Lummis, you brought up a great point because I toured 
the Western Area Power Administration (WAPA) last year. I took 
a helicopter tour to check out the forests because the energy 
grid goes right through the forest, which is a great issue in 
my Subcommittee. And I found out that they are trying to expand 
their right-of-way so that they can be able to service the 
lines, and they are not able to because of different things 
that happened between the agencies. And I would hope that they 
begin to talk to each other and be able to allow this to happen 
without having a whole gamut of policy decision because this is 
beneficial not only for a firebreak but also to be able to 
allow servicing the grid energy.
    Yes, the pine beetle and the stress that is caused by the 
lack of water, supposedly--this is the briefing we were given 
when we were there--and the fact that there are, I would say, 
millions of trees--from my look at it, I could almost see some 
areas that were totally brown--that somehow we would be able to 
utilize it, but I am afraid, if you are going to use them for 
wood product, unless you treat that wood product, that you are 
going to have some kind of a contamination somewhere along the 
line.
    So, effectively, maybe biofuel would be something that 
would be a new energy producer for the area that would create 
new jobs and green technology because there are ways of being 
able to scrub the smoke coming out. It is happening in 
California.
    Essentially, I am concerned that maybe the agency is not 
necessarily collaborating. Is it because of funding? Is it 
because of lack of personnel? These decisions are not made to 
be able to allow these expansions to help service the grids and 
effectively expand the break, should there be a forest fire.
    Ms. Kimbell. As I understand it, there is an environmental 
analysis going on over many parts of California and other 
places looking at exactly this question.
    Mrs. Napolitano. I am talking about Colorado. I am talking 
all the way down to Wyoming because we flew all the way 
through.
    Ms. Kimbell. The discussion I was involved in, most 
recently, had to do with California, but, certainly, I know 
that there are applications in to be able to widen those 
rights-of-way along different transmission lines, especially 
through heavily forested areas with tall trees.
    Mrs. Napolitano. Correct.
    Ms. Kimbell. That environmental analysis is ongoing.
    The regional forester in the Rocky Mountain Region is here 
in town this week, but he was actually discussing this just 
last week.
    Mrs. Napolitano. Is there better coordination between the 
agencies that would allow for faster, say, working on the 
studies?
    Ms. Kimbell. I will absolutely check on it. I am not aware 
that there is an issue between agencies, but I will check on 
that.
    Mrs. Napolitano. Would you inform the Subcommittee, please?
    Ms. Kimbell. You bet.
    Mrs. Napolitano. It is essential since we are looking at 
the same issues that would hamper California, as well as other 
states.
    I looked at some of the information I was given, and it 
goes to the effects of climate change in the West, past 
outbreaks. I can also attest to the quagga mussels and the 
zebra mussels. Aside from the pine beetle, looking at those, 
what are the agencies, in collaboration, doing to research and 
come up with a way of being able to quell these outbreaks?
    Climate change is not going to change from what we are 
seeing, so we can expect more. What are we doing to be able to 
address these issues?
    Ms. Kimbell. Well, the mussels one is very, very 
interesting. I know that the Forest Service is working with a 
number of different partners addressing the transfer of 
different invasive species from one water body to another, and 
I think Mr. Armstrong probably has something to offer to that 
discussion.
    Mrs. Napolitano. Quagga and zebra, both.
    Mr. Armstrong. Right.
    Ms. Kimbell. Absolutely.
    Mr. Armstrong. The U.S. Fish and Wildlife Service, in 
combination with the U.S. Geological Survey, the Great Lakes 
Coalition on Certain Invasive Mussels in the Great Lakes, but 
in also marine waters, is looking at the issue of invasives and 
their impact related to climate change.
    Mrs. Napolitano. But how long are they going to look at it? 
You are doing already some studies.
    Mr. Armstrong. A lot of work is already going on at the 
state level to develop adaptation strategies, going back to----
    Mrs. Napolitano. Right. Well, it is not just adaptation; I 
believe you found some kind of bacteria.
    Mr. Armstrong. There are mitigation strategies, too, with 
daughterless technologies and other scientific methods, to 
prevent the spread and to actually eradicate the invasives.
    Mrs. Napolitano. Right. Well, we were in the research and 
development center also, where we talked to some of the people 
who are doing the research. The problem is, how long is it 
going to take? Can we help expedite? Do you need additional 
funding? What do you need to be able, because it is costing 
some of the entities millions, if not billions, of dollars, to 
address the quagga mussels because they are clogging the pipes, 
and, I am sure, when you do one, you should be able to do 
others.
    Mr. Armstrong. I do not want to give you a figure offhand, 
just off the top of my head. What I would like to do is get 
that information for you from our folks at the Fish and 
Wildlife Service and the GS and get it on the written record 
and get that statement to you.
    Mrs. Napolitano. Well, this is the forest disruption 
resulting from warming and increased pest outbreaks. That would 
include the pine beetle and any other invasive species that we 
might want to do.
    You might also want to look at--there is some cane in the 
resacas in Brownsville that are also affecting the ability of 
water to be able to be utilized properly. I mean, I can go on, 
Mr. Chair.
    There are so many things that I would love to be able to 
work in tandem with your Subcommittee because these are issues 
that just overlap, and unless we know what you are doing, we 
are not able to be able to ask for funding or assistance or be 
able to help you address these things.
    Mr. Armstrong. As I said, we will get back to you with a 
comprehensive assessment of what we are doing and what we need 
to do in order to deal with the problems of the invasive 
species and climate change.
    This gets back to what Chief Kimbell was talking about 
before. There is a symbiosis here of wildland fire and forest 
fire, as well, with the spread of secondary pests and 
invasives, as well, not just the pine bark beetle but invasive 
plants and other animals, as well, and we are working, in 
cooperation with the U.S. Forest Service and other agencies, to 
try to develop plans to deal with these effects.
    Mrs. Napolitano. And that leads to biofuel that you were 
talking about being able to utilize that as a way of being able 
to take those dead trees and be able to utilize their wood, if 
you would.
    Mr. Armstrong. Right. I would like to point out, on that 
issue, going back to what Chief Kimbell talked about, Secretary 
Salazar is developing a DOI Renewable Energy Task Force which 
will deal with issues like the transmission lines that you 
mentioned before, but also biofuel issues and other renewable 
energy sources.
    Mrs. Napolitano. Mr. Chair, thank you very much. I do not 
have anything to yield back, but I certainly look forward to 
working with you on this issue.
    Mr. Grijalva. Thank you so much. Mr. Inslee?
    Mr. Inslee. Thank you. It is good to see my good friend, 
Billy Frank, here, and I think it is a timely hearing. I met, 
this morning, with Henry Cagey of the Lummi Tribe, who was 
telling me about this disaster with the loss of the runs, the 
Fraser River salmon runs, that has been declared a disaster by 
the Secretary of Commerce. It may be associated with climate 
change with the different circulation patterns of water 
temperature that cause those runs to take a different route 
from the Fraser River.
    Then, this morning, I met with Vaughan Sharp of the 
Quinault Tribe, who is fed in the Quinault River by the 
Anderson Glacier. We actually have a picture here showing how 
the Anderson Glacier has shrunk to almost insignificance in the 
last 30 years.
    We have changes, you know, in our neck of the woods that 
are affecting the tribes, and my take on this is that, no 
matter what we do from a land use policy, no matter what we do 
from even a tribal policy, unless we get a handle on carbon 
dioxide emissions, we are all in this soup together. And the 
people who care about pine beetle kills need to help us develop 
a cap-and-trade system and a renewable electrical scanner 
system so we can stop putting so much carbon dioxide into the 
atmosphere; otherwise, we are all in this soup together.
    That is just kind of a general question. I just wonder if 
you have any comments in that regard.
    Mr. Frank. Thank you, Mr. Inslee. You know, the Fraser 
River is a giant river in the Great Northwest, and the climate 
change has been part of the problem, the beetles have been 
another part of them, the siltation of the floods.
    The Fraser River is not like the Nisqually River, where I 
live. The Nisqually River is 90 miles long, and it comes out of 
a mountain. The Fraser River depends upon the snowfall and the 
melt and the temperature of that great river. There is a lot of 
difference right there.
    So you have the temperature cooling and the temperature 
warming, and, you know, it is devastating to the sockeye 
salmon. The sockeye salmon go up into the lakes and spawn up in 
that beautiful country up there in British Columbia, and, you 
know, it goes back to, we are beyond the turning point of 
global warming right now, and something has got to be done.
    This is a real thing that is happening out there, and we 
are all talking about it, but the status quo has got to change. 
The status quo of us, the government, the states. The State of 
Washington alone puts in less than 2 percent of their budget on 
natural resource. What does that tell you? Less than 2 percent 
on natural resource. I do not know what the Federal government 
does on their budget on natural resource. That tells you nobody 
cares about natural resource, and if nobody cares about natural 
resource, there is not going to be education, there is not 
going to be no economy, and there is not going to be cutting 
any trees down. Mills will be closing, and they are closing 
right now.
    Mr. Inslee. Mr. Chairman, some people do care about it. We 
just invested $70 billion in the stimulus package to try to 
develop a clean energy economy so that these problems will not 
happen.
    If I can ask Ms. Kimbell, if a person here in Congress 
really cared about the death of these trees, and I certainly 
do--I was in the Sawtooth a couple of weeks ago seeing the 
devastation there and the pine beetle--would you recommend that 
we find a way to reduce CO<INF>2</INF> emissions so that we can 
stop climate change so we can stop the predation going on in 
the forests? Is that the most important thing we could do to 
prevent this loss?
    President Obama has called for a cap-and-trade system and a 
renewable electrical standard and a variety of methods to 
reduce CO<INF>2</INF>. What would you say about that?
    Ms. Kimbell. I do not think we have time to do one without 
the other. I think we need to be thinking about forest health 
while we are addressing CO<INF>2</INF> emissions. Forests 
currently sequester 10 percent of the carbon that we produce in 
the United States, and if we can help forests sequester even 
more than the 10 percent they currently sequester, we will all 
be better off. Forests are the lungs of the earth. There is a 
lot of work we can do with forests to help them be better lungs 
for us while we are also addressing the total carbon emissions.
    Mr. Inslee. But would you agree, we can spend the entire 
Federal budget on forest health, but if CO<INF>2</INF> levels 
get to 900 parts per million in the atmosphere, with the 
enormous climate change that would be associated with that, we 
are not going to save these forests.
    Ms. Kimbell. I think we have a lot of opportunity to save 
these forests while we are also working on the President's 
proposed cap and trade.
    Mr. Inslee. I think I hear a ``yes'' in there somewhere, 
that you think we have to do a cap-and-trade system if we are 
going to save these forests, or something to stop the 
CO<INF>2</INF> rise.
    Ms. Kimbell. While we are also addressing forest health.
    Mr. Inslee. Right. Thank you.
    Ms. Kimbell. Thank you.
    Mr. Grijalva. Thank you very much. Question?
    Mr. Coffman. May I ask?
    Mr. Grijalva. Sure.
    Mr. Coffman. The ability of the forests to sequester 
carbon; you know, when we look around the globe, there has been 
so much deforestation, there has been such horrible land-
management practices, looking at Brazil and what they have 
done.
    I mean, the fact is, could we not offset a great deal of 
our carbon emissions by promoting not just healthy forests but 
a reforestation, not just in the United States but globally, 
through our foreign policy, and would that not make a 
significant difference when we talk about issues like global 
warming?
    Ms. Kimbell. Certainly, afforestation and reforestation are 
important parts of any address to forestry as a part of our 
address to climate change. Both here in the United States and 
internationally, the Forest Service is involved in almost every 
continent, working with different nations, working with 
different natural resource management issues, and the health of 
forests is really critical amongst them.
    We do work in Brazil, where we have actually worked with 
people on low-impact logging. We have looked at the different 
kinds of gases emitted by different kinds of forests in Brazil. 
I would not trade places with some of the issues that they have 
in Brazil right now in trying to address that whole social 
issue, all of the social questions, around how to manage the 
Amazon. They have some real tough issues that they are up 
against.
    But the Forest Service is working with a number of other 
nations in looking at forests, forest health, afforestation, as 
well as reforestation, and we need to be working on that right 
here at home as well.
    Mr. Grijalva. Thank you, and thank you, Mr. Coffman.
    We are going to recess. We have a vote that is going on. 
Let me thank the panelists, and also, you know, the issue of 
wildfire came up over and over today from the Members.
    I and Chairman Rahall will be reintroducing the Flame Act 
one more time. I would suggest to my colleagues to look at the 
piece of legislation so that we do, on the issue of fire 
suppression, create a different funding stream so that much of 
the money that is now being used by the Forest Service can be 
used for reforestation, better stewardship, et cetera, et 
cetera.
    So thank you very much, and we should be back within 35 to 
40 minutes. Thank you.
    Ms. Kimbell. Thank you, Chairman.
    [Whereupon, at 3:40 p.m., a short recess was taken.]
    Mr. Grijalva. We will reconvene the oversight hearing 
today. We just finished those votes. Those are the last votes 
for the day. Some of my colleagues might or might not return, 
but all of the comments that you have, and any responses to any 
questions I may have or Mr. Bishop may have, will all be part 
of the record, and if there are additional questions, 
colleagues will submit them to us, and we will forward them to 
you for a response. So I appreciate your indulgence, and I am 
looking forward to your comments.
    Let me begin with Mr. Eugene Spiering, Vice President for 
Exploration, Quaterra Corporation. Sir, your comments.

 STATEMENT OF EUGENE SPIERING, VICE PRESIDENT FOR EXPLORATION, 
               QUATERRA CORPORATION, KANAB, UTAH

    Mr. Spiering. Thank you, Mr. Chairman. My name is Eugene 
Spiering. I am the Vice President of exploration with Quaterra-
Alaska.
    What I would like to say is that the Federal lands could 
have a dramatic role in combating climate change while 
decreasing our nation's dependency on foreign energy supplies 
if, and only if, these lands are managed to encourage and 
promote uranium mining and the production of nuclear energy.
    Although wind and solar energy may represent important 
components of an equation toward the mitigation of carbon 
dioxide emissions, the large-scale application of these 
techniques will result in a massive degradation of Federal 
lands and leave a lasting legacy of a failed government program 
that will embarrass its supporters and infuriate future 
generations.
    Twenty percent of this nation's electrical energy is 
generated by 103 reactors producing 100,000 megawatts of 
electricity. Palo Verde, a single generating station located 45 
miles west of Phoenix, produces 3,800 megawatts of clean, 
nonpolluting electrical energy, or approximately 3.8 percent of 
this nation's consumption. This power station uses only 
wastewater from the City of Phoenix for cooling, stores all 
high-level, radioactive waste on site, and, with all attendant 
facilities, disturbs a total surface area of 4.5 square miles.
    To produce an equivalent amount of energy by wind 
generators would require a disturbance of 760 square miles, and 
solar panels would require 190 square miles. The amount of land 
disturbed by solar- and wind-generating systems is enormous 
when you compare it to nuclear powerplants. Wind generators 
have an average operating capacity of 25 percent compared to 97 
percent by nuclear plants.
    When considered with land-disturbance caused by thousands 
of miles of powerlines and hydroelectric storage facilities for 
this intermittent power, the total disturbance of wind power is 
approximately 160 times the total disturbance of nuclear energy 
for a similar generating capacity.
    Solar energy disturbs over 40 times the surface area of 
nuclear power and costs over five times more per kilowatt hour.
    If 20 percent of the electrical power used by the U.S. was 
produced by wind energy, the facilities would cover a surface 
area of 20,000 square miles, an area slightly less than the 
entire State of West Virginia. Because the efficient use of 
wind generators requires a location along hilltops and 
ridgelines, more than 80,000 miles of horizons in the U.S. 
would be bristling with windmills and powerlines, a sight that 
many would not like to experience.
    As the wind generators reach the end of their estimated 25-
year life, maintenance may no longer be feasible or possible 
due to changing economic or political environments, and 
thousands of miles of rusting junk will remain as a monument to 
yet another failed energy policy.
    The U.S. will remain dependent on foreign energy during the 
waning phases of the world's oil production. The Executive 
Secretary of the Intergovernmental Panel on Climate Change, set 
up by the United Nations, stated, at Bali, that ``I have never 
seen a credible scenario for reducing emissions that did not 
include nuclear energy.''
    A recent British white paper on nuclear power concluded 
that ``nuclear power is the most cost-effective, low-carbon-
generation technology available.''
    There are now 196 nuclear powerplants with a net capacity 
of 170,000 megawatts in operation in Europe. There are 14 new 
units under construction, and moratoriums against building new 
reactors and mandatory phaseouts of existing nuclear-generating 
facilities are being lifted in Switzerland, Sweden, Italy, 
England, as well as several Eastern European countries.
    Approximately 80 percent of France's electric energy is now 
generated by nuclear power. Thirty-three reactors are currently 
under construction globally, and 94 are estimated to either be 
on order or in the advanced planning stage. There are proposals 
for an additional 222 reactors.
    This is the way the world is responding to the climate 
change and energy. If the U.S. truly wants to use public lands 
to fight global warming without the disturbance of enormous 
land areas and thousands of miles of scenic vistas, the only 
effective and cost-efficient manner is to encourage and promote 
uranium mining and the production of nuclear energy on Federal 
lands.
    This is truly an issue that transcends politics. Nuclear 
energy is critical to the economy and future well-being of our 
nation. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Spiering follows:]

    Statement of Eugene D. Spiering, Vice President of Exploration, 
                          Quaterra Alaska Inc.

    Federal Lands could have a dramatic role in combating climate 
change while decreasing our nation's dependency on foreign energy 
supplies if and only if these lands are managed to encourage and 
promote uranium mining and the production of nuclear energy. Although 
wind and solar energy may represent important components of an equation 
toward the mitigation carbon dioxide emissions, the large scale 
application of these techniques will result in a massive degradation of 
Federal lands and leave a lasting legacy of a failed government program 
that will embarrass its supporters and infuriate future generations.
    Twenty percent of this nation's electrical energy is generated by 
103 reactors producing 100,000 megawatts of electricity. Palo Verde, a 
single generating station located 45 miles west of Phoenix, Arizona 
produces 3800 megawatts of clean, non polluting electricity or 
approximately 3.8 percent of our nation's consumption. The Palo Verde 
power station uses only waste water from the city of Phoenix for 
cooling, stores all high level radioactive waste on site, and with all 
attendant facilities disturbs a total surface area of 4.5 square miles. 
To produce an equivalent amount of energy by wind generators would 
require a disturbance of 760 square miles and solar panels would 
require 190 square miles.
    The amount of land disturbed by solar and wind generating systems 
is enormous when compared to nuclear power plants. Wind generators have 
an average operating capacity of 25% compared to 97% by nuclear plants. 
When considered with land disturbance caused by thousands of miles of 
power lines and hydroelectric storage facilities for the intermittent 
power, the total disturbance of wind power is approximately 160 times 
the total disturbance of nuclear energy for a similar generating 
capacity. Solar energy disturbs over 40 times the surface area of 
nuclear power and costs over 5 times more per kilowatt hour.
    If 20% of the electrical power used by the U.S. was produced by 
wind energy, the facilities would cover a surface area of 20,000 square 
miles; an area slightly less than the entire state of West Virginia. 
Because efficient use of the wind generators requires a location along 
hill tops and ridge lines, more than 80,000 miles of horizons in the 
U.S. would be bristling with wind mills and power lines; a sight that 
many would not like to experience. As the wind generators reach the end 
of their estimated 25 year life, maintenance may no longer be feasible 
or possible due to changing economic or political environments and 
thousands of miles of rusting junk will remain as a monument to yet 
another failed energy policy. The U.S. will remain dependent on foreign 
energy during the waning phase of the world's oil production.
    The Executive Secretary of the Intergovernmental Panel on Climate 
Change (set up by the World Meteorological Organization (WMO) and by 
the United Nations Environment Program) stated at Bali that: ``I have 
never seen a credible scenario for reducing emissions that did not 
include nuclear energy.''
    A recent British White Paper on nuclear power concluded that 
nuclear power is the most cost effective low-carbon generation 
technology available. Volatility in oil prices and the clash between 
Russia and Ukraine over gas pipelines has made nuclear power--with 
virtually zero carbon dioxide emissions--a more attractive option for 
Europe. There are now 196 nuclear power plant units with an net 
capacity of 170,000 MW in operation in Europe and 14 new units with 
under construction in five countries. Moratoriums against building new 
reactors and mandatory phase outs of existing nuclear generating 
facilities are being lifted in Switzerland, Sweden, Italy, and England 
as well as several eastern European countries. Approximately 80% of 
France's electrical energy is now generated by nuclear power. According 
to BHP Billiton, 33 reactors are currently under construction globally, 
another 94 are estimated to be either on order or in the advanced 
planning stage while there are proposals for a further 222 generators.
    There are those that want to stop uranium mining in the U.S. and 
fear the use of nuclear power. This is understandable considering the 
amount of misinformation cited in newspapers and editorials by a few 
activists. Why should we trust this industry? Perhaps we should try to 
inform ourselves on how the rest of the world is dealing with these 
issues and learn why so many of the world's scientists are encouraging 
the use of nuclear energy. Gwyneth Craven in a recently published book 
titled Power to Save the World: The Truth About Nuclear Energy, 
published by Alfred A. Knopf, a division of Random House, Inc., 2007, 
provides a well-researched and readable examination of nuclear energy 
from mining and energy production to the final storage of waste.
    If the U.S. wants to use public lands to fight global warming 
without the disturbance of enormous land areas and thousands of miles 
of scenic vistas, the only effective and cost efficient manner is to 
encourage and promote uranium mining and the production of nuclear 
energy on Federal lands. This is truly an issue that ``transcends 
politics''. Nuclear energy is critical to the economy and future well 
being of our nation.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir. I appreciate your comments.
    Dr. Mark Harmon, Richardson Chair and Professor in Forest 
Science, Oregon State University, welcome, and I look forward 
to your testimony.

   STATEMENT OF MARK E. HARMON, Ph.D., RICHARDSON CHAIR AND 
     PROFESSOR IN FOREST SCIENCE, OREGON STATE UNIVERSITY, 
                       CORVALLIS, OREGON

    Mr. Harmon. Thank you, Mr. Chairman and Subcommittee 
Members, for inviting me to testify. My name is Mark Harmon. I 
am a professor at Oregon State University. I am here to 
represent myself.
    I have studied the problem of carbon in forests for almost 
three decades, published numerous articles, conducted lots of 
studies, and taught courses on the subject. I am here to 
provide information and insights.
    U.S. forests currently offset about 10 percent of the 
nation's greenhouse gas emissions. They could be managed to 
offset more--perhaps that amount could be doubled so we could 
gain another 10 percent--but it would be part of a bridging 
strategy.
    So forests cannot solve the entire problem, and they can 
only help for a limited time, say, about 50 to 100 years, but 
this is still a significant contribution to the issues we face.
    There are many misconceptions about carbon in forests. Many 
proposals are based on these misconceptions, and they are going 
to prove counterproductive.
    There is a tendency to only look at the inputs to the 
forest system or the outputs, depending on what people are 
trying to sell. I think this is really misleading. As 
scientists, we have to look at what is coming in and what is 
going out simultaneously.
    A good analogy for carbon in a forest is like a leaky 
bucket. A leaky bucket can store carbon, but you have to have 
carbon coming in, and the amount that stays in depends on the 
number and size of the leaks. So if we want more carbon in that 
carbon bucket, we have to put more in at a higher rate, or we 
have to do something to alter the nature of those leaks.
    How do we decide what to do? There are a lot of proposals 
out there. Well, this is sort of like buying a house, but 
instead of checking for dry rot, we need to check for a few 
other things.
    For example, are all of the carbon stores being counted? 
There is a tendency to leave out key pools in the analysis.
    Has a starting point been specified? How do we know where 
we are going on any journey if we do not know our starting 
point, and we do not know how far or what direction?
    How long will it be until the project pays off? Forests are 
slow systems. They have time lags. Many of the projects that 
are proposed will pay off perhaps in centuries, and we really 
need a quicker solution.
    Are the practices truly renewable? Forests are potentially 
a renewable resource, but it depends on how they are managed.
    What other processes will occur when we take an action? For 
every action, there is an opposite reaction, so how will that 
affect what happens?
    Finally, how does this policy work over a large area and 
over a long time period? We have to evaluate projects in that 
way.
    Now, there are a number of actions that will work, and 
there are some that will not work. Stopping or slowing 
deforestation will definitely work. Afforestation--that is, 
adding forests to areas that once had forests and now do not; 
that definitely works.
    Lengthening the interval between disturbance to harvest 
actually increases the amount of carbon stored in a forest. 
Likewise, taking less each harvest or each disturbance leads to 
more stores. This is like plugging the holes in the leaky 
bucket.
    A couple of things that simply do not work: Converting old-
growth forests to younger plantations simply does not store 
more carbon. You are taking a system with high carbon stores, 
converting it one-to-one with lower. There is no way you go 
from here to there without losing carbon. It is that simple.
    Now, I have a number of concerns. One is carbon is not the 
only reason we are managing forests. We clearly need a balance. 
We heard about treatments for fire fuels and reducing those. 
Studies are showing that that actually does not save much 
carbon. It actually emits more carbon, treatments do, than the 
fires do themselves.
    However, we need to protect people's homes. We have to have 
defensible zones. We need to restore some ecosystems back to 
their original structure. Those are very good reasons to be 
harvesting and doing treatments, but, from the carbon 
perspective, they are not.
    We need a thoughtful, transparent, accounting system that 
does not have unintended consequences, and some schemes do have 
these consequences. We need a reliable monitoring system that 
can be verified independently.
    And, finally, one last comment is that continued climate 
change really endangers forests serving as places to store 
carbon. If we wait too long, we are actually going to have 
forests become part of the problem and part of the solution, 
and that is one of my greatest concerns that I have.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Harmon follows:]

    Statement of Mark E. Harmon, PhD, Richardson Endowed Chair and 
   Professor in Forest Science, Department of Forest Ecosystems and 
                    Society, Oregon State University

Introduction
    I am here to represent myself and offer my expertise to the 
subcommittee. I am a professional scientist, having worked in the area 
of forest carbon for nearly three decades. During that time I have 
conducted numerous studies on many aspects of this problem, have 
published extensively, and provided instruction to numerous students, 
forest managers, and the general public.
    Recently there has been an increasing interest in using forests as 
a way to remove carbon from the atmosphere and store it over the long-
term as part of a greenhouse gas mitigation strategy. U.S. forests 
currently remove an equivalent of 12% of this nation's carbon dioxide 
emissions; there is excellent potential to increase and maintain this 
carbon ``offset'' as part of a bridging strategy. The following 
testimony reviews, in terms as simple as possible, how the forest 
system stores carbon, the issues that need to be addressed when 
assessing any proposed action, and some common misconceptions that need 
to be avoided. I conclude by reviewing and assessing some of the more 
common proposals as well as my general concerns about the forest system 
as a place to store carbon.
    My key points: 1) Forests are leaky carbon buckets, 2) Forests can 
play an important, but limited roles in sequestering carbon, 3) All 
carbon pools need to be examined when thinking through the merits of 
carbon policy, 4) To increase the sequestration of forest carbon, we 
need to either increase carbon inputs, decrease carbon outputs, or put 
forest carbon somewhere else, 5) Forests are best seen as a bridging 
strategy in carbon mitigation, 6) Seemingly ``good'' forest carbon 
ideas when examined at the stand level at a point in time dissipate 
when looked at the forest level over time, and 7) With accelerating 
climate change, forests may shift from being part of the carbon 
solution to being part of the carbon problem.
The Basic System: Forests as Leaky Carbon Buckets
    Carbon is stored in multiple ways in the forest system: in the 
forest itself and the carbon harvested from the forest. Living plants 
store carbon above- and belowground. The longer lived the plants or 
their parts, the more that they store. This is why forests contain more 
live carbon than grasslands: their parts have longer lives. When plants 
or their parts die they start to decompose, but some carbon can be 
stored as dead biomass. The slower the decomposition rate, the more 
that will be stored. This is why dead wood in a forest can be an 
important carbon store. Decomposition of dead plants eventually leads 
to the formation of soil carbon, which due to its relatively slow 
decomposition rate can accumulate to high levels. So despite a low live 
carbon store, grassland can store a great deal of carbon in the soil 
because it produces many dead roots that end up as soil. Harvest of 
wood and bark can also store carbon, but as with other parts of the 
forest system, it is subject to carbon losses, specifically during 
manufacturing, use, and disposal. In the case of biomass energy, the 
harvested carbon is theoretically stored as unused fossil fuel carbon. 
Given the longevity of carbon dioxide in the atmosphere and the fact 
that this fossil fuel carbon may be eventually burned, ``carbon'' 
biomass energy must delay the use of fossil fuels for many decades to 
be an effective storage mechanism.
    Photosynthesis, respiration, and combustion are the major processes 
that control how much carbon enters and leaves the forest system. These 
processes interact to control the carbon store of forest systems. 
Forests are biological systems and as such are ``leaky'' with regards 
to carbon. That is. there is one way in which carbon comes in 
(photosynthesis) but many ways it goes out (respiration of plants, 
decomposers, and consumers, combustion, leaching, and erosion). A key 
concept to understand is that leaky systems can store carbon, but the 
amount they store is related to the amount that is coming in versus the 
proportion that is leaking out. By analogy a bucket with leaks can 
store water, but to do so it needs a constant input of water. However, 
the larger the leaks the less water that is stored regardless of the 
amount of flow into the bucket. The same can be said of a bank account; 
one can spend money and still accumulate wealth as long as money is put 
into the account. Returning to the forest system, photosynthesis is 
constantly causing carbon to flow into the bucket or account. 
Increasing the input of carbon by increasing the rate of photosynthesis 
will increase the average forest carbon store. Decreasing the 
respiration rate of plants or decomposers or the losses from combustion 
will also increase the average forest carbon store. However, regardless 
of cause these net increases will eventually slow and then cease as the 
forest system comes to a new balance.
    Disturbance, be it natural or human-induced, influences the balance 
of carbon several ways. Some disturbances, such as fire, directly 
release carbon to the atmosphere. All disturbances convert living plant 
biomass into dead biomass, subjecting the forest system to additional 
respiration losses (essentially more leaks). Disturbance temporarily 
reduces photosynthesis; which means that the average carbon input to 
the system is decreased by disturbances because it takes some time to 
restore the photosynthetic capacity of forests. The effect of 
disturbance depends on the frequency and the severity (i.e., amount of 
carbon removed) of the disturbance. The more frequent disturbances 
appear in forest systems, the more that is removed, and hence less 
carbon is stored on average. Decreasing the interval between 
disturbances effectively increases the number of leaks in the bucket. 
The same effect is true for disturbance severity; the more severe the 
disturbance is in directly removing carbon, the less stored on average. 
Increasing disturbance severity effectively increases the size of the 
leaks in the bucket.
The Effects of Natural Disturbances versus Harvest
    Whether trees killed by fire or windstorm are salvaged makes 
relatively little difference in carbon storage. Whenever there is a 
natural disturbance it is often suggested that harvesting dead trees 
will release less carbon than letting them decompose naturally. This is 
based on the assumption that natural processes will rapidly release 
carbon and timber harvesting will not. This assumption is not supported 
by the likely rates of carbon release from these two processes. Setting 
aside the fact that harvest and transport of wood currently requires 
carbon-based energy, there is an inevitable release of carbon during 
the manufacturing and use of forest products. Depending upon the type 
of wood product produced, the amount of carbon released during 
manufacturing is equal to 25-50% of the harvested amount. In many cases 
harvested forests are burned for site preparation, a process that 
removes approximately 5-10% of the forest's carbon. Combined with 
manufacturing losses, this means that timber harvest reduces total 
forest carbon stores by 10-25%. When products are in use, their life-
span has a wide range from less than several decades to centuries. This 
yields a rate of loss of between 1 and 10% per year. While surprising, 
these values are not that different for natural disturbances. Consider 
the amount of loss during a fire, the natural disturbance that removes 
the most carbon. A common assumption is that much of the wood burns in 
a fire, although if that were true there would be no debates about 
salvaging wood. Analysis after fire indicate that, while small material 
can be totally consumed, it is rare that harvest sized wood is 
consumed. Losses from roots and the soil are minimal. Taking all the 
carbon stores of a forest into consideration, the range of carbon 
losses from fire consumption is probably between 5 and 15%, generally 
lower than range for timber harvest and products manufacturing. After 
the fire, the newly killed trees decompose. For the US, the range of 
wood decomposition rates for the size of material harvested is between 
1 and 10% per year. That is very similar to that of forest products! 
Although all these numbers are approximate, they do indicate that 
salvaging fire-killed trees is not substantially better for carbon 
storage than simply allowing the trees to decompose, and in certain 
situations might be considerably less effective in storing carbon.
Things to Consider: Framing the Analysis of Carbon and Forests
    There are a number of general things that should be examined 
whenever an action regarding carbon and forests is considered. 
Unfortunately this has not always been the case.
    1. All the relevant carbon stores need to be examined. Many 
projects are considered from the point of view of just live carbon. 
This may be quite natural to do as we have the most data and 
understanding of live trees. However, it must be realized that other 
important carbon stores in forests do not behave the same as live 
trees. Dead trees, for example, often reach their highest store after 
disturbance, whereas live trees reach their lowest store at that point. 
By only considering live plants it is highly likely that the rate of 
forest carbon uptake is overestimated, in some cases by substantial 
amounts. A related issue is that the changes in all the carbon pools 
need to be considered for a total accounting. For example, harvesting 
wood does increase stores in the wood products pool, but it also 
decreases stores in the live and dead wood pool in the forest.
    2. The starting conditions are key and yet are often ignored. The 
starting and end points need to be specified. Often a proposed action 
gives the end point, but not the starting point. This would be similar 
to describing a trip by only giving the destination. One will have no 
idea of the direction or the distance to be traveled. For example, if 
one is planning on establishing a short-rotation forest plantation on 
agricultural land, then more carbon will be stored. Establishing the 
same type of plantation by converting an old-growth forest will result 
in a net loss of carbon to the atmosphere.
    3. Our actions to increase carbon stores can take decades to have a 
positive effect. Not every action in forests leads to an 
``instantaneous'' response. It takes time to implement policy actions 
because the area involved is quite large. This means that the effect of 
any proposed policy needs to consider the long-term: many decades to 
centuries. Once treated forests take many years to adjust to any action 
that is imposed. For example, it takes years to decades for a planted 
forest to establish full photosynthetic capacity. It also takes years 
to decades for the dead material created by a disturbance caused by 
nature or humans to decompose away. This means that temporal lags can 
be expected in any projected gains. Thus, it may be eventually possible 
to gain carbon by converting an older forest to a younger biomass 
energy plantation, but it may take many decades or even centuries for 
this to occur. This is time we do not have.
    4. Forests are potentially renewable, but this is not a fixed 
property of forests. It is generally assumed that forest related carbon 
in the form of wood and biofuels are renewable. There is logic to this 
in that trees can be harvested and can regrow. Resources that can 
regrow are potentially renewable, but a resource is not renewable 
automatically because it is grows or is a tree. To determine if a 
resource is renewable we need to compare the regeneration and removal 
rate. We also need to understand that removal of trees can and does 
affect carbon pools other than trees and these can decline when trees 
are harvested. Given we are considering the entire forest carbon 
system, this mean that harvesting a renewable resource such as trees 
leads to an non-renewable loss elsewhere in the carbon system.
    5. Forests are systems that have feedbacks which can strongly 
influence carbon effects of actions. For example, increasing the growth 
rate of trees can lead to higher carbon stores in forests, but a larger 
live tree store also means that more plant material will die during the 
course of forest growth or harvest. More dead plant material means more 
losses via decomposition or combustion if there is a fire or harvest. 
This means that the gains from increases in forest growth feedbacks to 
result in decreased net carbon increases in time. As another example, 
it has been stated that forest fire frequency and severity will 
increase in the future. That may be the case, but it also should be 
noted that it is generally difficult to increase the severity and 
frequency of fires for any length of time, in part because more 
frequent fires eventually lower the fuel level, and fuel level is 
related to fire severity.
    6. Estimating carbon effects of policies need to look at whole 
forests over time, not single stands at a point in time. The way a 
forest system behaves depends on how large an area that is considered 
and how long a time period it is considered. Perhaps no other issue, 
termed scale by ecologists, has lead to so much confusion and frankly 
wrong-headed notions in terms of forest carbon management. It is 
perfectly true that young forests of a certain age do remove more 
carbon in a course of a year than an older forest. This would be useful 
information if forests never changed their ages. The high rate of 
uptake of some young forest occurs because even younger forests have 
lost carbon. Since one cannot have a young forest without have an even 
younger forest, comparing the just one year in the life's forest is 
completely misleading. Recall that when forests are disturbed by nature 
or humans the forest initially loses carbon. Over a long time period 
forests gain carbon and eventually lose some of it when disturbed 
again. If the average carbon stores of a young forest is compared to 
that of an older forest, then one finds that the older forest stores a 
good deal more carbon. Therefore one is unlikely to gain carbon from 
the forest site if one converts from an older to a younger forest 
system. When one considers a small plot of land, the carbon balance 
seems to moving from losing to gaining to losing carbon over time. 
However, when one considers many plots of land that are going through 
these cycles at different times, then one sees a relatively steady 
store of carbon. This is analogous to a bank in which one person puts 
in funds and another removes them. As long as there is not a run on the 
bank, the amount of funds is relatively constant (at least that is the 
hope). This is quite relevant in terms of carbon policy, because small 
land owners will see boom and bust cycles in their carbon stores and 
this may make buying their carbon credits very unappealing. If many 
small land owners aggregate their carbon projects, then it is possible 
for the buyer to see a steady store or supply of carbon.
Using Forests to Sequester Carbon from the Atmosphere: increase carbon 
        inputs, decease carbon outputs, or put forest carbon somewhere 
        else
    US forests are currently removing carbon from the atmosphere and 
are likely to remain doing this for some time, perhaps decades. 
Eventually, as in all leaky systems, the rate of carbon removal is 
likely to slow and eventually cease. At this point the forest will be 
in rough balance with the amount coming in about equal to the amount 
going out. This ``saturation'' behavior is one reason forests are 
considered a bridging strategy and not a lasting solution to the 
problem of reducing greenhouse gas emissions.
    To continue and enhance the removal of carbon by forests, it will 
be necessary to take direct actions. Put simply, to remove more carbon 
from the atmosphere with forests it will be necessary to increase the 
average amount of carbon that forests store or increase the efficiency 
or manufacture of wood products and the length of their storage in use. 
As stated above, the average carbon store as well as the carbon balance 
of any forest is controlled by the amount input via photosynthesis 
versus the amount lost via respiration (e.g., plants and other 
organisms such as decomposers) and the amount lost via combustion. Both 
the average carbon store and the carbon balance vary over time, in 
part, because the factors controlling photosynthesis, respiration, and 
combustion vary over time. Therefore it is useful to distinguish 
between short-term and relatively minor variations in forest carbon 
caused by yearly variations in climate versus those caused by changes 
in policy or long-term changes in climate. It is the latter two that 
will change the balance and store of carbon in the long-term.
    Before presenting the range of possible management options it is 
worth reminding ourselves that carbon is not the only reason we manage 
forests. Forests provide humans clean water, habitat for many animals, 
plants, and other organisms, harvested goods of all sorts, recreation, 
and many intangible benefits. Not all these objectives will be 
compatible with maximizing carbon stores in forests. Moreover, there 
are certain management actions such as thinning certain forest types 
(e.g., Ponderosa pine) that may be necessary to maintain these forests 
despite the fact that carbon stores will be decreased. We cannot be so 
single minded about carbon that we create a host of other problems.
    There are many proposed steps and multiple viable strategies and 
that can be taken with regard to increasing forest carbon. Admittedly 
this can be confusing for those looking for a ``one-size fits all'' 
approach. On the other hand it does offer flexibility that will allow 
one to tailor approaches with specific situations on the ground. 
Essentially one can increase carbon stores of by increasing the input 
to the forest, decreasing the output from the forest, putting the 
carbon from the forest somewhere else, or some combination of these. 
The following reviews specific approaches that have been proposed 
recently:
    1. Slowing that rate of deforestation (i.e., the permanent removal 
of forests) will definitely slow the release of carbon to the 
atmosphere. Depending upon the period examined, deforestation is 
estimated to have added 20-30% of the increased carbon dioxide in the 
atmosphere since the dawn of the industrial revolution. While 
deforestation for agricultural purposes is generally low in the US, 
considerable forest land is being converted to housing and industrial 
use, which can have the same effect as deforestation, particularly if 
clearing is extensive.
    2. Planting new forests is generally a good practice to increase 
carbon stores, particularly on lands that once held forest many years 
ago. Much of our nation's current forest-related carbon removal from 
the atmosphere is associated with the reestablishment of forests in the 
eastern U.S. after agricultural abandonment. The best opportunities are 
on marginal agricultural lands as the impact on food production is 
reduced. Planting forests on degraded agricultural land can increase 
the store of carbon both above- and belowground (i.e., soils). Forests 
can also be reestablished on lands with low stocking of trees after 
regeneration failures. Planting trees on what have been traditionally 
grassland systems can lead to reductions in soil carbon stores, in part 
because trees do not produce as many dead roots as grasses. Care needs 
to be taken in assuring that these losses belowground do not exceed 
those gained aboveground.
    3. Biomass energy has the potential to offset fossil fuel use and 
hence reduce carbon release to the atmosphere under certain conditions. 
However, there are several factors that must be considered before this 
potential is realized. Biomass energy is not necessarily renewable; it 
is only renewable when the resource is allowed to fully regenerate. 
Forests, by their very long-term nature, take years to regenerate their 
biomass and one cannot assume that all forest practices lead to a 
renewable resource. When using biomass energy, it must be borne in mind 
that one is substituting energy and not carbon. Because biomass 
contains less energy per unit carbon than fossil fuels, some fossil 
fuels are required to produce the same amount of energy, and so removal 
of one unit of carbon from the forest results in less than one unit of 
fossil carbon from being unused or stored. It therefore may take 
several cycles for carbon benefits to accumulate to the point that they 
offset losses in the forest. This is why the carbon benefits of biomass 
energy can be delayed if natural forests storing a more carbon are 
converted to plantations that store less carbon. This suggests that if 
biomass energy is to be part of a forest strategy, it is best employed 
with afforestation efforts or in forests that are already young. 
Although it is usually assumed that fossil fuel use is decreased when 
biomass energy is used, this is not necessarily true. Given the 
lifespan of carbon in the atmosphere, the delay in fossil fuel use has 
to be substantial to be effective. Simply delaying the use a few years 
does little to reduce the rate of overall carbon emissions. The 
argument that the increase in fossil fuel related carbon would have 
been worse without biomass fuels would have merit if the issue was to 
just slow the increase in these releases. However, the issue that 
confronts us is how to decrease the current release rate of fossil fuel 
carbon.
    4. Converting older forests to younger forests rarely stores more 
carbon. Such action increases the leakiness of the forest bucket 
(recall major losses discussed above in site preparation, manufacturing 
losses, and the increased frequency of disturbance). An exception is 
when a frequent natural disturbance is replaced by a less frequent 
harvest (which by the way rarely happens). Another is when an 
inherently very slowly growing natural forest is replaced by a much 
faster growing plantation. That too is fairly rare. Two of the best 
ways to store more carbon in forests is to extend the interval between 
harvests or take less per harvest. Basically both actions make the 
forest bucket less leaky. Depending on the length of the rotation or 
the amount of harvest, one can either enhance or reduce the store in 
forest products. While longer rotations can lower the average amount 
that is harvested, the material that is harvested tends to be more 
suitable for long-term use and hence may store more as wood products.
    5. It is possible to increase forest system carbon stores by 
increasing the growth rate of trees. Depending on the forest, this can 
be achieved by using superior genetic stock, planting faster growing 
species, fertilization, irrigation, or speeding the rate of tree 
regeneration. In most cases the increases in tree growth do not offset 
the losses from converting older natural forests, and in all cases it 
may take several harvest intervals before gains are fully realized in 
wood products stores. Usually the goal of increasing the growth rate of 
trees is to shorten the interval between harvests. If this practice is 
followed, then the gains of carbon in the forest itself will be 
minimal. On the other hand it may result in increased wood products 
stores, but that depends on the types of products produced. It should 
also be noted that thinning of forests does not increase the rate 
carbon is added to forests. It does allow the remaining trees to grow 
faster and become larger faster, but one must remember that it does 
this for fewer trees. The claim that thinning increases forest 
production is really based on the amount harvested, not the amount of 
carbon entering the forest: these are two completely different things.
    6. Reducing fuels in forests have few benefits from a carbon 
storage standpoint. Recently it has been proposed that reducing fuels 
in forests would reduce fire severity to the point that more carbon 
would be stored in forests than allowing them to burn untreated. This 
practice can have benefits for ecosystem restoration in some forest 
types (for example, Ponderosa pine), but there appear to be few 
benefits from a carbon storage perspective. There are many reasons for 
this result. First, to reduce fuels one needs to reduce carbon stores, 
so there would have to be major changes in fire severity and size to 
offset these losses. Second, the difference in the effects of severity 
on carbon stores is less dramatic than generally imagined. As indicated 
above, a very light fire might results in forest losses on the order of 
5% of total carbon in a forest, whereas for an extremely severe fire 
these losses might be on the order of 15%. Third, one cannot anticipate 
where fires will occur, so a large proportion of the forest area needs 
to be treated. In contrast, a small proportion of the forest area may 
burn in the next few decades, which results in more losses from the 
treatment than the fires (bear in mind the total effect depends on both 
the area involved and the average loss per area). The most likely case 
where removal of fuels will result in a long-term carbon benefit would 
be if, without fuel treatment, the fire severity increases to the point 
that tree regeneration is greatly delayed. However, this regeneration 
delay has to be substantial to have much of an effect.
    7. Forest products do store carbon; whether they actually increase 
the forest system carbon stores is a more complicated issue. Given that 
the basic material of forest products, wood, is approximately 50% 
carbon, harvesting wood and placing it into forest products can 
definitely store carbon. However, this gain is at the expense of 
storing carbon in the forest, and it is completely possible there will 
be no net gain in the total forest system carbon stores. Harvest of 
wood removes carbon from the forest which means the parts of the forest 
that depended on that carbon will decrease in stores. Manufacturing of 
wood into products results in a loss of carbon as does the use and 
disposal of wood products. Overall, the effect of harvesting carbon is 
to make the overall forest system leakier. If wood products are to be 
used to store carbon, then the efficiency of converting wood into long-
lived products needs to be increased, and the life-span of these 
products needs to be lengthened considerably (see above). There have 
been proposals to harvest wood from forests and store it in a location 
where it cannot decompose by burial on land or sinking it into oceans 
or lakes. I suppose this would be the ``ultimate'' wood product in 
terms of carbon storage. Assuring that there is no decomposition may 
prove challenging: wood is decomposed quite quickly in oceans, for 
example, organisms such as shipworms readily eat wood as any naval 
historian can attest. Wood is not the most concentrated form of carbon 
and the sheer volume to be stored would likely dwarf those of current 
landfills and interfere with other land-uses. Also it may not prove 
particularly popular. Finally, the harvest of wood causes other parts 
of the forest to temporally lose carbon which would introduce time lags 
into the gains offered by this scheme.
    8. Substitution of wood for more energy intensive materials has the 
potential to decrease fossil fuel carbon releases, but how much of this 
potential will be realized is difficult to quantify. It has been 
proposed that substitution of wood for more energy intensive materials 
will reduce the rate that fossil fuel carbon is released into the 
atmosphere. While wood is generally less energy intensive than many 
alternative materials, the difference between materials has been 
decreasing and not all the energy for these is supplied via fossil 
fuels. Currently, steel and concrete utilize three times the energy of 
wood. However, most buildings are mixtures of wood and other materials, 
so the energy savings of a building primarily constructed of wood is 
30% relative to those primarily made of other materials. As noted 
above, harvest results in the release of carbon from the forest and 
while not fossil fuel-related, these losses need to be deducted from 
any gains. Many homes and small commercial building already utilize 
wood to a high degree. It is therefore not clear how large the 
substitution effect can become in the US. Finally, although it has been 
stated by some that the substitution related carbon offset never 
decreases and accrues each harvest. However, there are reasons to 
suspect this claim. This would only be true if wooden buildings lasted 
forever or the supply of buildings increased without limit. It is far 
more likely that buildings will have a finite life-span and need to be 
replaced, which also means wooden buildings cannot increase without 
limits. Since that is true, then in time harvests are maintaining the 
store in buildings and there is no net gain in this form of carbon 
offset. So depending on how much carbon is actually offset, this might 
be part of a bridging strategy.
Concerns
    Despite the reality that U.S. forests are currently removing carbon 
from the atmosphere and the great potential for forests to play a role 
in offsetting greenhouse gas emissions, I do have several concerns.
    Liquidation of forest carbon stores can be the potential unintended 
consequence of carbon policy. To have forest play a greater role than 
they do currently, we will have to do something different than business 
as usual. We must assure that additional carbon is stored due to new 
actions, a concept usually called ``additionality.'' Despite the need 
for this concept, it must be acknowledged that it means those with 
practices that have lead to the lowest carbon stores have the most to 
benefit from changing their practices. The role of those that have 
already changed practices or have always managed in a manner to keep 
carbon stores high has to be recognized and encouraged. Little will be 
gained if the only way to have carbon store increases counted is to 
first lower carbon stores. Given the time lags inherent in the forest 
system, this will be totally counterproductive.
    Making sure carbon stores are real: the need for a national 
accounting, verification, and monitoring system. We must make sure that 
any gains in forest carbon stores are real, which means they will have 
to be monitored and verified. This needs to be done at two levels. The 
first would be at the level of specific projects. The second would be 
at a national level, which would involve more than simply adding up all 
the projects, in part because there will be many forest areas without 
carbon projects that need to be considered in the national balance 
sheet. The often stated claim that methods do not exist to monitor 
changes in forest carbon is completely puzzling given that scientists 
developed these methods decades ago. There are many existing methods 
and systems that can be modified to achieve the goal of monitoring and 
verification. They could be substantially improved with further 
investments, but are sufficient to start the process now. National 
guidelines or protocols, similar to those developed by California, 
would greatly aid in assuring monitoring and verification is 
trustworthy. At least at the project level, where the goal is to 
support a carbon credits market, these protocols can be flexible as 
long as there are discounts or deductions for uncertainty about how 
much additional carbon is being stored. That way the project managers 
can decide the tradeoff between the gain in carbon by lowering 
uncertainty versus the cost of a more expensive and comprehensive 
measurement program. It should also be noted that these estimates of 
carbon gains need to be conservative, because failing to count storage 
will do far less environmental harm than over-counting. Another 
possible role for the government would be to support detailed studies 
of proposed projects to fully understand the carbon impacts of the most 
commonly proposed projects. While there is a great deal of scientific 
research in this realm, it has not generally been of an applied a 
nature. It is unlikely that all forest projects will be able to afford 
detailed measurements of all the carbon pools and processes. These 
studies would allow others to more fully anticipate the likely carbon 
gains and costs of proposed projects and in fact streamline the 
verification process because certain practices would have been proven 
to work under certain conditions. Finally, it is important that a 
system be established to rank the quality of the carbon as opposed to 
the quantity of carbon. This might be similar to that used for rating 
bonds; however, as we have all just learned to work this system needs 
to be independent of those buying and selling carbon credits.
    Despite the potential for forests to contribute to the challenge of 
reducing our nation's greenhouse gas emissions, I do believe that the 
forest system's limits have to be fully recognized. Even if we could 
double the current rate that forest's are removing atmospheric carbon, 
it would amount to approximately 20% of the current fossil fuel release 
of carbon dioxide. This is quite important, especially since it can be 
achieved with largely with today's technology. But clearly forests 
cannot be used to solve the entire problem.
    My greatest concern: with continued warming forests can shift from 
being part of the carbon solution to being part of the carbon problem. 
Forests cannot continue to accumulate carbon forever, so it can be part 
of a bridging strategy, but we need to use the time it buys us wisely. 
This brings me to my greatest concern which involves the role forests 
will play if the climate continues to warm as projected under a 
business as usual scenario. If we do not act soon to reduce the rate 
the carbon dioxide and other greenhouse gases are released, we may 
create a climate that will make forests start a net release carbon to 
the atmosphere. This could come about in several ways, but many of the 
effects are likely to be caused indirectly by increased drying of 
forests. This will mean that wildfires become more extensive and more 
severe, that insect outbreaks become more extensive and more severe, 
and that even trees in so-called ``undisturbed'' forests start to die 
at faster rates. If this starts to happen then the leaks from the 
forest carbon system will increase and eventually less will be stored. 
Not all the carbon will be released all at once as is often implied, it 
will happen gradually, but if forests reach this point then they will 
start to contribute to the problem we are trying to solve. Further, it 
may also become part of a vicious cycle in which more tree die which 
releases more carbon which warms the climate even more which causes 
more drying, which causes more trees to die, etc. Forests are not the 
only part of the natural world that may act in this manner; thawing 
currently frozen soils in the north could cause yet another vicious 
carbon release cycle to begin. To assure that this does not happen we 
need to act on a number of fronts and to decrease carbon dioxide and 
other greenhouse gas concentrations in the atmosphere as fast as we 
possibly can.
Summary
    Forests are currently storing considerable carbon in the U.S. and 
are currently offsetting approximately 10% of the nation's carbon 
dioxide emissions. Forest systems can be managed in a wide range of 
manners to sustain and perhaps even increase their ability to remove 
carbon from the atmosphere. Some of the actions being proposed will 
definitely not store more carbon in forests, but there are many that 
will. To assure that forest projects in fact remove atmospheric carbon, 
it is essential that the actions conform to rigorous scientific 
principles, that increases of stores be monitored and verified. Forest 
systems can be a good share of the nation's solution to decreasing the 
accumulation of carbon dioxide in the atmosphere, but they cannot be 
used alone. It is highly likely that unless other steps are taken that 
the positive role that forest could play will become diminished and 
even switch to a negative one. We must also make sure that actions 
taken to increase the role of forest as carbon stores does not create 
other problems in terms of what we expect forests to do for us.
                                 ______
                                 
    Mr. Grijalva. Thank you. Dr. Dominick DellaSala, Chief 
Scientist and Executive Director of Programs, National Center 
for Conservation Science and Policy. Welcome, and your 
testimony, please.

STATEMENT OF DOMINICK A. DELLASALA, Ph.D., CHIEF SCIENTIST AND 
      EXECUTIVE DIRECTOR OF PROGRAMS, NATIONAL CENTER FOR 
        CONSERVATION SCIENCE AND POLICY, ASHLAND, OREGON

    Mr. Dellasala. Thank you, Mr. Chairman and Members of the 
Subcommittee. My name is Dominick DellaSala, and I am the chief 
scientist for the National Center for Conservation Science and 
Policy in Ashland, Oregon, and I am also the incoming President 
of the Society for Conservation Biology, North American 
Section. SCB has a global membership of over 11,000 scientists 
and resource managers, two-thirds of whom reside in the United 
States.
    Throughout my testimony, I emphasize that the longer we 
delay action on climate change, and the more we release 
dangerous greenhouse gases, or GHGs, into the atmosphere, the 
worse the situation will become for Americans and the rest of 
the world.
    The rapid climate change we are experiencing is the result 
of three factors: one, human-caused releases of several gases 
that contribute to the warming of the earth; two, the loss and 
degradation of forests and pollution-related changes to the 
oceans; and, three, changes in ice, precipitation, water 
temperature, wind, and currents caused by climate change that 
themselves speed up the climate change process, which is called 
``feedback loops.''
    Major shifts in these changes can be tipping points that 
cause chain reactions in global weather patterns and other 
climate change events. So, as a safety net for humanity, some 
of our most able scientists have called for a target of the 
equivalent of 350 parts per million of GHGs in the atmosphere 
as a midterm safe limit. We are at, currently, 387 parts per 
million of CO<INF>2</INF> and climbing at a rate of two parts 
per million per year.
    The further away from the 350-parts-per-million limit we 
get, the more likely it is that climate change will trigger 
truly catastrophic events.
    Depending on how you measure them, Federal public lands 
cover about 30 percent of our nation's land base. They are 
strongholds for essential and irreplaceable benefits, such as 
biodiversity, clean water, flood control, and carbon 
sequestration. These benefits are severely threatened by 
climate change and certain management activities, but these 
lands also hold part of the climate change solution as well.
    Now, I would like to emphasize three main points from my 
testimony, which also includes 14 closing recommendations and 
three supporting documents.
    First, the Nation needs a comprehensive, national goal with 
early and aggressive measures to reduce GHGs and particulate 
emissions to reach a 350-parts-per-million equivalent target.
    There are two measures that Congress can require Federal 
agencies to contribute to that goal.
    First, this Committee should direct the Secretaries of 
Interior and Agriculture to report back on what authorities 
they already have under existing laws to reduce net GHGs and 
how they initially plan to use them.
    Second, Congress and/or the Administration should convene a 
committee of scientists to determine how best to retrofit 
existing regulations and statutes to address cumulative causes 
and impacts of climate change arising from GHGs and land use.
    As an example, Congress can direct Federal agencies to 
measure the likely impact of GHGs from actions on public lands 
and compare alternatives as they comply with NEPA. Alternatives 
can be selected to optimize carbon sequestration and/or reduce 
emissions. This is especially important in evaluating 
cumulative effects from energy resources, livestock raising, 
and logging on public lands in a climate change context.
    Second, the primary goal of public lands should be the 
protection of ecosystem services, biodiversity, and 
optimization of carbon storage. Federal agencies should be 
guided by the same consistent mission in this regard and 
provide the core for a network of public and private lands 
managed for ecosystem services.
    To illustrate how far away from this vision we are, if you 
look at the recent decision by the Bush Administration to 
rescind the NFMA wildlife viability regulations and the fact 
that BLM does not even have a requirement to protect viable 
populations of wildlife--also, in my region, in Western Oregon, 
the BLM Western Oregon Plan Revisions, or so-called ``WOPR,'' 
would increase old-growth logging by 400 percent, releasing the 
CO<INF>2</INF> equivalent of driving one million cars for 132 
years while further stressing our ecosystems.
    Now, to help public lands adapt to, and mitigate against, 
climate change, Congress should direct the agencies to retain 
existing stores of carbon in mature and old forests as the 
nation's carbon trust; reduce existing ecosystem stresses from 
land management, and maintain viable populations.
    My third, and final, point is that Congress should set more 
conservative limits on both BLM and Forest Service energy 
development. The BLM recently has indicated it will allow 
additional oil and gas development across vast areas on top of 
extensive areas already leased. Congress should call for a full 
accounting of emissions and ecosystem degradation of already 
developed leases to better understand and mitigate these 
impacts.
    Now, in light of the likely impacts of additional drilling, 
let us not make matters worse. Congress should, therefore, 
impose a moratorium on further lease development and require 
revocation of any leases that are incompatible with climate and 
biological security.
    In closing, Mr. Chairman, as you and the Subcommittee 
contemplate legislation for public lands to adapt and mitigate 
to climate change, we urge that public lands be managed for 
their irreplaceable contribution to biodiversity and ecosystem 
services by developing a national, comprehensive plan to bring 
down and keep GHG emissions at safe levels; reduce our 
dependency on fossil fuels, while developing renewable energy 
sources, and ensure the continuation of a biologically diverse 
and robust system of national forests and BLM lands. Thank you, 
and I look forward to questions later.
    [The prepared statement of Mr. DellaSala follows:]

 Statement of Dominick A. DellaSala, Ph.D., Chief Scientist, National 
Center for Conservation Science & Policy, and President Elect, Society 
            for Conservation Biology, North America Section

    Chairman Grijalva and members of the Subcommittee, my name is 
Dominick DellaSala. I am the Chief Scientist at the National Center for 
Conservation Science & Policy in Ashland, Oregon (www.nccsp.org) and 
President Elect of the Society for Conservation Biology (SCB, 
www.conbio.org), North America Section. SCB has a global membership of 
over 11,000 scientists and resource managers; two-thirds of whom reside 
in the U.S.
    Work by SCB scientists and my organization clearly demonstrate that 
the accumulation of heat-trapping greenhouse gases (GHGs) in the global 
atmosphere creates and exacerbates risks to biological diversity and 
ecosystem services (Conservation Biology 2008, Exhibit A). This 
dangerous interference with the Earth's climatic system imposes 
unmitigated and unacceptable costs on present and future generations. 
Thus, Congress and the Obama Administration should give this issue top 
priority not only for the environment but with regard to its 
implications for national and economic security (Pumphery 2008), human 
health, and quality-of-life.
    Federal lands are key to mitigating climate change effects as well 
as providing the nation with irreplaceable biological diversity, clean 
water, fish and wildlife habitat, recreation, and other economic 
values. Federal lands often contain large blocks of intact and 
functional ecosystems with viable fish and wildlife populations most 
capable of adapting to rapid climate change in the coming decades. 
Therefore, in an era of increasing climate disruptions, federal lands 
are our best hope for conserving the ecosystem services upon which 
society depends. Managing for the restoration and conservation of those 
ecological systems must become the clear and primary goal of federal 
agencies. To ensure this goal is met, both the Forest Service and 
Bureau of Land Management (BLM) must have the same mission so there is 
continuity of management across all 457 million acres of publicly owned 
lands.
    In my testimony, I offer four main points and fourteen closing 
recommendations on what Congress and the Obama Administration can do to 
combat climate change on federal lands. While the focus of today's 
hearing is on federal lands, federal lands should not be used as an 
offset for unsustainable practices on nonfederal lands. We also need to 
take steps to reduce the impacts that activities on nonfederal lands 
have on ecosystems and greenhouse gas (GHGs) emissions.
MAIN POINTS
    (1) The nation needs a goal with early and aggressive efforts to 
reduce GHG and related particulate emissions to reach an atmospheric 
concentration of 350 parts per million (ppm) CO<INF>2</INF> equivalent 
target and a national implementation plan that addresses all major 
sources of such emissions by requiring contributions from every federal 
agency.
    (2) Congress should provide clear direction to the Forest Service 
and the BLM to adopt new approaches that optimize carbon capture and 
storage and minimize GHG emissions from land management activities, 
including energy extraction, on public lands.
    (3) Federal agencies should adapt natural resource management to 
the changes brought on by climate change by adopting a 3-Rs approach--
Reduce existing stressors to ecosystems and increase Resilience and 
Resistance of species and ecosystems to climate change.
    (4) Federal agencies need clear direction to prioritize the 
preservation and restoration of ecological integrity of public lands so 
that these lands will continue to provide Americans with biological 
diversity and other sustainable ecosystem services such as abundant 
clean water, carbon sequestration and storage, air filtration, flood 
control, and recreation.
    Each of these main points implies fundamental shifts in how the 
agencies are currently doing business. If we do not take these steps, 
the forests, rivers, and coastal zones we Americans cherish will 
experience unprecedented losses of biological diversity, ecosystem 
services and productivity, and recreational values.
I.  The nation needs a goal with early and aggressive efforts to reduce 
        GHG and related particulate emissions to reach an atmospheric 
        concentration of 350 (ppm) CO<INF>2</INF> equivalent target and 
        a national implementation plan that addresses all major sources 
        of such emissions by requiring contributions from every federal 
        agency.
    Just months after the release of the IPCC report of 2007, this 
Committee heard from Tony Westerling that climate change appeared to be 
making western fires more severe than most had expected (Westerling et 
al. 2006). Geophysicists, climatologists, and other experts, including 
NASA's James Hansen and others (Hansen et al. 2008) announced findings 
that the pace of climate change and its impacts had accelerated faster 
than projected by the IPCC, recommending C02 levels in the atmosphere 
be reduced from the current 387 to 350 ppm through reduced GHG and soot 
emissions, reforestation, and agricultural reforms. To reiterate, ``if 
the present offshoot of this target is not brief, there is the 
possibility of irreversible catastrophic effects'' (Hansen et al. 
2008).
    Without a national goal for reducing GHG emissions and an 
accompanying implementation plan, our nation will find it most 
difficult to successfully address the threat of climate change. It is 
not sufficient to simply urge or require federal agencies to act. We 
must give them a clear direction for action--a goal, a process, target, 
and a plan. A national implementation plan would provide benchmarks 
against which land use plans and federal actions can be evaluated in 
addition to those in existing law. For example, drilling to extract 
natural gas increases GHG emissions but may produce lower emissions 
compared to other energy sources if it is part of a comprehensive 
national plan that selects alternatives with low emissions (Exhibit B) 
or combinations of demand and supply measures that result in the lowest 
practicable emissions and least ecologically disruptive impacts. In the 
absence of such a plan, it is more difficult to fully evaluate GHG 
emissions of federal actions and to require appropriate choices. Thus, 
Congress should redirect the Forest Service and the BLM to adopt and 
then coordinate and implement a comprehensive plan along with the 
traditional implementation planning already part of all federal actions 
and land-use planning.
    We need a national strategy for federal lands that is science-
driven, adaptive in its approach, and comprehensive in jointly 
addressing mitigation (i.e., reducing GHG emissions and increasing 
sequestration) and preparation (i.e., reducing the vulnerability of 
people and ecosystems to the impacts of climate change) alongside 
ecosystem services and biodiversity goals. As a first step, this 
Committee could request that the Secretaries of Interior and 
Agriculture report back on what authorities they already have under 
existing laws and regulations to respond to climate change and how they 
plan to use them. In most cases, agencies do not need new authorities 
to take action. However, they may need congressional oversight to 
ensure they explicitly consider the extent to which their actions drive 
climate change and the consequences of climate change for the cost and 
efficacy of their plans and projects. This is a matter of good 
governance and fulfilling existing mandates and authorities that set 
performance goals for agencies, including but not limited to the 
National Environmental Policy Act (NEPA), Clean Water Act, Endangered 
Species Act, Federal Land Policy and Management Act (FLPMA), and Clean 
Air Act. Agencies must ensure that their plans and programs will be 
successful under currently foreseeable climatic conditions (i.e., 
conditions that are more likely to be fundamentally different from the 
last century).
    Further, to examine the efficacy of current regulations and laws, 
Congress should convene a Committee of Scientists to build on prior 
efforts used to examine promulgating regulations on national forests 
(COS 1999). A science committee should be tasked with determining how 
best to comply with existing regulations and statutes such as NEPA, the 
National Forest Management Act (NFMA), and the FLPMA in the context of 
cumulative impacts from climate change and land use.
II.  Congress should provide clear direction to the Forest Service and 
        the BLM to adopt new approaches that optimize carbon capture 
        and storage and minimize GHG emissions from land management 
        activities, including energy extraction, on public lands.
    The current concentration and rate of increase of carbon dioxide 
(CO<INF>2</INF>) in the atmosphere exceed those of the last 420,000 
years (IPCC 2007). This along with emissions of several other powerful 
GHGs has resulted in a global average temperature increase of 0.7' C 
(1.3' F) over the last century. During the past several decades, we 
have recorded increases not only in temperature but in the number and 
magnitude of extreme storms, floods, and regional droughts (IPCC 2007). 
Such effects already are being felt throughout the nation (e.g., 
Exhibit A), yet they are expected to quickly become more severe in the 
coming decades depending on ongoing GHG emissions and land-use 
practices. What we do next in response to this pending crisis will 
determine whether climate change impacts are merely severe or truly 
catastrophic.
    In particular, forests both are affected by climate change and can 
be an integral part of the solution. Very simply, forests absorb 
CO<INF>2</INF> from the atmosphere and store the carbon from it in 
cellulose (wood) and soil. In this process, they convert CO<INF>2</INF> 
into oxygen that makes life possible. When forests are logged, they 
release the majority of this stored carbon, which then contributes to 
the greenhouse effect.
    Our nation's forests absorb the equivalent of about 10% of our 
carbon emissions from fossil fuels (Smith and Heath 2007, Depro 2007). 
Many studies have shown that old-growth forests accumulate carbon for 
centuries and that these forests are not neutral holders of carbon but 
continue to sequester large amounts of it even as they age from 300 to 
800 years (Luyssaert et al. 2008). Studies also have shown that when 
old trees are cut down and replaced by younger ones there is a net 
reduction in carbon stores (Law et al. 2004, Depro et al. 2007). Much 
of this stored carbon is released to the atmosphere through loss of 
carbon in soils, decomposition and burning of slash left on site by 
loggers, and shipping and processing of wood products (Harmon et al. 
1990, 2001). The relatively short shelf life of most wood products 
exacerbates these losses. The losses are neither trivial nor 
compensated by fast growing, young trees; it could take hundreds of 
years until the new forests store as much carbon as did the original 
old forest (Harmon 2001). Losses of stored carbon are particularly 
severe on industrial forest lands where timber harvest rotations are 
much shorter (40-100 years) than it takes for carbon stored in the 
original old forest to be replenished (Harmon 2001, Luyssaert et al. 
2008).
    One analysis found that a hypothetical ``no timber harvest'' 
scenario on public lands would result in an annual increase of 17-29 
million metric tonnes (MMTC) of carbon captured or sequestered per year 
between 2010 and 2050--as much as a 43% increase over current 
sequestration levels on public lands (Depro et al. 2007). In contrast, 
moving to a more intense harvesting policy (similar to those of the 
1980s) would result in annual carbon releases per year of 27-35 MMTC 
between 2010 and 2050 that otherwise would have been sequestered by no 
harvest (Depro et al. 2007). These losses would represent a substantial 
decline (50-80%) in anticipated carbon sequestration associated with 
existing timber harvest policies.
    In Oregon, coastal old-growth forests store more carbon per acre 
than any other forest on Earth (Smithwick et al. 2002) and they are 
rich in unique fish and wildlife species. However, the BLM has 
finalized plans to increase logging of old forests in western Oregon 
(Western Oregon Plan Revisions, WOPR) by more than 400% in the coming 
decade, largely through clearcutting. According to BLM's own analysis, 
in comparison to letting these old forests grow, logging would release 
approximately 180 million tons of carbon that is currently stored in 
these forests. This is equivalent to driving 1 million cars for a 
period of 132 years. The WOPR, in particular, is tantamount to 
liquidating one of our nation's most significant carbon stores while 
putting the viability of several endangered species at risk and 
compromising ecosystem services like clean water and air. New statutory 
direction is needed for BLM to optimize carbon storage and fish and 
wildlife habitat.
    In general, changing forestry and other land management practices 
on federal land represents one of the most powerful, and, quite 
frankly, least costly tools that the nation has in fighting climate 
change. Increasing carbon storage on and decreasing GHG emissions from 
federal lands is feasible across extensive areas and can be effectively 
implemented. To combat climate change on public lands, a fundamental 
shift from current forestry practices is needed that: (1) retains 
existing stores of carbon in mature and old forests as ``carbon banks'' 
and (2) allows or helps plantations and other intensively managed 
public forests optimize carbon stores by regrowing to older conditions 
(Harmon 2001). The Committee also should direct federal agency 
divisions that influence state, private, and international forestry and 
agriculture to present cooperative and incentive-based plans to address 
climate change as federal lands should not be used as an offset for 
unsustainable practices elsewhere.
III.  Federal agencies should adapt natural resource management to the 
        changes brought on by climate change by adopting a 3-Rs 
        approach--Reduce existing stressors to ecosystems and increase 
        Resilience and Resistance of species and ecosystems to climate 
        change.
    Reducing ecosystem stressors is the single most important change in 
management direction to prepare forest ecosystems for the unavoidable 
impacts of climate change (SCB 2008). Forests, grasslands, watersheds 
and other ecosystems are under increased pressure from all the needs 
and demands we place on them. When ecosystems are stressed, they are 
less capable of adapting. Stressors of ecosystems include fragmentation 
by roads and logging, spread of non-native invasive species by 
management activities (e.g., roads and livestock grazing facilitate 
expansion of certain weeds), unusually severe fires, high water loss 
(through evapotranspiration) from overstocked stands (Moore et al. 
2004) and water loss from stream diversions, and fossil fuel 
development. Domestic livestock and its associated commodity 
distribution chain contribute about 18% of GHG emissions (largely 
methane) globally (FAO 2006) and 8% nationally (EPA 2008). Notably, 
methane traps 20 times more heat than CO<INF>2</INF> (EPA 2008). A 
particularly effective way to reduce livestock grazing contributions to 
increased GHGs as well as minimize detrimental effects on biological 
diversity and watershed function is to provide for the voluntary 
retirement of federal grazing permits. An example of this is proposed 
in legislation before the House pertaining to the Cascade-Siskiyou 
National Monument and establishment of the Owyhee Wilderness (S.22).
    In contrast to degraded lands, roadless areas, mature and old-
growth forests, native prairie, and protected riparian areas, have many 
built-in mechanisms to allow them to withstand (Resistance) and rebound 
from (Resilience) natural disturbances. Such areas also will be more 
likely to resist or be resilient to climate change (Paine et al. 1998). 
Congress could do two things to guide agencies in this regard: (1) 
direct federal agencies to protect roadless areas and watersheds with 
low road densities; and (2) provide direction on restoration projects 
aimed at building resistance and resilience through decommissioning of 
failing roads, thinning of young trees in previously managed and 
overstocked forests, and restoring stream morphology and function in 
watersheds heavily degraded by logging, livestock grazing, and other 
land uses.
    I would like to flag two issues: (1) the importance of roadless 
areas in climate change preparation, and (2) the limitations and 
benefits of thinning. Numerous studies demonstrate the importance of 
roadless areas to biological diversity (Strittholt and DellaSala 2001), 
drinking water (USFS 2000), and rural economies (USFS 2000). Roadless 
areas will become increasingly vital particularly in dry regions that 
depend on montane snow pack and as a connected landscape best capable 
of enabling fish and wildlife to migrate as the climate shifts.
    As to thinning, millions of acres of old forests in the Pacific 
Northwest have been replaced with plantations that provide poor quality 
wildlife habitat (west of the Cascade Range, USGS 2002) or are now fire 
hazards (dry provinces, Odion et al. 2004). Treating these dense 
monocultures through variable-density thinning (with stops and gaps in 
thinning of trees to create structural diversity) is likely to help 
facilitate onset of older forest characteristics (USGS 2002), 
particularly if there is no net increase in the density of roads and 
soil damage is minimized. Thinning of small trees may reduce drought 
stress and fuel loads in dry forests (Brown et al. 2004), and lower 
fire risks where the number or severity of fires is expected to 
increase due to climate change (Westerling et al. 2006). However, there 
are tradeoffs. Fuel reduction methods typically release stored carbon 
from decomposition of slash left on site, burning of slash piles, 
transport and processing of biomass, and short shelf life of most wood 
products (Harmon 2001). The carbon released typically exceeds that of 
even the most severe fires as fires are relatively localized events 
compared to the extensive thinning efforts required to influence fire 
hazard. Thus, more carbon is removed by landscape-scale thinning than 
released by fires (Mitchell et al. in press). Also, most of the carbon 
in a burned forests remains on site, is stored for long periods as 
charcoal deposits, and only slowly decomposes over decades.
    That is not to say we should not thin forests as part of 
restoration planning, but that we should not expect thinning to 
increase forest carbon stores. Interest of federal agencies in thinning 
forests is increasing, but thinning of forests should target areas 
where it is most needed (e.g., wildland-urban interface and overly 
dense young stands), while reducing ecosystem stressors by protecting 
large trees, soils, and riparian areas and by restoring stream 
hydrology that has been altered by high road densities. Agencies should 
use the best science in determining where to apply thinning to any 
given location such that this action does not undermine either climate 
security or ecosystem health and that its application will comply with 
applicable laws.
IV.  Federal agencies need clear direction to prioritize the 
        preservation and restoration of ecological integrity of public 
        lands so that these lands will continue to provide Americans 
        with biological diversity and other sustainable ecosystem 
        services such as abundant clean water, carbon sequestration and 
        storage, air filtration, flood control, and recreation.
    We are grateful for Chairman Grijalva's leadership in protecting 
large blocks of intact BLM lands through the National Landscape 
Conservation System. Intact ecosystems provide myriad ecosystem 
services, including flood control, water storage, carbon sequestration, 
and nutrient cycling (http://www.millenniumassessment.org/en/
synthesis.aspx). The more ecosystems are stressed by climate change and 
land management activities, the more these services will be 
compromised. In Oregon, my organization together with the University of 
Oregon Climate Leadership Initiative is in the process of completing 
pilot projects in four river basins--Klamath, Rogue, Umatilla, and 
Upper Willamette (Exhibit A). In each of these basins, we are applying 
climate change models (IPCC 2007) and cutting edge, vegetation-climate 
projection models developed by the USFS Pacific Northwest Research 
Station MAPPS Team. Our approach may serve as a model for federal lands 
planning. The results of these studies indicate that striking changes 
to forests and rivers could occur in less than three decades. 
Anticipated changes include drought stress, snowpack declines of 90-95% 
(by 2100), greater rain-on-snow events leading to spring flooding, 
rapid snow melt leading to earlier onset of summertime low stream flows 
and warmer water, and shifts in the vegetation composition. An increase 
in the amount of vegetation consumed by wildfire also is probable. Such 
changes also could trigger the demise of threatened cold-water fish 
populations causing a cascade of negative ecosystem effects.
    National Forests and BLM lands, in general, play an integral role 
in maintaining ecosystem services whether in Oregon or throughout the 
nation. In particular, federal agencies have numerous regulations and 
laws that govern the use of ecosystem services, most notably multiple 
use and sustained yield principles. However, in practice ecosystem 
services are often pitted against one another (e.g., water and carbon 
storage vs. timber production). For instance, intact watersheds, mature 
and old-growth forests, and roadless areas act as biological 
reservoirs, gradually storing water and slowly releasing it over dry 
summer months (Moore et al. 2004). High levels of logging and road 
building in a watershed can lead to rapid runoff, diminished 
hydrological functions, and losses of water storage capacity that will 
only exacerbate water shortages particularly in regions dependent on 
snow pack. As snowpack is expected to decline markedly in the coming 
decades (Mote et al. 2005), protecting and restoring intact areas 
should be a priority of federal land use planning as such lands are 
critical to mitigating water losses and maintaining the full range of 
ecosystem services.
    Landscape connectivity is another critical issue that must be 
actively addressed to help fish and wildlife adapt to the many effects 
of climate change. The Forest Service and BLM need direction to 
undertake an aggressive program of road decommissioning to reduce the 
number of roads that have a high likelihood of failure, especially 
given anticipated increases in the number and magnitude of storms. Not 
only will failed roads pose a risk to human safety and reduce the 
quantity and quality of water, but taxpayers will pay far more to 
repair damages than to prevent damages. We urge the agencies to spend 
at least 60% of new stimulus funds on road decommissioning.
    Failure to take action on climate change can have significant 
economic impacts (see Exhibit A). For instance, according to recent 
economic studies conducted in western states, if GHG emissions are not 
reduced, states like Oregon will face some $3.3 billion in annual costs 
in the coming decades due to climate change impacts (http://
uonews.uoregon.edu/files/pmr/uploads/OR-Fnl--Rpt.pdf). This loss 
represents an individual cost of about 4 percent of annual household 
income by 2020. Total annual costs would more than triple by 2080 if 
insufficient action is taken to reduce emissions. Researchers projected 
an increase in the number and severity of seasonal droughts and floods, 
higher air-conditioning costs to cope with higher temperatures, higher 
incidence of climate-associated health problems and deaths, and more 
wildfires. Similar losses are anticipated for New Mexico (http://
uonews.uoregon.edu/files/pmr/uploads/NM-Fnl--Rpt.pdf) and Washington 
(http://uonews.uoregon.edu/files/pmr/uploads/WA-Fnl--Rpt.pdf). Federal 
lands can help mitigate these losses if these lands are managed with 
sequestration, biodiversity, and ecosystem services (especially water) 
as a priority.
CLOSING RECOMMENDATIONS
    Climate change represents the most serious threat to our natural 
resources and is a growing threat to the nation's security and economy. 
To implement the four main actions, I have provided fourteen supporting 
recommendations that should be considered in new legislation or 
administrative policies (as amended from SCB 2008):
GHG Emissions On Federal Lands:
    (1) Require full assessment, disclosure, and mitigation of the 
contributions of federal actions to the drivers of climate change (GHG 
emissions) and full consideration of how climate change will impact the 
cost and efficacy of planned management actions--this should be 
required of all federal actions and should include comprehensive cost-
benefit and GHG emission analyses of developing domestic energy sources 
on public lands so that the impacts of additional emissions are fully 
mitigated in NEPA. As an example, Congress can direct federal agencies 
to treat CO<INF>2</INF> and methane as a metric in NEPA.
    (2) Provide clear guidance to BLM and Forest Service on fossil fuel 
leasing, including a moratorium on new leases pending full mitigation 
of GHG emissions and watershed impacts--leases for oil and gas 
development, in particular on BLM lands, have been handed out in record 
numbers in the last few years with little concern for environmental or 
atmospheric impacts (Exhibit C). Even though oil and gas development on 
federal lands has been rampant, most of these leases have not yet been 
developed. Their future development will hamper any attempts to meet 
the 350 ppm safety net, in addition to decreasing the resilience of 
fish and wildlife populations and ecosystem services to climate change. 
Once new oil and gas wells and their associated pads and roads are 
developed, their emissions and habitat impacts will continue for 
decades to centuries. As the agency is indicating it will allow 
additional oil and gas leasing across large areas (http://www.blm.gov/
pgdata/etc/medialib/blm/nm/programs/0/og_sale_notices_and/
2008.Par.48580.File.dat/April162008_SaleNotice.pdf), on top of the 
extensive areas already leased, a full accounting of emissions and 
ecosystem degradation from already developed leases will allow agencies 
to implement mitigation and sequestration strategies. For undeveloped 
leases, Congress should require revocation of leases as developing 
these leases would increase GHG emissions.
    (3) The Forest Service should be given control to subsurface 
mineral development on the national forest system--the Forest Service 
has yet to develop land-use plans for dealing with subsurface mining. 
While there is growing interest in developing domestic energy sources, 
the more we depend on fossil fuels, the more we will exceed the 
recommended 350 ppm safety net and create even greater risks to the 
nation. Federal agencies should shift production increasingly toward 
renewable energy sources. Areas already developed and degraded for oil 
and gas could make ideal sites for solar, wind, or other renewable 
energy projects.
    (4) Require agencies to analyze both costs and benefits, including 
GHG emissions, of all types of energy, biofuels, agriculture and 
forestry--guidance is needed for agencies to assess a full range of 
alternatives before approving any federal action that would lead to a 
net increase in GHG emissions and that all net increases in GHG 
emissions should be offset elsewhere by increases in sequestration.
Biodiversity and Ecosystem Services:
    (5) Prioritize preservation and restoration of biological diversity 
and other ecosystem services--on federal lands, priority ecosystem 
services largely include capture and storage of carbon, clean water, 
flood and drought abatement, biodiversity, and nutrient cycling. High 
priority actions include protecting roadless areas and undeveloped 
watersheds and reducing existing stressors by restoring degraded lands.
    (6) Require that agencies conduct assessments of ecosystem services 
and biodiversity potential of all ecosystems in the context of climate 
change--this is essential in order to manage ecosystems for resistance 
and resilience to climate change.
    (7) Require the Secretaries of Interior and Agriculture to develop 
a connected system of lands and waters as a climate change refuge--this 
system should be managed primarily for conservation of biological 
diversity, ecosystem services, and carbon sequestration while allowing 
for dispersal of native species. Protected areas are essential for 
maintaining viable fish and wildlife populations and high levels of 
genetic and species diversity, which would then be available to 
recolonize areas degraded by poor management or climate change. 
Roadless areas, riparian areas, old forests, and intact ecosystems are 
keys to this system.
    (8) Institute a regulatory requirement to conduct analyses of 
landscape connectivity when large-scale energy developments, 
particularly placement of energy corridors, are proposed for public 
lands--this is needed to minimize fragmentation of fish and wildlife 
habitat.
Existing Laws and Regulations:
    (9) Congress should work with the Obama Administration to override 
the Bush Administration's 2008 regulations regarding NFMA and reinstate 
the 1982 regulations pursuant to further review by a Committee of 
Scientists appointed by Congress or the Administration--the regulations 
should be rendered compliant with climate change response, fish and 
wildlife viability, and findings of previous science committees (COS 
1999).
    (10) Revaluate and amend BLM's sustained yield and the Forest 
Service's multiple use mandates to be consistent with preserving 
biological diversity and ecosystem services in response to climate 
change--land-use planning should explicitly be designed to achieve 
management goals under plausible future conditions with a clear 
objective of reducing existing stressors.
    (11) Require federal agencies to modify all land-use plans to be 
compliant with NEPA and other environmental statutes in the context of 
climate change--this includes assessing cumulative effects of land-use 
practices (existing stressors) and climate change within the context of 
both mitigation and preparation.
Adaptive Management, Dedicated Funding, and Multi-jurisdictional 
        Coordination:
    (12) As part of adaptive management, apply climate change and land-
use models to address potential impacts of climate change and existing 
stressors--this includes modeling effects on vegetation, hydrology, 
snow pack, fish and wildlife, fire, and forest productivity with a 
temporal extent of decades to a century (e.g., Exhibit A).
    (13) Direct federal agencies to cooperate and coordinate federal 
management plans across jurisdictions and provide incentives for 
technology transfer and climate preparation and sequestration on 
nonfederal lands--significant outreach to private landowners, including 
timber companies and ranchers, will be needed to implement the 3-R's 
strategy and the 350 ppm GHG target across broader planning scales.
    (14) Provide dedicated funding to develop and implement climate 
change strategies on federal lands--this includes increasing the number 
of scientists on the staff of agencies and supporting a National 
Science Center for Wildlife Adaptation (e.g., one such funding system 
was proposed in the previous Congress in S.2191, ``America's Climate 
Security Act'').
    Congressman Grijalva as you and the Subcommittee contemplate 
legislation for public lands, we urge that public lands be managed for 
their irreplaceable contribution to biodiversity and ecosystem services 
by developing a national comprehensive plan to bring down and keep GHG 
emissions at safe levels, reduce our dependency on fossil fuels while 
developing renewable energy sources, and ensure the continuation of a 
biologically diverse and robust system of public lands. Thank you Mr. 
Chairman. That concludes my testimony.
Literature Cited
Brown, R.T., J.K. Agee, and J.F. Franklin. 2004. Forest restoration and 
        fire: principles in the context of place. Conservation Biology 
        18:903-912.
Committee of Scientists (COS). 1999. Sustaining the people's lands: 
        recommendations for stewardship of the national forests and 
        grasslands into the next century. USDA Washington, D.C. http://
        www.fs.fed.us/news/news_archived/science/cosfrnt.pdf.
Conservation Biology. 2008. Special Section: a synthesis of climate-
        change effects on aquatic invasive species. Conservation 
        Biology 22:518-623.
Depro, B., B.C. Murray, R.J. Alig, and A. Shanks. 2007. Public land, 
        timber harvest, and climate mitigation: quantifying carbon 
        sequestration potential on U.S. public timberlands. Forest 
        Ecol. and Management 255:1122-1134.
Environmental Protection Action (EPA). 2008. Inventory of U.S. 
        greenhouse gas emissions 1990-2006.
FAO, 2006. Livestock's long shadow. Environmental issues and options. 
        FAO of the United Nations. Rome, 2006. (http://www.fao.org/
        docrep/010/a0701e/a0701e00.htm).
Grant, G. 2007. Running dry: where will the west get its water? USDA 
        Forest Service Pacific Northwest Research Station. Science 
        Findings Issue 97 October 2007.
Hansen, J., M. Sato, P. Kharecha, D. Beerling, V. Masson-Delmotte, et 
        al., 2008. Target atmospheric CO<INF>2</INF>: where should 
        humanity aim? Published initially in a web-based format by 
        email to Hansen's list serve. March 31, 2008.
Harmon, M.E., W.K. Ferrell, and J.F. Franklin. 1990. Effects on carbon 
        storage of conversion of old-growth forests to young forests. 
        Science 247:699-702.
Harmon, M.E. 2001. Carbon sequestration in forests: addressing the 
        scale question. J. of Forestry 99:24-29.
Intergovernmental Panel on Climate Change (IPCC). 2007. Climate change 
        2007 Synthesis Report. Contribution of Working Groups I, II and 
        III to the Fourth Assessment Report of the Intergovernmental 
        Panel on Climate Change. Geneva, Switzerland.
Law, B.E., Turner, D., et al 2004. Disturbance and climate effects on 
        carbon stocks and fluxes across Western Oregon USA. Global 
        Change Biology 10:1429-1444.
Luyssaert, S., E. Detlef Schulz, A. Borner, A. Kohl, D. Hessenmoller, 
        B.E. Law, et al. 2008. Old-growth forests as global carbon 
        sinks. Nature 455:213-215.
Mitchell, S., M.E. Harmon, and B. O'Connell. Forest fuel reduction 
        alters fire severity and long-term carbon storage in three 
        Pacific Northwest ecosystems. In press. Ecological 
        Applications.
Moore, G.W., B.J. Bond, J.A. Jones, N. Phillips, and F.C. Meinzer. 
        2004. Structural and compositional controls in 40- and 450-
        year-old riparian forests in western Oregon, USA. Tree 
        Physiology 24:481-491.
Mote, P.W., A. F. Hamlet, M.P. Clark, and D.P. Lettenmaier. 2005. 
        Declining mountain snowpack in western North America. American 
        Meteorological Society Jan. 2005:39-49.
Odion, D.C., J.R. Strittholt, H. Jiang, E. Frost, D.A. DellaSala, and 
        M. Moritz. 2004. Fire severity patterns and forest management 
        in the Klamath National Forest, northwest California, USA. 
        Conservation Biology 18:927-936.
Paine, R.T., M.J. Tegner, and E.A. Johnson. 1998. Compounded 
        perturbations yield ecological surprises. Ecosystems 1:535-545.
Pumphrey, C. 2008. Global climate change: national security 
        implications. http://www.StrategicStudiesInstitute.army.mil/
Smith, J.E., and L.S. Heath. 2007. Land use, land-use change, and 
        forestry. In Inventor of U.S. greenhouse gas emissions and 
        sinks: 1990-2005. Washington, D.C.: U.S. Environmental 
        Protection Agency.
Smithwick, E.A.H., M.E. Harmon, and J.B. Domingo. 2002. Changing 
        temporal patterns of forest carbon stores and net ecosystem 
        carbon balance: the stand to landscape transformation. 
        Landscape Ecology 22:77-94.
Strittholt, J.R., and D.A. DellaSala. 2001. Importance of roadless 
        areas in biodiversity conservation in forested ecosystems: a 
        case study--Klamath-Siskiyou ecoregion, U.S.A. Conservation 
        Biology 15:1742-1754.
Society for Conservation Biology (SCB). 2008. Recommendations for 
        actions by the Obama Administration and the Congress to advance 
        the scientific foundation for conservation of biological 
        diversity. http://www.conservationbiology.org
USFS. 2000. Roadless Area Conservation: Final Environmental Impact 
        Statement. Washington, D.C.
USGS. 2002. Managing for biodiversity in young Douglas-fir forests of 
        western Oregon. Biological Science Report USGS/BRD/BSR-2002-
        0006.
Westerling, A.L., H.D. Hidalgo, D.R. Cayan, and T.W. Swetnam. 2006. 
        Warming and earlier spring increase Western U.S. forest 
        wildfire activity. Science 313:940-943.
                                 ______
                                 
    Mr. Grijalva. Thank you. Let me now ask Dr. Jack Williams, 
Senior Scientist, Trout Unlimited. Sir?

  STATEMENT OF JACK WILLIAMS, Ph.D., SENIOR SCIENTIST, TROUT 
                   UNLIMITED, MEDFORD, OREGON

    Mr. Williams. Thank you, Mr. Chairman and Members of the 
Subcommittee. My name is Jack Williams, and I appreciate the 
opportunity to appear before you today to provide my views, as 
senior scientist for Trout Unlimited, on the role of Federal 
lands in combating climate change.
    I have held research and management positions in both the 
BLM and Forest Service, so this issue is very close to my 
heart.
    Trout Unlimited, as you may know, is the nation's largest, 
cold-water fisheries conservation group dedicated to the 
protection and restoration of trout and salmon and their 
watersheds.
    In my testimony today, I would like to focus on three main 
areas: first, a brief description of how climate change is 
likely to impact national forests and public lands and how 
these impacts are already being felt; second, I would like to 
describe the resources, both natural resources and people in 
nearby communities that are being affected by climate changes; 
and, third, briefly describe how the problems can be solved; 
that is, if we act now and utilize the best available science.
    If we fail to act, the costs can be considerable, and our 
national forests and public lands may be irreparably harmed.
    I think most of you are familiar with the likely impacts of 
climate change on national forests and public lands. The 
impacts will be severe and include things like a general 
warming trend, increased evaporation, drying of forests and 
grasslands, increased wildfire intensity and frequency, reduced 
snowpack, more winter precipitation falling as rain rather than 
snow, earlier peak flows in rivers, less consistent 
streamflows, more pronounced storm events, including winter 
flooding, and more prolonged drought.
    Already, from a fisheries perspective, we see a lot of 
these changes, in terms of changes to stream hydrographs, 
earlier streamflows, and even earlier emergence of aquatic 
insects and changing fish migrations.
    What resources and user groups are going to be impacted? 
Well, a whole broad spectrum, not just fisheries and wildlife 
and overall biodiversity, but outdoor recreation opportunities; 
drinking water supplies, both quantity and quality; livestock 
raising; timber harvest; other resource extraction; and, 
indeed, the safety and economic well-being of nearby 
communities.
    It is important to realize that we cannot prevent these 
climate-driven disturbances to our national forests and public 
lands, but it is equally important to realize that we can 
moderate the impacts of these changes and reduce the stress to 
our natural resources and adjacent human communities.
    Let me focus, for just a minute, on three specific problems 
that our public lands will face and what we can do about them.
    The first is water resources and water quantity. Well, 
basically, to help protect water supplies and maintain 
streamflows, we need to essentially do the following things. We 
need to protect the high-elevation, wet meadows, the wetlands, 
the riparian areas, and the riverine floodplains.
    Why? Because these are the areas that are sort of the 
natural sponges in our watersheds that slow the water and 
release it into the groundwater, so they are also our 
groundwater recharge zones, which are critical, from a water 
supply standpoint. So the proper function condition of those 
habitats will be increasingly important as snowpack diminishes.
    Water quality. To protect water quality, we need adequately 
sized streamside riparian zones and adopt management standards 
that emphasize aquatic system protection. These stream zones 
should be large enough to provide shade to streams but also 
buffer upslope erosion and management.
    In terms of increasing floods, we need to help guard 
against flood damage by reconnecting rivers to floodplains, 
again, focusing on those riparian and floodplain areas because 
those are the areas where floodwaters can move into, dissipate 
their energy, and also, again, recharge those groundwater 
systems.
    In general, the agency should strive to improve the overall 
health of the land, seeking to restore conditions that allow 
the land to help withstand and recover from anticipated 
climate-change-drive disturbances.
    How can we deal with the uncertainty of climate change? A 
solid monitoring and adaptive management program will be vital.
    Our ability to adapt is limited by two things: first, our 
ability to detect change; and, second, our capacity to 
understand its consequences. The Forest Service and BLM 
monitoring programs are not adequate for these tasks. To 
address that shortcoming, the Federal government needs a new 
science initiative, among USGS, the Forest Service, other 
Federal agencies, academic institutions, and others, to help 
design a program to really help interpret the results of an 
integrated monitoring program across multiple jurisdictions.
    So, in conclusion, I would say that the actions described 
in my testimony have a considerable price, but they also have 
broad benefits, not only to maintaining biological diversity 
but to sustaining the ecological services critical to meeting 
the needs of recreationists, ranchers, other user groups, and 
ensure the well-being of nearby communities.
    In the end, we must ask ourselves, what is the cost of 
inaction? What will it cost to repair damage to our national 
forests and public lands?
    I would argue that it is less costly and more beneficial to 
address these concerns in the near term than to wait until 
increased climate-driven disasters befall our lands. Thank you.
    [The prepared statement of Mr. Williams follows:]

  Statement of Dr. Jack E. Williams, Senior Scientist, Trout Unlimited

    Chairman Grijalva and members of the Subcommittee, I appreciate the 
opportunity to appear before you today to provide my views as Senior 
Scientist for Trout Unlimited on ``The Role of Federal Lands in 
Combating Climate Change.'' Federal lands provide habitat for fish and 
wildlife species that are of substantial economic, ecological, and 
spiritual value, and these lands can play a key role in preparing for 
the impacts of climate change. I appreciate your concern in addressing 
this issue in a timely manner.
    Trout Unlimited (TU) is the nation's largest coldwater fisheries 
conservation group dedicated to the protection and restoration of our 
nation's trout and salmon resources and the watersheds that sustain 
them. TU has more than 150,000 members in 400 chapters across the 
United States. Our members generally are trout and salmon anglers who 
give back to the waters they love by contributing substantial amounts 
of their personal time and resources to fisheries habitat protection 
and restoration. The average TU chapter donates 1,000 hours of 
volunteer time on an annual basis.
    My name is Jack Williams and I serve as Senior Scientist for Trout 
Unlimited. Prior to working for TU, I was privileged to serve in a 
number of research and management positions in the federal government, 
including Endangered Species Specialist for the U.S. Fish and Wildlife 
Service, National Fisheries Program Manager for the Bureau of Land 
Management (BLM), Science Advisor to the Director of the BLM, Deputy 
Forest Supervisor on the Boise National Forest, and Forest Supervisor 
on the Rogue River and Siskiyou National Forests. I also have served as 
a Professor at Southern Oregon University and retain the title of 
Adjunct Professor at that institution.
    In my testimony today, I would like to focus on three major points.
    First, I will briefly describe how climate change is likely to 
impact our National Forests and public lands. These impacts already are 
being felt across the country and will become more pronounced and 
severe in coming years.
    Second, I will describe how these impacts are likely to affect 
natural resources and the people and nearby communities that use these 
resources. It is important to recognize that a broad spectrum of user 
groups will be impacted and that the risks are not just restricted to 
fish, wildlife, rivers, and forests.
    Third, I will describe how these problems can be solved--if we act 
now and utilize the best available science. I will provide specific 
examples of what needs to be done and how to do it. If we fail to act, 
costs will be considerable and our National Forests and public lands 
will be irreparably harmed.
    At the end of this document, I will provide a short annotated list 
of recent science articles in support of my testimony.
Impacts of Climate Change on National Forests and Public Lands
    Climate change is likely to alter weather patterns and storm events 
across the United States dramatically with significant negative 
consequences for National Forests and public lands. A general warming 
pattern will result in increased evaporation rates and drying of forest 
and grassland vegetation. These effects will increase wildfire 
intensity and frequency, especially at mid-elevations. In turn, these 
changes will spark surges in forest pest species and invasive weeds, 
triggering a cascade of further alterations in natural ecosystems.
    River flows and hydrologic regimes also will be altered, with 
consequences not only to fisheries but also to water supplies in 
general. More winter precipitation will fall in the form of rain than 
snow, especially at lower and mid-elevations. This will reduce snowpack 
and increase the probability of rain-on-snow events, likely resulting 
in increased winter flooding. With more rain during winter and reduced 
snowpack, peak stream flows will occur earlier in the spring and low or 
base flows during summer and autumn will be reduced. Stream flows will 
be less consistent from year to year.
    Overall, storm intensities will be greater. Floods, drought, and 
wildfires are all likely to increase. The increased variability and 
longer duration of wet cycles and dry cycles will cause considerable 
additional stress to natural ecosystems.
    In all cases, impacts of climate change on federal lands must be 
viewed within the existing management context and conditions of natural 
systems. Watersheds, riparian systems, and streams that are in better 
condition will be more resistant to disturbance and more likely to 
rebound quickly. On the other hand, habitats that are degraded and 
fragmented will less able to adapt to climate change risks. The effects 
of rapid climate change will be compounded with, and magnify, existing 
stressors. In poor-condition lands without adequate protective 
vegetation along streams, floods will be more severe with greater 
erosion and floodplain damage. If wetlands are drained or filled and 
watercourses are channelized, floodplains that normally slow water flow 
and soak up winter precipitation to help recharge groundwater aquifers, 
instead will speed stream discharge, encourage summer drying, and 
deepen droughts.
Natural Resources, User Groups, and Communities will be Substantially 
        Impacted
    Trout Unlimited and our members are especially concerned about the 
impacts of climate change on coldwater fishes and the habitats that 
support them. We also are concerned about impacts to the recreational 
pursuits, such as fishing, hunting, camping, and nature watching, for 
which National Forests and public lands are well known. However, we 
also realize that the impacts from climate change will be felt far more 
broadly.
    The effects of climate change on federal lands is likely to 
negatively impact many natural resources, user groups, and communities, 
creating problems for:
    <bullet>  Drinking water supplies--both quantity and quality
    <bullet>  Fisheries
    <bullet>  Wildlife
    <bullet>  Overall biological diversity
    <bullet>  Outdoor recreational opportunities
    <bullet>  Livestock grazing, timber harvest, and other resource 
extraction
    <bullet>  The safety and economic well-being of nearby communities
    In short, a very broad range of species, people, and communities 
will be under increasing risk unless we take immediate proactive 
management actions to prepare. The costs of failing to adequately plan 
and prepare will be high, and will be measured in substantial economic 
costs to fight large wildfires, deal with multi-year droughts, and 
repair damage from broadscale floods, and possibly in increased injury 
and loss of life.
    It is important to realize that we cannot prevent these climate-
driven disturbances to our national forests and public lands. Emissions 
already concentrated in the atmosphere will produce significant changes 
in the global climate now and throughout the next century, and ongoing 
emissions are likely to increase the severity of change we must endure. 
Recently the head of the Intergovernmental Panel on Climate Change 
indicated that there is little time for mitigation efforts aimed at 
reducing greenhouse gas emissions; the Earth has about six more years 
at current rates of carbon-dioxide pollution before it is locked into a 
future of severe global warming. We know that change already is 
happening, and that we will be subjected to climate change driven 
risks. But it equally is important to realize that we can moderate the 
impacts of these changes and reduce stress on our natural resources and 
adjacent human communities.
Specific Threats and Appropriate Responses
    In this section of my testimony, I identify specific resources on 
National Forests, National Grasslands, and public lands that will be 
threatened by climate change and provide scientifically sound and 
proven strategies for resource protection.
    Water resources and water quantity. To help protect water supplies 
and maintain stream flows, the Forest Service and BLM should restore 
high elevation wet meadows, wetlands, riparian areas, and floodplains. 
These habitats act as natural hydrologic sponges that slow water 
discharge and recharge groundwater aquifers, which in turn increases 
late-season stream flows. The proper function condition of these 
habitats will be increasingly important as snowpacks diminish.
    Water quality. To protect water quality, agencies should designate 
adequately sized streamside--riparian--zones and adopt management 
standards that emphasize aquatic system protection. These riparian 
zones should be large enough not only to provide shade to streams, but 
also to buffer from upslope erosion and poor management activities. 
Agencies also should protect landslide prone areas. Inadequate 
protection of these areas will increase siltation and erosion, which 
will degrade stream systems, water supplies, and fisheries.
    Increasing floods. To help guard against flood damage, agencies 
should reconnect rivers to their floodplains. That is, rivers should 
not be confined into narrow channels but rather allowed access to 
broader floodplains. We also should seek to restore floodplains and 
streamside vegetation. These measures transfer flood energies into 
well-vegetated floodplain zones while dissipating flows and protecting 
soils from erosion. In addition federal agencies should improve 
culverts and other stream/road crossings, and decommission poorly 
maintained or poorly designed roads. Inadequately sized or designed 
culverts and poorly maintained road/stream crossings act like time 
`bombs that will plug up then blow out during intense storms causing 
massive landslides and debris flows. Severe flooding has substantial 
consequences not only to fisheries and wildlife, but also to downstream 
communities and recreational facilities.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Example of a re-engineered stream crossing consisting of an 
oversize bottomless culvert. This structure provides for free movement 
of stream substrates and aquatic species while also providing adequate 
flood capacity and roadway safety.

    Invasive species. Weedy and invasive species are more likely to 
flourish in degraded habitats and to be favored during highly 
fluctuating environmental conditions. Some invasive species will spread 
more quickly during warming trends and will cause greater harm and be 
more expensive to control if left untreated. To better manage invasive 
species, we should become more aggressive in programs to detect new 
species invasions and in programs to control established exotic 
species--both terrestrial invasive weeds and aquatic non-native 
species.
    Biodiversity loss. To deal with potential loss of plant and animal 
diversity, lands and waters should be managed to provide adequate 
habitat to support viable populations of native species. Agencies 
should manage to protect genetic diversity, including weak stocks and 
peripheral populations. High levels of genetic, life history, and 
ecological diversity will be necessary for species to adapt to rapid 
environmental change.
    Increasing wildfire. Wildfires are increasing in western forests 
because of reduced snowpack and earlier vegetative drying during 
summer. To deal with more frequent and intense wildfires, agencies 
should selectively thin forests, primarily in wildland-urban interface 
zones and plantations. To prepare aquatic systems, we also should 
improve road networks and stream crossings, restore up- and downstream 
connectivity, and recover degraded riparian areas. Finally, we should 
adopt strong post-fire logging standards that protect soils and stream 
systems while providing for adequate recruitment of large wood to 
streams. These actions will result in less wildfire damage and 
decreased erosion and stream sedimentation. Riparian habitats, old 
growth and mature forests, and unroaded areas should be protected as 
well because these are the most fire resistant habitats.
    Health of the land. In general, agencies should strive to improve 
the overall health of the land, seeking to restore conditions that 
allow the land to help us withstand and recover from anticipated 
climate change driven disturbances. This can best be done by protecting 
the best remaining habitats, reconnecting stream and riparian systems, 
and restoring degraded areas (see graphic). Watersheds that are in 
better condition are more able to withstand disturbances, or if 
disturbed, are more resilient to damage from the disturbances. Areas 
that may be especially important to protect include roadless areas, 
unroaded lands, habitat currently acting as native population 
strongholds, and areas of watersheds that produce high quality supplies 
of cold water. It is important to reconnect stream systems by removing 
barriers to fish movements. These barriers may include small dams whose 
water diversion service can be replaced by pumps or other means, 
inadequate or poorly-designed road culverts that create conditions that 
fish cannot navigate, or dewatered stream segments created by direct 
water diversion or by land management practices that cause the stream 
to go subsurface (e.g., overgrazing). Overall, it is important to 
reduce existing stressors, such as dense road networks or too intense 
or inappropriately timed livestock use. These existing stressors are 
within our ability to influence, whereas the added stress of climate 
change is beyond our ability to eliminate from the next 50 to 100 
years, no matter how successful global mitigation efforts prove to be.
    How might this be implemented? For the past four years, BLM, TU, 
National Fish and Wildlife Foundation and other partners have been 
reconnecting and restoring habitat for Lahontan cutthroat trout in the 
Maggie Creek drainage in northern Nevada. Reconnection work consisted 
of replacing three major culverts that blocked fish passage and 
removing one irrigation structure that also blocked fish movement. 
Livestock grazing was improved by exclusion fencing along sensitive 
riparian areas. Restoration efforts focused on 1,982 acres of riparian 
habitat, which included replanting native species and irrigation 
improvements. In all, 82 stream miles of Maggie Creek and its 
tributaries were reconnected and restored. Total cost was approximately 
$600,000 during this four year period. These efforts not only benefited 
the threatened trout but also improved conditions for livestock use and 
provided increased flood capacity for the road system.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


This approach to improving overall land health via watershed 
management can be summarized by the model of Protect-Reconnect-Restore-
Sustain. Healthier lands are more resistant to climate change impacts 
and more resilient when disturbed by floods, drought, and wildfire.

Dealing with the Uncertainty of Climate Change
    Monitoring and adaptive management will be important. Although many 
ramifications of climate change are relatively well understood, 
researchers uncover new surprises almost daily regarding the pace and 
intensity of change. There is substantial uncertainty and rapid 
environmental change ahead. National Forest and public land managers 
need to be better prepared to identify and track these changes and 
better equipped to understand their consequences.
    Our ability to adapt is limited by two things: our ability to 
detect change and our capacity to understand its consequences. Forest 
Service and BLM monitoring programs are not adequate for these tasks. 
To address this shortcoming, the federal government needs a new science 
initiative among USGS-Biological Resources Division, Forest Service 
Research, and academic and non-profit organizational scientists to help 
federal land managers design and interpret the results of an integrated 
monitoring program across multiple jurisdictions.
Conclusion
    The necessary actions described herein have a considerable price, 
but they also have broad benefits not only to maintaining biological 
diversity, but to sustaining the ecological services critical to 
meeting the needs of recreationists, ranchers, and other user groups, 
and to ensuring the well-being of nearby communities. The actions I 
have described are very low risk steps that have a very high likelihood 
of substantial benefit to multiple parties. Many actions create jobs as 
well.
    National Forests and public lands provide substantial ecological 
services that include clean water, clean air, and buffering from 
drastic flood and drought. Without adequate effort to sustain these 
critical ecosystem services, private property owners, local governments 
and the human communities they make up will be excessively burdened.
    In the end it is important that we ask ourselves: What is the cost 
of inaction? What will it cost to repair damage to our National Forests 
and public lands? What will it cost in private property loss and public 
safety? I would argue that it is less costly and more beneficial to 
address these concerns in the near-term than it would be to wait until 
increased climate change driven disasters befall our lands and nearby 
communities. The time to act is now. Our National Forests, National 
Grasslands, and BLM public lands are national treasures that are 
irreplaceable in our lifetimes.
Reference List
Battin, J., M.M. Wiley, M.H. Ruckelshaus, R.N. Palmer, E. Korb, K.K. 
        Bartz, and H. Imakl. 2007. Projected impacts of climate change 
        on salmon habitat restoration. Proceedings of the National 
        Academy of Sciences 104(16):6720-6725. (describes how habitat 
        restoration can mitigate impacts of climate change for Pacific 
        Northwest salmon)
Barnett, T., R. Malone, W. Pennell, D. Stammer, B. Semtner, and W. 
        Washington. 2004. The effects of climate change on water 
        resources in the West: introduction and overview. Climatic 
        Change 62:1-11.
Clark, M.E., A. Rose, D.A. Levine, and W.W. Hargrove. 2001. Predicting 
        climate change effects on Appalachian trout: combining GIS and 
        individual-based modeling. Ecological Applications 11:161-178.
Flebbe, P.A., L.D. Roghair, and J.L. Bruggnik. 2006. Spatial modeling 
        to project southern Appalachian trout distribution in a warmer 
        climate. Transactions of the American Fisheries Society 
        135:1371-1382. (wild trout populations in eastern forests are 
        likely to suffer large-scale reductions as a result of climate 
        change)
Harper, M.P., and B.L. Peckarsky. 2006. Emergence cues of a mayfly in a 
        high-altitude stream ecosystem: potential response to climate 
        change. Ecological Applications 16:612-621. (documents earlier 
        aquatic insect emergence from Rocky Mountain streams as a 
        result of less snowpack and earlier stream runoff)
Heller, N.E., and E.S. Zavaleta. 2009. Biodiversity management in the 
        face of climate change: a review of 22 years of 
        recommendations. Biological Conservation 142:14-32. (reviews 
        science literature on adaptation for climate change)
Hilborn, R., T.P. Quinn, D.E. Schindler, and D.E. Rogers. 2003. 
        Biocomplexity and fisheries sustainability. Proceedings of the 
        National Academy of Sciences 100:6564-6568. (describes how 
        remaining high diversity among sockeye stocks in Alaska 
        maintains fisheries despite environmental change)
Poff, N.L., M.M. Brinson, and J.W. Day, Jr. 2002. Aquatic ecosystems 
        and global climate change: potential impacts on inland 
        freshwater and coastal wetland ecosystems in the United States. 
        Pew Center on Global Climate Change. Arlington, VA.
Rahel, F.J., C.J. Keleher, and J.L. Anderson. 1996. Potential habitat 
        loss and population fragmentation for cold water fish in the 
        North Platte River drainage of the Rocky Mountains: response to 
        climate warming. Limnological Oceanography 41:1116-1123. 
        (describes how existing habitat fragmentation contributes to 
        population vulnerability during climate change)
Westerling, A.L., H.G. Hidalgo, D.R. Cayan, and T.W. Swetnam. 2006. 
        Warming and earlier spring increase western U.S. forest 
        wildfire activity. Science 313:940-943. (describes how climate 
        change is increasing wildfire activity in Rocky Mountains)
Williams, J.E., A.L. Haak, H.M. Neville, and W.T. Colyer. 2009. 
        Potential consequences of climate change to persistence of 
        cutthroat trout populations. North American Journal of 
        Fisheries Management 29:in press.
Williams, J.E., A.L. Haak, N.G. Gillespie, H.M. Neville, and W.T. 
        Colyer. 2007. Healing troubled waters: preparing trout and 
        salmon habitat for a changing climate. Trout Unlimited, 
        Arlington, VA. (proven restoration tips and tactics; pdf 
        available online at www.tu.org under Science banner)
                                 ______
                                 
    Mr. Grijalva. Thank you very much.
    Mr. Spiering had to leave early for a commitment. I think 
the hearing went longer than the time he had. I will be 
forwarding some questions to him. I think he made a comment 
about nuclear power, i.e., through uranium mining, as a 
nonpolluting activity.
    So my question is going to be about MOAB and the 16 million 
tons of waste that is yet to be dealt with; the 500 abandoned 
mines on Navajo Country that EPA now is doing in tiers to see 
which is the priority they are going to begin the cleanup and 
closure of those abandoned mines; and the orphaned mine near 
the Grand Canyon that continues to be a problem and polluted 
the watershed there.
    Those are a consequence of direct uranium mining, and I 
understand that nuclear power is not an absolute yes-or-no 
proposition that we are dealing with, but there are 
consequences, and we are going to forward the questions to him 
about those consequences.
    In addition, is there any public land, i.e., the Grand 
Canyon, in which uranium mining should not be allowed? I think 
that is an appropriate question to ask as well.
    Dr. Harmon, You raised some serious concerns about the 
drying of the forests and the subsequent increase in wildlife 
frequency and intensity. Could you give us your prediction on 
what we will face in the upcoming fire seasons due to climate 
change and how land-management agencies can better be prepared 
to deal with that reality?
    Mr. Harmon. Well, fire is really a hard thing to predict, 
Mr. Chairman, but it is likely, if the current trends continue, 
that, yes, we will have warmer, longer growing seasons--that is 
good for tree growth, in part. But, in the West, where we have, 
in the summer, a shortage of water, that may also mean a longer 
period of dry fuels, and so there could be larger fires. They 
may or may not be more severe because only in some ecosystems 
are fuel levels really higher than we might expect naturally.
    It is hard to say what to do because it is starting to 
create a problem that is very, very expensive to try to solve. 
I think we have to concentrate our efforts on protecting 
housing and things where people could lose economic value and 
their lives. That would be one place.
    Where we can restore a natural fire regime, we should try 
to do it because it is just cheaper. That can conflict with the 
first priority of protecting people, but there are areas where 
this could go on.
    One of the things is people have the sense that there is a 
tremendous loss of carbon in a fire, and, as my written 
testimony shows, the range is about 5 percent of what is in an 
ecosystem to about 15 percent. It is not huge. The trees do not 
really burn up. If they burned up, people would not be fighting 
about timber salvage.
    So one thing is people do not like the fires; they are very 
emotional about them. They are very dangerous, but they are not 
nearly as bad for the carbon cycle as often is portrayed.
    Mr. Grijalva. Thank you. Dr. DellaSala, you mentioned that 
global warming is already affecting species and natural 
resources across the country.
    Let me ask you, relative to the public lands, you talk 
about changing the mission of the Forest Service and BLM. Do 
you think we need to change the Organic Act or the Multiple Use 
Sustained Yield Act? Can we accomplish some of this within the 
regulatory framework, or is that a statutory issue as well?
    Mr. Dellasala. Well, thank you for that question, and, as I 
have indicated in my testimony, there are a number of ways that 
this Subcommittee could address this.
    One is that you could ask the Secretaries of Interior and 
Agriculture whether or not they have the existing structures to 
respond to climate change and some of the challenges that we 
are now seeing.
    Two is that you could request that a committee of 
scientists be convened that would take a look at the whole 
regulatory package within the context of climate change and 
cumulative impacts.
    So those are two immediate things. There are other 
measures, too, that I would recommend, such as working with the 
Obama Administration to restore the National Forest Management 
Act viability clause for maintaining viable populations on 
Federal lands and working with Representative Kind to make sure 
that a similar measure is introduced for BLM lands which are 
not managing their wildlife for viable populations.
    So there are number of different ways to look at it, but I 
think the challenge here is that a lot of those statutes were 
put together in the early part, or the midpart, of the last 
century, and, quite frankly, they were not up to the task of 
what we are seeing now, in the 21st century, with the increased 
stress loads that we have put on these ecosystems, in addition 
to the climate change impacts.
    Mr. Grijalva. Thank you very much.
    Dr. Williams, as we focus on the adaptation of our public 
lands to a changing climate, in your testimony, you talk about 
that healthier systems are more resilient to the change. What 
actions could land managers be focusing on today to restore and 
rehabilitate wetlands and watersheds?
    Mr. Williams. Well, I think you always try to do as many 
things with the one stroke as you can.
    If we know we are going to have a lot of fires on the 
landscape, one of the systems that we need to work on are our 
road systems. The national forests and BLM public lands have 
huge road networks, and many of these roads are essentially in 
a maintenance backlog.
    From a fire standpoint and an aquatic systems standpoint, 
the culverts are undersized, the roads are poorly managed, and 
we need to upgrade those systems, especially in areas that are 
likely to fail as a result of fire and then subsequent erosion.
    So the road network greatly influences the hydrologic, the 
stream network. The culverts and the road crossings are 
critical areas because these can build up with sediment and 
debris and kind of blow out.
    So, on the one hand, the road network is a critical element 
to focus on.
    The other part of that is really the meadow riparian 
habitats along streams and along meadows that are, again, these 
kind of natural sponge areas that both soak up the energy and 
soak up the water and then recharge the aquifers during rain. 
With reduced snowpack, more winter precipitation falling as 
rain rather than snow, the health and condition of those lands 
are going to be absolutely critical to maintain base 
streamflows.
    Mr. Grijalva. Let me thank you. Your full written testimony 
is part of the record, and if colleagues, as I had mentioned 
earlier, have questions, they will submit them, and we will 
forward them to you for your responses in writing. Thank you 
very much, and thank you for the time.
    Let me invite the next panel, please.
    [Pause.]
    Mr. Grijalva. Thank you very much. Let me ask our 
colleague, Mr. Holt, for the introduction of one of our 
panelists.
    Mr. Holt. Thank you, Mr. Chairman. Thanks for an important 
hearing that you have been undertaking today, and I thank you 
for inviting the next distinguished and very capable witnesses.
    I would like to introduce to you, and to the Committee, Mr. 
Rick Ridgeway. He is a legend among climbers, a leading climber 
and adventurer: the first American to reach the summit of K-2; 
a participant in the first western mountaineering expedition to 
Butaan; a person who scaled the first big wall climb in 
Antarctica. So he has a number of climbing pelts on the wall 
and has, really, a well-earned reputation among explorers.
    Mr. Ridgeway is also a documentary film maker and a 
photographer and a writer, and, in his free time, Rick Ridgeway 
is the Vice President of environmental programs and 
communications at Patagonia. He develops, implements, and 
promotes the second, two, of the company's three-part mission 
statement: to make the best product, cause no unnecessary harm, 
and to use business to inspire and implement solutions to the 
environmental crisis.
    Mr. Ridgeway, I believe, your experiences give you a unique 
view of our environment--sometimes from above, sometimes from 
beside, sometimes from right in it--and a view of the need to 
preserve it.
    So we welcome you today, and, Mr. Chairman, I, again, thank 
you for setting up this hearing.
    Mr. Grijalva. Thank you, sir. Let us begin with Mr. 
Ridgeway, Freedom To Roam. Your testimony, sir. Thank you.

     STATEMENT OF RICK RIDGEWAY, FREEDOM TO ROAM, VENTURA, 
                           CALIFORNIA

    Mr. Ridgeway. Thank you so much, Mr. Chairman, and, Mr. 
Holt, for the introduction, and, also for the record, the 
earlier introduction that Representative Capps so graciously 
gave to me and to our initiative, Freedom To Roam, which, while 
it was initiated at our company, Patagonia, is now its own 
independent organization, and I would suggest to the group that 
we are not what you might expect.
    We are the only organization I know of that brings together 
groups from the Department of Defense and the Association of 
Fish and Wildlife Agencies, business leaders from Wal-Mart and 
Microsoft, energy providers from BP-America, hunting and 
angling groups, including the National Wildlife Federation; the 
Theodore Roosevelt Conservation Partnership; conservationists 
from the Defenders of Wildlife; and scientists from the 
Wildlife Conservation Society.
    We know that the planet is warming. We have read the IPCC 
prediction that if nothing is done to adapt to changes that are 
now recognized as inevitable, we could lose 40 to 70 percent of 
the species on our planet, and a change, on that scale, is 
uncharted territory, and no one, including our best scientists, 
fully understands the consequences that loss would have on our 
own species, but those scientists do know that to adapt to 
these inevitable changes, most of the wildlife in our United 
States needs the ability to move. It needs the freedom to roam 
around in habitats, many of which are on public lands. But if 
habitats become fragmented by development or shifted by climate 
change, then many will not survive.
    But there is solution, and it is based on best science, and 
it is this idea of connecting landscapes to give animals the 
freedom to roam, but, also, I want to stress, to give people 
the freedom to hunt and fish and to hike and to camp and to 
ranch and even to do business in ways compatible with wildlife.
    Now, before we look into how we propose to achieve that, 
let us take a pause to look at where this idea of wildlife 
corridors came from.
    It was established when Tom Lovejoy, an acclaimed biologist 
here in Washington, began long-term study in the Amazon.
    Mr. Lovejoy. [On video.] In the late 1970's my Brazilian 
colleagues and I--a grand experiment in landscape ecology, and 
we persuaded those who were clearing the forests to do it in a 
way that gave us a series of forest fragments of different 
sizes, and that enabled us, ultimately, to demonstrate how big 
a national park should be.
    That is a big number--in the Amazon, it is about 1,000 
square kilometers--so the question that also arises is, what do 
you do if you do not have such a size? Well, then the answer is 
pretty obvious, actually. You connect the fragment to other 
fragments to larger forests. You create, in a sense, wildlife 
corridors so animal species can move around.
    Mr. Ridgeway. To illustrate the importance of connectivity 
and corridors as an adaptation strategy for climate change, I 
want to show you the story of the lynx. Now, the present-day 
range of the lynx looks like this, but what might happen as the 
planet warms?
    Well, scientists, using the most advanced tools currently 
available, predict that the habitat of the lynx is going to 
shift here by 2060, and it is going to go here by 2100. Now, 
you can see that these marooned habitats are likely too small 
to sustain lynx populations. So what do you do? Well, you 
connect the fragments with wildlife corridors.
    But it is not only predators, like the lynx, that need the 
freedom to roam, but it is migrating songbirds, counted by the 
millions by birdwatchers; it is game birds and waterfowl, 
valued by millions of sportsmen; it is big-game species that 
all of us celebrate.
    Now, take the pronghorn antelope. This is the fastest big-
game animal on the continent. It can run 60 miles an hour, and, 
every fall, one group of pronghorn leave the Teton National 
Park and migrate south 170 miles to their wintering grounds, 
where now, instead of sagebrush, they encounter hundreds of 
recently installed gas wells. But there are solutions, from new 
technology that, as we have heard earlier, allows gas wells to 
be clustered, 25 and more, on a single pad, and this gives the 
pronghorn more room to roam.
    Well, it is not just gas wells, however, but pronghorn also 
have to crawl under fences, and, again, there is a solution in 
fences that are designed with a minimum clearance and a bottom 
wire with no barbs that allow the pronghorn to freely crawl 
under the fences.
    So these are solutions, and solutions is what our 
coalition, Freedom To Roam, is about. With a steering team that 
includes corporations, some of them Fortune 50 companies; that 
includes conservation organizations known for their broad-based 
inclusion; and government organizations representing every 
state's role in providing solutions to protecting wildlife.
    But what are those solutions, and what is the roadmap to 
protection? Well, we think and propose that it has five steps: 
first, to define corridors, to develop a legal definition for 
``corridors''; and, two, to use that legal definition to 
identify critical corridors across the United States; third, to 
give designations to corridors that qualify, beginning with the 
public lands; and, four, to work with private landowners to 
come up with tools and incentives to live and ranch in ways 
compatible with wild animals; and, five, to allocate funds to 
support science, to support projects, such as road crossings 
and wildlife fencing, to support private landowners.
    We know this will require the cooperation of private 
citizens, of businesses, conservation groups, and, of course, 
governments, but we also believe we can do this because we are 
all sensing this new climate, this climate of cooperation that 
is driven by climate change, that we are all in this together, 
that we all live on the same planet, and, together, we can 
preserve the health of our home for ourselves and for our 
children and for the wildlife that is part of our American 
identity.
    So, Chairman, thank you so much, and Members, for the 
invitation here to share with you this vision that Freedom To 
Roam has.
    [The prepared statement of Mr. Ridgeway follows:]

  Statement of Rick Ridgeway, Director of Environmental Initiatives, 
   Patagonia Company, for Freedom to Roam, ``A Coalition to Conserve 
                          Wildlife Corridors''

    Thank you for the opportunity to testify. I am Rick Ridgeway, 
Director of Environmental Initiatives for Patagonia Company. Patagonia 
and a group of business and conservation partners have recently formed 
Freedom to Roam. This is a new model for landscape protection: a 
collaborative effort among businesses and conservation organizations to 
bring ecological connectivity to the forefront of public attention 
through sound science and effective policies. Freedom to Roam's 
continental vision encompasses the United States and Canada while 
facilitating local solutions to landscape connectivity.
    We're the only organization I know of that brings together groups 
such as the Association of Fish and Wildlife Agencies, business leaders 
from Wal-Mart and Microsoft, energy providers such as BP America and 
Southern California Edison, hunting and angling groups including the 
National Wildlife Federation and the Theodore Roosevelt Conservation 
Partnership, conservationists from the Association of Fish & Wildlife 
Agencies, Defenders of Wildlife, and Yellowstone to Yukon, and 
scientists from the Wildlife Conservation Society. We also are working 
with the Western Governors' Association and the Department of Defense. 
Together this effort is galvanizing policies, practices and on-the-
ground efforts designed to ensure that landscapes across the continent 
maintain their ecological integrity.
    I am appreciative of the work of Committee Chairman Rahall and 
Subcommittee Chairman Grijalva and the members of this Subcommittee on 
your efforts to develop tangible solutions in the face of a changing 
climate; in particular, for seeking to define the role of federal lands 
to lessen the impacts of climate change through sound stewardship. I am 
pleased that the Committee and Subcommittee members and their staff are 
showing such a willingness to devote their time to address this 
critical issue. It indicates to me that you, too, feel that our public 
lands heritage is at a crucial crossroads.
The Challenge Ahead
    There is no doubt that the planet is warming. The International 
Panel on Climate Change predicts that we could lose as many as 40-70 
percent of the species on Earth if nothing is done to address the 
impacts of climate change. No one, including our best scientists fully 
understands the entire gamut of consequences this biological loss could 
have on us. But scientists agree that the ability to migrate across the 
landscape in response to this phenomenon will be key to the survival of 
many North American species in the coming decades. The public lands 
will play a critical role in allowing this migration to take place. In 
fact, if habitat is fragmented by development and then altered by 
climate change, many of our native species won't survive. Thus many in 
the scientific community agree that the most effective option we have 
to address climate change adaptation for biodiversity is via corridors 
and connectivity. (see Heller, N. and E. S. Zavaleta, 2008, 
Biodiversity management in the face of climate change: a synthesis of 
20 years of recommendations, Biological Conservation).
Convergence of Wildlife Corridors and Habitat Connectivity as a Policy 
        Strategy
    In the past year, a steady stream of new policy documents have been 
developed by working groups, task forces, committees and other groups 
of knowledgeable specialists to assist decision makers in identifying 
the importance of protecting ecological connectivity. As a result, new 
policies for corridor protection will be central to adaptive management 
strategies that seek to address the impact of climate change on 
wildlife. In the past six months, three new policy reports were 
prepared and circulated by a) the 19 western states via the Western 
Governors' Association, b) the U.S. Forest Service, and c) the U.S. 
Fish and Wildlife Service. All three reports incorporated corridors in 
developing strategies to address climate change.
    The first political acknowledgement and support of corridor 
conservation occurred in the West, where the 19 states are made up of a 
patchwork of federal, tribal, state and local governments as well as 
private lands. These are the members of the Western Governors' 
Association (WGA) who unanimously passed a Wildlife Corridors 
Initiative. In the Initiative's call to action the governors 
acknowledged ``[w]estern ecosystems do more than sustain wildlife. 
Crucial habitats and corridors provide ecosystem services that range 
from enhancing water quality to creating recreational opportunities to 
ensuring the pollination of our crops. To a great degree, the viability 
of wildlife is an indicator of the functionality of ecosystems--and so 
contributes to the sustainability of our communities, our economies, 
and our general well-being.'' (see ``WGA Wildlife Corridors Initiative 
Report'' 2008 Western Governors' Association, Denver, CO)
    The U.S. Forest Service is beginning to develop a response to 
climate change. In its recently completed framework on this topic, the 
agency spelled out several actions it can take to facilitate 
adaptation. This includes a category of anticipatory actions ``intended 
to prevent serious disruptions due to changing climate.'' The report 
suggests such potential actions as ``...genetic conservation of 
species, assisted migration of species to suitable habitat, development 
of wildlife corridors to facilitate migration...'' (see ``Forest 
Service Strategic Framework for Responding to Climate Change,'' Version 
1.0, October 2008, U.S. Forest Service, Washington, DC)
    The U.S. Fish and Wildlife Service (USFWS) recently completed its 
first draft of a strategic plan to address climate change. Although the 
strategy is currently only available for internal review and labeled 
``internal discussion draft'' and has not been commented upon by 
external entities, it too promotes habitat connectivity to address 
habitat fragmentation and climate change. One of the goals in the plan 
is to ``deliver landscape conservation that supports climate change 
adaptations by fish, wildlife and plant populations.'' One of the 
objectives for this goal is for the USFWS to work with partners to 
identify and conserve landscape-level corridors to help build 
connectivity within and between landscapes. This indicates that habitat 
connectivity at two different spatial scales is considered a key 
consideration for allowing plants and animals to move and adjust to 
changing environmental conditions. (see ``Rising to the Urgent 
Challenges of a Changing Climate, Strategic Plan for Responding to 
Accelerating Climate Change in the 21st Century [Internal Discussion 
Draft].'' U.S. Fish and Wildlife Service, December 12, 2008, 
Washington, DC)
    At this time, there is an emerging consensus by the scientific 
community, federal agencies, many of the states, and leading national 
conservation organizations that it will be necessary to identify and 
protect wildlife corridors and habitat connectivity so that wildlife 
will be able to adapt to a warming world. Therefore, any future federal 
legislative efforts to address climate change will be greatly enhanced 
by assuring connectivity conservation.
Federal Legislative Action
    The federal government plays an important role in leading the 
nation's efforts to identify and protect ecological connectivity as a 
climate change adaptation strategy. I believe that the federal 
government's land and water management agencies need to have the 
appropriate authority, direction, and funding to ensure habitat 
connectivity is conserved across all affected landscapes and water 
bodies. In addition, the federal government must work with many 
partners to further this goal across all jurisdictions, including state 
and local governments, tribes and Native Americans, as well as private 
land owners.
    As I mentioned, the supporters of Freedom to Roam have just begun 
to review and collect information on policies and practices to 
implement this vision. The following concepts are some of the suggested 
methods to achieve the overall goal of improving connectivity 
opportunities.
    As this Subcommittee and other congressional committees develop 
climate change legislation, it would be extremely helpful to consider 
the following actions be incorporated as a means of identifying and 
protecting wildlife corridors and habitat connectivity as an adaptive 
management strategy.
Create a new federal lands designation: wildlife corridor
    Perhaps the boldest, most visionary piece of legislation would 
create a series of linked ecological networks around the country that 
would provide for the migration and dispersal of wildlife and other 
native species. Such a system would allow for a level of landscape 
connectivity that assures that animals and plants could adjust to 
shifts in habitat caused by human activity, natural environmental 
cycles, and global climate change. Weaving a web of habitats across the 
nation will secure the long-term survival and vibrancy of America's 
cherished natural heritage for present and future generations.
    In order to ensure that wildlife and other biota can migrate and 
disperse safely across landscapes for their continued health and vigor, 
a system of connecting habitats could be congressionally designated as 
``national wildlife corridors.'' We envision these as part of a 
National Wildlife Corridor Conservation System.
    National Parks, Wild and Scenic Rivers, Wildlife Refuges, and 
Wilderness areas are national systems developed to serve an important 
purpose to conserve our nation's natural heritage. Today, given the 
challenges of addressing climate change, our generation has an 
opportunity to develop an equally important national system that allows 
species to move and adapt. These ``national wildlife corridors'' could 
be administered in such a manner as to leave them unimpaired to sustain 
flows of wildlife and plants between different areas of a landscape or 
region, over time, as well as for the use and enjoyment of the American 
people.
Include wildlife connectivity in federal land management planning
    Climate change legislation must promote the identification and 
protection of connectivity or migration habitat via federal land and 
water management agency planning. Currently, I am aware of two examples 
of the identification and protection of a wildlife migration corridor 
via federal management plans.
    The Bridger-Teton National Forest in Wyoming, on the southern end 
of the Greater Yellowstone Ecosystem, has completed the first 
administrative designation of a wildlife corridor in the nation on 
Forest Service lands. This unprecedented action was sought to maintain 
secure habitat for the annual migration of a special herd of pronghorn 
that moves an estimated 45 miles across national forest lands, 
comprising approximately 29,400 acres, in its semi-annual 150-mile-long 
trip between their winter range in Upper Green River Basin near 
Pinedale, Wyoming, and their summer range in Grand Teton National Park. 
This is one of the longest remaining land-based wildlife migrations in 
North America, and it is the longest in the lower 48 United States. 
Archeological evidence suggests that this wildlife pathway has been 
used for over 6,000 years.
    To protect this migration, the Bridger-Teton amended its Land and 
Resource Management Plan (Forest Plan) by identifying the wildlife 
corridor on a map and developing a management standard to ensure that 
no new projects or activities impede the migration corridor, known as 
the Path of the Pronghorn. Such an administrative designation 
formalized in the Forest Plan can be replicated on national forests 
across the country.
    Part of the Path of the Pronghorn also falls on Bureau of Land 
Management (BLM) lands in Wyoming. In the recent revision of its 
Resource Management Plan, the Pinedale District in Wyoming protected a 
portion of the pronghorn migration on their lands by approving the 
designation of the Trappers Point as an Area of Critical Environmental 
Concern (ACEC) whose management goal is to preserve the viability of 
the big game migration. In future BLM planning efforts, ACEC 
designations to protect wildlife connectivity can be utilized as a 
means to maintain connectivity.
    The Forest Service, BLM and all other federal land and water 
management agencies should be provided direction and funding in climate 
change legislation to identify and protect key connectivity habitat via 
their planning processes.
Provide wildlife connectivity across federal lands highways
    The Office of Federal Lands Highways ``provides program stewardship 
and transportation engineering services for planning, design, 
construction, and rehabilitation of the highways and bridges that 
provide access to and through federally owned lands.'' Currently, 
maintaining habitat connectivity across surface transportation 
infrastructure has not been mandated in any past or current 
transportation legislation. To ensure busy roads running through 
federal lands provide safe passage of wildlife across transportation 
barriers in areas important for connectivity, legislation should direct 
the federal land agencies to assure that there are retrofits for 
current infrastructure and incorporate wildlife needs into future 
development plans for their federal highways. This means terrestrial 
and aquatic movement patterns must be considered in relation to the 
location, design, construction and operation of infrastructure 
projects.
Support state wildlife corridor initiatives
    The Western Governors' Association (WGA) Wildlife Corridors 
Initiative is a prime example of states taking the lead in developing 
new policies to protect wildlife corridors in the face of a changing 
climate. The WGA states as well as all others will need support, 
cooperation and coordination from the federal government as they embark 
on efforts to address habitat connectivity and crucial habitats. One 
recommendation from the Initiative's climate change recommendations 
pertinent to my testimony today is:
    ``Western Governors should consider supporting establishment of new 
revenue streams to support wildlife adaptation to climate change in any 
relevant climate change legislation, such as carbon cap and trade or 
carbon tax legislation that may be enacted by the U.S. Congress.''
    Federal climate change legislation should make every effort to work 
with the states, as the primary authorities responsible for the 
management of wildlife, to support their efforts to identify and 
protect wildlife corridors. State efforts to develop new plans to 
assist fish and wildlife adaption to climate change, and to ensure that 
state wildlife action plans address this challenge, deserve greater 
federal encouragement and financial support.
Work with Native Americans and tribes
    Federally-recognized Indian tribes have jurisdiction over a 
reservation land base of more than 52 million acres in the lower 48 
states while Alaskan Native lands comprise another 45 million acres. In 
addition tribes control natural resources outside of reservations due 
to federal court decisions and voluntary cooperative agreements, which 
allow co-management status between tribes and states on more than 38 
million acres. Climate change legislation that seeks to employ the 
conservation of wildlife corridors as an adaptive management strategy 
must work with Native American tribes to identify and protect wildlife 
connectivity on lands and in waters under their management authority. 
Congress should also explore ways to provide Native American tribes 
with technical and financial resources necessary to develop and 
implement plans to facilitate the survival of species throughout lands 
that the tribes directly control or affect.
Support private land conservation
    Often private lands are a critical component of many corridors and 
therefore are crucial to maintain habitat connectivity. One such 
opportunity for legislation would be to develop incentives within the 
Land and Water Conservation Fund to target the conservation of 
corridors and connectivity on private lands. Another would be for 
climate change legislation to create incentives and financial support 
to encourage willing land owners to manage their properties so they are 
wildlife friendly and allow for the unencumbered passage of species 
through their property in key areas. It may also be appropriate for 
Congress to consider making permanent existing tax incentives that 
encourage land conservation and habitat protection.
Provide new streams of federal funding
    Given the immense challenges to protect wildlife in the face of 
climate change throughout the nation, the federal government must lend 
a financial hand to allow federal agencies, states, tribes and private 
land owners to implement protections on behalf of habitat connectivity 
and wildlife corridors. It would be appropriate to consider devoting 
significant revenues generated by any future climate change legislation 
to this purpose. In this regard, I applaud the U.S. House of 
Representatives for your recent passage of the FY09 Omnibus 
Appropriations bill which will fund a National Global Warming and 
Wildlife Science Center and directs the Secretary of the Interior to 
coordinate with other agencies in developing a national strategy to 
assist the survival of wildlife and ecosystems in the face of global 
warming. This legislation provides an excellent beginning to develop 
new solutions for federal land and water management and creates 
momentum for future endeavors on behalf of wildlife.
Conclusion
    Climate change will challenge our ability to maintain our nation's 
rich natural heritage. However, most agree that identifying and 
protecting wildlife corridors and connectivity habitat is a key 
adaptive management strategy worth pursuing. Freedom to Roam 
appreciates being part of the growing effort of local, state and 
national conservation organizations, and state and federal agencies, 
who are working to ensure the long-term survival of America's fish and 
wildlife. On behalf of Freedom to Roam, I thank you for the opportunity 
to testify and look forward to working with the Subcommittee as it 
develops legislation to fully achieve the protection of our nation's 
wildlife.
    Thank you.
                                 ______
                                 
    Mr. Grijalva. Thank you very much.
    Next, let me ask Ms. Lynn Jungwirth, Executive Director, 
Watershed Research and Training Center. Welcome. I look forward 
to your testimony.

  STATEMENT OF LYNN JUNGWIRTH, EXECUTIVE DIRECTOR, WATERSHED 
       RESEARCH AND TRAINING CENTER, HAYFORK, CALIFORNIA

    Ms. Jungwirth. Thank you, Mr. Chairman. I am very happy to 
be here. I work with the forestry community folks around the 
West, and we have been working on forest restoration on public 
lands for many years.
    I am here today to talk a little bit about Federal lands' 
role in combating climate change and try to respond to your 
challenge, at the opening, to talk about adaptation, 
mitigation, and key laws.
    So I have my written testimony, but I am just going to try 
to respond to what you ask.
    Mr. Grijalva. Thank you.
    Ms. Jungwirth. So, adaptation; what are we doing to try to 
adapt to this climate change?
    I live in the Trinity Forest. It is a frequent fire forest. 
We are seeing rapid change. We are converting to brush fields 
on the southern slopes because once the forest burns, it cannot 
seem to regenerate itself naturally.
    So what are we trying to do? We are trying to put in a 
series of strategic fuel breaks that would keep the fires 
contained so that they never gain that speed and that intensity 
they get as they get larger.
    We are trying to work on the riparian areas because the 
riparian areas are the areas that are moist enough to slow down 
a slow-moving fire and to help you protect that.
    We are trying to put fire buffers around the spotted owl 
habitat that we are supposed to be protecting, and the coho 
habitat in those forests where you have very steep mountains. 
When the fire denudes the land, the ground, the erosion that 
happens in the key coho habitat is pretty horrific, and it does 
not just happen for one year; it goes on and on for years.
    So we are working very hard on forest restoration to try to 
deal with and to help the forest stay resilient in the face of 
climate change.
    In terms of climate mitigation, the greenhouse gas 
mitigation, the forest fire that was in California last year; 
the air quality board did a little study for us, and they 
figure 84 million tons of greenhouse gas emissions. So that is 
12 million vehicle years.
    So when they put carbon trading in to try to help cap-and-
trade carbon emissions, GOD is going to be having to come up 
with billions of dollars every year. California wants to get to 
a level of 427 million tons, 84 million tons in one year of 
wildfire. How, in the world, can you affect the manmade carbon 
and overcome that 20 percent?
    So we have to mitigate it, and we have to slow down the 
carbon from those fires. When we do that, our people are 
putting those into wood pellets, and they are making 
electricity with it.
    There is a little guy up in Siskiyou County who has a 
nursery. He made some wood pellets to burn for his nursery 
heat. It gives him CO<INF>2</INF>-saturated air for his 
nursery. He has got better plants. He took those pellets, used 
pyrolysis, made some diesel. It is generating electricity. He 
is generating electricity on a scale that you can move through 
the local wires. A two-megawatt plant, two megawatts of power, 
you can move through the local wires. You do not need huge, new 
transmission lines.
    So these are the people who are on the ground, who are 
trying to be a world-class workforce to try to restore, 
maintain, and protect the public lands.
    So that is kind of where we are with adaptation and 
mitigation. In terms of the key laws, we firmly believe that 
the Organic Act, that NEPA, that the Multiple Use Act are so 
out of date as to be the impediment.
    [The prepared statement of Ms. Jungwirth follows:]

   Statement of Lynn Jungwirth, Executive Director of the Watershed 
   Center, Executive Director, Watershed Center, Hayfork, California

    I'd like to thank the committee for the opportunity to provide 
testimony at this important hearing. My name is Lynn Jungwirth and I am 
the Executive Director of the Watershed Center, a small community 
forest organization in the town of Hayfork, which lies in the middle of 
the Trinity National Forest in California. Since 1993, my organization 
has worked at the nexus of healthy forests and healthy communities. I'm 
privileged to work with the ``Rural Voices for Conservation 
Coalition'', a group of over 40 organizations working in local 
community forestry activities in the west. My organization is also a 
member of the Nature Conservancy's ``Fire Learning Network'' designed 
to help restore fire adapted ecosystems and create fire adapted 
communities. My testimony will include both my experiences working in 
the Trinity Forest and lessons from the broader experiences of my 
colleagues who work in Oregon, Washington, Montana, Idaho, New Mexico 
and Colorado. We have worked diligently over the past 15 years to 
promote the hard work of restoration and stewardship of national forest 
lands by doing the even harder work of multi-stake holder collaboration 
and partnership with the federal agencies.
    First, I'd like to thank you for taking leadership in acknowledging 
and examining the natural resource aspects of climate change. Your 
federal land communities have been proactive partners in figuring out 
how to protect the conservation gains of the past 30 years in the face 
of climate uncertainty. Rural communities and landscapes need your 
attention in preparing for the impacts of climate change. And yet, they 
can also play a significant role in reducing greenhouse gas emissions. 
Through this testimony, I attempt to offer lessons from rural 
landscapes and communities regarding the role of national forests in 
combating climate change.
    Climate change discussions in the U.S. have been framed by the 
approaches and agreements that came out of international negotiations 
of the United Nation's Framework Convention on Climate Change. These 
approaches have been dominated by an urban, industrial perspective that 
focuses on transportation, electricity generation, and large-scale 
manufacturing as the major sources of anthropogenic (man-caused) 
greenhouse gases and seeks to reduce emissions from those sources as 
the pivotal strategies for combating climate change. The rural, natural 
systems perspective is somewhat different, perhaps because rural 
communities and landscapes are experiencing the ecological stresses of 
climate change, including insect pandemics, intense wildfires, degraded 
fisheries, invasive species, and ecosystem conversion at an observable 
rate. We don't actually need the scientists to measure the change in 
climate; we are living it. We see the changes on the landscapes, the 
issues for forest management and policy, and we are helping develop 
responses and solutions. However, the way we see the issues and the 
solutions don't neatly fit the urban-industrial intellectual construct 
or the existing policy mechanisms or carbon markets.
    Urban citizens, of course, are experiencing the effects of climate 
change in their communities--through increased temperatures, urban heat 
islands, air conditioning bills, and air pollution--as well as through 
increased stresses on their urban forests, primarily insects and 
disease. Urban communities, however, will also experience the effects 
of climate change on rural landscapes through reduction of water 
quality and quantity, the growing taxpayers' burden of billion dollar 
fire suppression costs, and the social costs of poverty in public land 
communities. Urban citizens will soon experience the effects of climate 
change policy or regulation in higher costs for energy and incentives 
for energy efficiencies.
    The United Nations Framework Convention on Climate Change and the 
Kyoto Protocol did not address forests for various reasons, such as the 
difficulty of measuring carbon flux in dynamic natural systems, the 
long-term benefits of forest systems (relative to immediate benefits of 
industrial technology change), and the political controversy over 
whether forests should be included in carbon offset markets. Only 
afforestation and reforestation were accepted in the initial Kyoto 
protocol, while a later negotiation following Kyoto accepted forest 
management improvements and most recently, avoided deforestation.
    Progress on forests is being made through the protocol discussions 
at the international level, as well as in various regional and state 
protocol, such as those under the Chicago Climate Exchange and the 
California Climate Action Registry. But the progress is slow and the 
protocols are having difficulty addressing integrated forest 
activities, such as thinning forests to reduce wildfire risk and using 
the small-diameter woody by-products for community-scale bio-energy to 
offset fossil fuels. Nor do the protocols know how to effectively deal 
with the environmental and social ``co-benefits'' of forest activities. 
While these co-benefits should be seen as providing additional value to 
society, beyond the direct carbon benefits, they are difficult to 
measure.
    Due to the limited experience with carbon markets and accounting, 
we are only beginning to learn how to do the hard work of ``full life-
cycle accounting.'' This life-cycle accounting is essential for the 
carbon markets to function well and critical to helping illustrate that 
the supply chains of many urban products come from rural economies and 
rural soil, forests and grasslands.
Reducing Greenhouse Gas Emissions
    There are five strategies outlined in the McKinsey and Co. 2007 
report ``Reducing U.S. Greenhouse Gas Emissions: How Much at What 
Cost?'' They are listed with their abatement potential:
    1.  Increasing energy efficiencies in building and appliances--710 
to 870 megatons
    2.  Increasing fuel efficiency in vehicles and reducing carbon 
intensity of transportation fuels--340 to 660 megatons
    3.  Pursuing various options across energy intensive portions of 
the industrial sector--620-770 megatons
    4.  Expanding and enhancing carbon sinks--440 to 590 megatons
    5.  Reducing the carbon intensity of electric power production--800 
to 1570 megatons
    We can expand and enhance carbon sinks through stewardship 
activities on public land. In fact, the McKinsey report offers active 
management of our private forestlands as the least cost alternative 
available to the United States. Healthy, resilient forests sequester 
carbon. In the Trinities, we started 12 years ago, thinning overstocked 
stands both for hazardous fuels reduction and to improve the quality of 
the spotted owl habitat. Subsequent measurement has show increased 
growth rates in the remaining trees. The carbon sink is increasing. 
What is not so obvious is that forest restoration can also provide 
biofuels for transportation, reduce carbon intensive energy use in the 
industrial sector through combined head and power biomass plants, and 
reduce the carbon intensity of electrical power by co-firing coal 
plants with wood pellets and using woody biomass for electrical 
generation (a common strategy in the European Union). Four of the five 
strategies in the McKinsey and Co. report can be addressed through 
forest stewardship activities.
Climate Change and Wildfire: Social, economic and environment issues
    There is no discussion in the McKinsey and Co. report on the GHG 
emissions from wildfire. However, some studies suggest wildfire and 
forest burning account for about 30% of global GHG emissions. Here in 
the United States, we average about 100,000 wildfire starts a year. 
About 50% of those are from human activity, about 50% from lightning. 
The precise quantification of GHG emissions from wildfire is still in 
debate. The California North Coast Air Quality Management District used 
Air Resources Board methodology to estimate the GHG emissions from two 
fire events in Trinity County--the 2002 Megram Fire (100,000 acres) and 
the 2008 Trinity Fire Complexes (200,000 acres). The estimates were 1.5 
million vehicle year equivalents for the Megram Fire and 2 million 
vehicle years for the 2008 Trinity Fire. Vehicle years provides an 
urban frame for GHG emissions. For rural communities, however, the 
frame is weeks of smoke so thick you can't see across the street, 
increased chronic obstructive pulmonary disease (COPD) in our elders, 
salmon streams full of sediment, rivers and ponds filled with debris, 
the decline of our tourism/recreation industry, the loss of our 
precious timber resources, and, this year, the death of 11 
firefighters. These are not the fires of our childhood when low 
intensity fires would ``skunk around'' in the undergrowth, herded by 
local ranchers and the Forest Service. Those fires were fires of 
renewal. Today's fires are those of ecological, social and economic 
destruction.
The Trinity Forest
    The Trinity Forest is in the Northwest Forest Plan for the Recovery 
of the Spotted Owl. The primary driver of management activities in the 
Trinity Forest is preserving biodiversity, especially those species 
associated with old growth forests. The Spotted Owl plan led to a 
dramatic reduction in logging and the subsequent destruction of our 
economy (today the unemployment rate in Hayfork is 21.3%). At that 
time,(the early 1990s) the theory was that a forest protected from 
logging and a landscape of reserves and corridors would protect the 
species. Today, Jerry Franklin and Norm Thompson, the architects of 
that plan, encourage management in these vulnerable dry forests to 
reduce fire intensity and protect old growth forests. Their subsequent 
studies have shown increasing die-off in old growth stands due to 
changed hydrology. In 15 short years, climate change has dramatically 
changed strategies for endangered species recovery and old growth 
protection.
    The forest restoration activities done today in the Trinity Forest 
are often called hazardous fuels reduction, but are actually much more 
sophisticated than a simple fuels prescription. Care is taken to 
enhance wildlife habitat, protect fire resistant trees, and minimize 
soil compaction and disturbance. Experience (and science) has taught us 
that the initial thinning must be followed by a prescribed fire and the 
area must be maintained by periodic burnings overtime. While these 
thinning and burning activities themselves produce some CO<INF>2</INF> 
equivalents, recent studies indicate that such pre-treatments can 
reduce the CO<INF>2</INF> equivalent emissions of intensive wildfire by 
up to 70% in some stands.
    There is still much debate among the scientific community as to the 
carbon abatement values of such forest management (because of the 
carbon released during the thinning and prescribed burn and the 
uncertainty about whether treated areas will actually experience 
wildfire within a number of years). However, there is little debate 
(and significant evidence) that such treatments reduce the intensity 
and often stop, wildfires.
    There is, likewise, debate regarding the removal of fire-killed 
vegetation after one of these fire events. The concern is that such 
``logging'' negatively impacts the soil carbon and soil productivity. 
The people of Trinity County have now experienced ``re-burns'' in areas 
where fire-killed trees were not removed after the 1987 and 2000 fires. 
When stands of fire-killed trees dry for 8-20 years and then burn 
again, the fire is intense and resistant to control. The soil 
volatilizes along with the trees. There is no question that nearly 90% 
percent of the tree carbon and most of the soil carbon is released in 
this second burn. Ecosystem conversion often follows. The forest moves 
back to meadows, then brush fields and then, burning again, remain in 
brush. In the words of Tom Jimmerson, an experienced forest ecologist 
who lived and worked in the Trinity Mountains and Coast Ranges of 
California for years, after studying a re-burn in the Siskiyou 
Mountains, ``We just blasted this area back to the stone age.'' Some 
have said it would take significant investment in rehabilitating these 
sites, once they have been converted, if we want to reforest them.
    A few cases studies were examined in a 2007 report for the 
California Energy Commission. In ``Biomass to Energy: Forest management 
for wildfire reduction, energy production, and other benefits'' the 
authors (Ganz, et al) modeled thinning, transporting, and converting 
biomass into electrical power in the Sierras and compared those models 
to the ``no-treatment'' models. Their findings show clear life cycle 
climate change benefits, including a 65 percent net reduction in 
greenhouse gas emissions. They also show a 22 percent reduction in the 
number of acres burned by wildfire and a dramatic drop in fire 
severity, showing a $246 million savings in wildfire damage and $13 
million in fire suppression costs. They predict that even greater 
reductions could be anticipated by strategically locating thinning 
projects in areas of high hazard. They also showed that about $1.58 
billion in power revenues, assuming an 8.3 cent kilowatt hour with a 
negligible amount of fossil fuel consumed in the harvest and production 
of that power.
    This study points to the cross sectoral benefits of federal forest 
restoration: Jobs, renewable energy, reduced fire suppression costs, 
reduced resource damage and protection of wildlife habitat and carbon 
sinks. It helps us begin to put a frame of ``ecosystem services'' 
around federal land management. I believe it is this larger frame 
(which will include climate change mitigation) that should and will be 
the driver for federal land management for the foreseeable future.
Carbon Markets
    For the purpose of carbon markets, there is great uncertainty 
regarding forests in general and their ``quantify-ability'' regarding 
carbon. The scientific community is careful to bracket their numbers 
regarding forest ecosystem carbon above and below ground with the 
caveat ``within the limits of current measurements''. Likewise, 
estimates of fire CO<INF>2</INF> emissions are hampered by our lack of 
knowledge about carbon deposition, rates of atmospheric vs. soil 
incorporation of dead wood carbon, ``real'' soil loss, among other more 
esoteric topics. Undoubtedly, numerous conventions for forest carbon 
and forest carbon emissions from wildfire will abound over the next few 
years as better minds than mine tease out these important details. The 
CCAR in California is taking the lead on this and their work is 
enlightened and inspiring.
    In most cap-and-trade approaches, forests do not fall under the 
cap, but they are still very important as ``sinks'' that sequester and 
store carbon and as ``sources'' that emit carbon (through wildfires, 
conversion, certain management actions, and mortality). Forest projects 
that sequester and store carbon or reduce emissions have been 
considered as carbon offset projects, but appropriate protocol for 
forest-sector offsets have been difficult to agree upon, partially 
because of the technical difficulty in applying ``industrial'' protocol 
to natural or biological systems and partially because of disagreement 
among policy interests. However, protocol such as the CCAR are moving 
forward through transparent, multi-stakeholder, working group 
processes. Currently, forest project options are limited to 
reforestation, conservation management, and avoided conversion, but the 
working group is trying to develop accounting approaches for 
appropriately quantifying carbon in harvested wood products.
    One of the major protocol challenges is trying to account for the 
emissions benefits of integrated, cross-sectoral projects, such as 
forest restoration projects that enhance forest health, reduce wildfire 
risk and emissions, and provide woody fuels for bioenergy that offsets 
fossil fuels. (Interestingly, the CCAR has been able to agree to Urban 
Forest Protocol, but only allow the carbon directly sequestered in 
trees to be counted, not the avoided emissions associated with the 
well-documented energy conservation benefits achieved through shading 
homes and buildings.)
    In addition, beyond carbon offset markets, attention is needed to 
develop forest management strategies that will: 1) help forests and 
communities adapt to the unavoidable effects of climate change; (We 
need to do vulnerability assessments at appropriate scales and help 
communities and agencies understand the management steps we need to 
take to keep our forests as forests.) and 2) help develop carbon 
mitigation strategies that public and private landowners can take to 
manage their forests in ways that will increase sequestration and 
storage or reduce emissions--even though they may not meet the same 
protocol being developed by the offsets markets.
    Federal policy frameworks (e.g., cap-and-trade) that promote the 
establishment and trading of carbon credits through markets can help 
support rural communities. Such frameworks can stimulate 
entrepreneurial activity and encourage investment in forest-sector 
projects that provide credible and verifiable carbon benefits, while 
also enhancing ecosystem services and providing economic development 
opportunities for rural communities. It is critical, however, for these 
policy frameworks to:
    1.  encourage broad and diverse participation in forest-sector 
offset projects,
    2.  ensure that project scale enhances environmental and community 
economic gains,
    3.  maintain the sustainability of natural resources for future 
generations, and
    4.  benefit local communities.
The Cost (and benefits) of Carbon
    We believe a cap-and-trade system and markets for carbon trading 
are coming. Our vision is a system of Payment for Ecosystem Services 
(PES) of which carbon is but one service. We know that water--another 
major ecosystem service--is on the horizon as a policy issue with 
potentially huge market values and policy implications. We are also 
exploring information on ``rights-based conservation.'' However, those 
systems are in their infancy and the imperative of climate change 
effects on our forests are now. So today the great question is the 
source of the money to pay for federal forest restoration. The by-
products of forest restoration and hazardous fuels treatments have 
little market value to date, largely due to uncertainty of supply.
Carbon offset markets:
    Voluntary markets for carbon offsets, such as the CCAR, will 
provide additional revenue opportunities to private landowners, as 
these markets evolve and begin to function effectively. (Market 
function has a learning curve, as has been learned largely because of 
the European Union's Emissions Trading Scheme (ETS). Private landowners 
will look for innovative ways to participate in these carbon markets, 
particularly as market credibility grows and as protocol for broad and 
clear participation is improved.
    The RVCC also encourages the participation of public lands in 
carbon offset markets, so we are pleased to see the recent revision 
(December 2008) of the CCAR Forest Protocol to allow this. It must be 
clear, however, that public lands also need additional funding, beyond 
carbon offsets, for climate change adaptation and mitigation 
strategies, as discussed below.
Beyond Offset Markets
    For the past ten years, the Rural Voices for Conservation Coalition 
has brought to congress two fairly detailed discussions: 1) a line-item 
by line-item analysis of an integrated forest restoration budget, and 
2) a proposal for performance measures and accountability that would 
lead to integrated forest restoration implementation. Moving from 
appropriated dollars to payment for ecosystem services will take time, 
but help to foster an investment in services that will contribute to 
resilient communities and landscapes, while also reducing greenhouse 
gas emissions.
Traditional appropriations:
    The annual appropriations for the federal land management agencies 
should continue to support the missions and programs of the agencies, 
while focusing on how to integrate climate change and other ecosystem 
services issues and developments into these programs. This is a 
strategic set of issues for the agencies and policymakers. One day, 
perhaps, we will see a line item dedicated to integrated restoration 
with clear direction for its use.
Values/Revenues from Emission Allowances:
    Policymakers should also include a portion of the revenues 
generated through the allocation or auction of emission allowances 
under a cap-and-trade system to the forestry programs noted in the RVCC 
priorities. Forests and natural landscapes represent an important part 
of our national carbon emissions flux, and they do not fit easily into 
the urban-industrial framework for carbon offset markets under cap-and-
trade. They need additional sources of funding to address the threats 
of climate change, to capture the mitigation opportunities, and to 
recognize the essential co-benefits provided by forest-sector projects.
Forest Restoration and Rural Green Jobs
    For the past 15 years, my organization and others like it have 
operated federal forest restoration and hazardous fuels programs. The 
job creation potential of federal land stewardship and restoration is 
tremendous. The proper investment of those dollars can create a world 
class, highly skilled, knowledge based workforce. Management for 
ecosystem services is knowledge intensive and requires a workforce 
committed to place.
    Those jobs and skills include:
    <bullet>  Ecosystem surveys and data collection;
    <bullet>  data analysis;
    <bullet>  GIS analysis tools;
    <bullet>  collaborative facilitation;
    <bullet>  road stabilization;
    <bullet>  road removal;
    <bullet>  in-stream habitat improvement;
    <bullet>  wildlife habitat improvement;
    <bullet>  riparian protection structures;
    <bullet>  boundary line surveys;
    <bullet>  forest thinning;
    <bullet>  prescribed burning; and
    <bullet>  effectiveness monitoring.
    This highly skilled ``restoration'' workforce can also be cross-
trained for fire fighting, increasing the number of locally available, 
skilled workers for initial attack in fire emergencies. The restoration 
workforce will be able to put fuels treatments on the landscape to pre-
prepare for fire suppression activities and thereby reduce the costs of 
fire suppression. They will also help in determining the proper use of 
fire during the year, and help implement those decisions.
    Restoring the federal forests of the west, in order to protect and 
enhance carbon sinks and to make the forest more resilient in the face 
of climate change has other benefits to rural economies as well. The 
by-products of forest management (brush, smaller trees, etc.) can 
provide fuel to replace fossil fuels. But, scale is the issue. A 
network of small, community-scaled combined heat and energy plants will 
not require huge investments in transmission lines (up to 3MW of power 
can be transmitted over local lines). Such facilities also allow a 
community to diversify its economy, adding dry-kilns, green-houses and 
other heat users.
    Likewise, as more local renewable power becomes available and as 
forested landscapes remains green and healthy, other green economy 
sectors may more eagerly locate in rural America. They will not 
relocate so easily to a landscape that looks like an ashtray. But, 
public policy must deliberately limit the scale and the ownership of 
these facilities. We have seen devastation in local communities from 
wood energy plants. In the North Eastern United States, for example, 
large wood pellet facilities replaced aging pulp mills. Not only did 
these 300,000 ton facilities monopolize the market for local wood, but 
the pellets were shipped to Europe for co-firing in coal plants. The 
locals were left with no ownership of the business, less diversity in 
their economic system, less fire wood for their own heating, and they 
were not allowed to purchase pellets from the facility. Similar plants 
are being built in the South West and in my home state of California.
    After a forest burns in a stand replacing fire, the adjacent 
community loses many economic options. When the 1987 fires burned 
67,000 acres in the Trinity Forest we recomputed the ``allowable sale 
quantity''. It dropped from roughly 160 mmbf to roughly 40 mmbf. There 
are few stewardship opportunities in a fire-killed forest, aside from 
the erosion control efforts immediately after the fire. If the forest 
is federal, the fire-killed fuels are currently not removed, new trees 
are not planted, and the land is left to recover without the hand of 
man. So the community is left with no forest to manage and no forest 
products for decades. It is in our best interest, for many reasons, to 
help the forest accommodate fire, and not succumb to it.
    Our rural federal lands communities are among the most vulnerable 
to climate change impacts. Not only is our landscape changing before 
our eyes, but when the markets kick in, we will disproportionately feel 
the weight of higher energy markets because our options will be more 
limited. Higher gas and diesel prices cannot push us to mass transit 
where no such systems exist. When higher electrical costs encourage 
increasing the energy efficiency of our homes, tax credits will only 
incentivize those who pay significant taxes. We are asking for a better 
solution for rural America. Help us be energy independent. Help us turn 
our forest thinnings into biofuels, heat and electricity. Help our 
contractors and workers access the work in the woods that improves the 
carbon sink and protects our forests from fire, insects, and disease. 
Help us create a network of community scale production facilities for 
wood pellets and wood energy.
Beyond the Trinity Forest
    Community groups throughout the west have been working against the 
odds to restore America's forests. We helped forge the agreements that 
led to the National Fire Plan. That agreement included five strategies: 
Fire Suppression, Forest Restoration (pre-fire and post fire), 
Hazardous Fuels Reduction, Community Assistance, and Accountability.
    This integrated approach, which honors all the ecosystem services 
of the forest, including the service fire can provide, must be the 
basis of national climate policy as well. It speaks to the larger issue 
of maintaining our truly ``green'' infrastructure. Through our work 
with endless local collaborative groups we have learned that the social 
process is the key to creating good solutions and meaningful agreement 
regarding forest restoration.
    The role of federal lands in combating climate change can be a 
national policy decision. How to achieve that, while maintaining 
habitat and economies, must be figured out and agreed to at the ground 
level. Top down will not work in this instance.
    National policy addressing climate change, currently being 
developed in Congress will have dramatic effects on rural communities 
and landscapes. Specific components of national climate change policy, 
such as how resources are prioritized, credit allocation or 
distribution, offset eligibility, or the opportunity to participate in 
emerging markets will affect rural communities and landscapes. 
Therefore, rural communities should have a role in the collaborative 
development of those policies. Because of the current uneven playing 
field between urban/industrial perspectives and rural/natural systems 
perspectives, there are a few principles we'd like you to consider:
    1.  Federal and state governments should foster the development and 
dissemination of reliable climate change information and tools to help 
build public understanding of the issues. Governments should especially 
help rural communities develop climate change assessments, strategies, 
plans, and monitoring schemes. We need to learn together and change 
together.
    2.  Federal and state climate change policies must ensure that low-
income and other vulnerable populations receive assistance with climate 
change impacts. Needs of the rural poor may be significantly different 
that those of urban low-income areas.
    3.  Federal and state strategies for public and private forest land 
management should integrate climate change considerations within 
collaborative, landscape-scale restoration efforts.
    4.  Markets for forest carbon-offsets and ecosystem services should 
encourage broad and diverse participation, provide access and 
opportunity for rural communities, and clearly address issues related 
to project scale, sustainability, and benefits to local communities.
    5.  Federal and state climate change policies should provide 
technical and financial assistance to rural communities for capacity 
building and workforce training to implement both adaptation and 
mitigation strategies.
Ending Statement
    So why should the federal government play a role in helping to 
address these challenges? And how should you proceed? The lands 
surrounding these communities are in dire need of integrated 
management, and there is an opportunity right now, though the 
investment of economic stimulus dollars, the development of new 
legislation around fire suppression and climate change, and the 
significant investment in renewable energy in the United States to 
think critically and act deliberately in ensuring that actions on 
federal land are playing a role in climate change adaptation and 
mitigation.
    Climate change and the physical risks of climate change has led us 
to reconsider all of our federal forest management decisions and 
strategies on the Trinity Forest. The Trinity Forest is a nice little 
forest. It is over a million and a half acres in the Klamath Knot, one 
of the most biologically diverse areas on the planet. Please don't 
manage it for carbon. Manage it to be resilient. Manage it to prepare 
for the impacts of climate change. Manage it to be here for another 400 
years. If you do, the carbon sink will come. The GHG emissions from 
wildfire will drop. The biofuels can be developed. The renewable energy 
will be developed and sustained. The owl and the coho will have a 
chance at survival. And so will we.
                                 ______
                                 
    Mr. Grijalva. Thank you very much.
    Our last panelist, Mr. Forrest McCarthy, Public Lands 
Director, Winter Wildlands Alliance. Welcome, and I look 
forward to your testimony.

 STATEMENT OF FORREST McCARTHY, PUBLIC LANDS DIRECTOR, WINTER 
           WILDLANDS ALLIANCE, TETON VILLAGE, WYOMING

    Mr. McCarthy. Thank you, Mr. Chairman and Members of the 
Subcommittee. I am Forrest McCarthy. I live in Jackson Hole in 
the Great State of Wyoming, and I am the Public Lands Director 
of Winter Wildlands Alliance, and I have been an Alpine 
Mountain and backcountry ski guide for almost 20 years.
    During my travels, I have become the first person to set 
foot on B-15, the largest iceberg ever recorded, near the Ross 
Ice Shelf in Antarctica. As a physical geographer, I studied 
how rapidly warming temperatures are transforming land cover in 
arctic Alaska.
    Today, I am testifying on behalf of the Outdoor Alliance, a 
coalition of six national, member-based organizations that 
represent the interests of millions of Americans who climb, 
hike, paddle, mountain bike, backcountry ski, and snowshoe in 
our nation's public lands, waters, and snowscapes.
    Not unlike indicator species, human-powered, outdoor 
pursuits can be seen as ``indicator activities'' because we are 
some of the first people to experience the impacts of climate 
change on our public lands.
    A personal loss for me is the legendary Black Ice Couloir 
on the northwest face of the Grand Teton. Today, due to warming 
temperatures, all of that ice is now gone, and future 
generations of mountaineers will never have the opportunity to 
ascend one of the most renowned alpine climbs in North America.
    Our community's self-interest in combating climate change 
is couple with the insight on how Federal lands can help us 
meet this challenge, and we are honored to share those with you 
today.
    First, Federal lands must facilitate ecosystem adaptation 
that protects flora and fauna but also takes into account the 
human aspects of the landscape. Adaptation policy should 
include preserving and protecting large tracts of open space, 
much of it on Federal land. Our system of national trails, and 
the critical open space through which they run, from the 
Appalachian Trail to the Pacific Crest Trails, is a model of 
how this can be achieved.
    Taking care of our ecosystems must take precedence over how 
we enjoy and profit from them, but there is an argument for 
conceptualizing adaptation goals and policies a little more 
broadly. Because the ecosystems mean something to people, our 
adaptation policy should take into account how climate change 
will impact Federal lands as these lands relate to sustainable 
human uses, including the associated impacts to the outdoor 
recreation economy.
    Second, Federal lands must simultaneously be protected as 
carbon sinks and thoughtfully developed for renewable energy. 
Federal lands contain millions of acres of forests and 
grasslands, so they not only store carbon but also remove it 
from the atmosphere. Federal lands can thus be used to combat 
climate change by maximizing the amount of forest and 
grassland.
    We support a portfolio approach to land designation that 
includes wilderness areas, national scenic areas, national 
recreation areas, and, especially, open-space designations in 
close proximity to population centers.
    To adequately reduce carbon emissions, alternative energy 
sources and technologies must be developed and pursued on 
Federal land. While the outdoor community welcomes the 
development of clean, renewable energy, we insist that this 
path is pursued in a balanced manner that takes into account 
other aspects and values of Federal land.
    An example of this balance is the Federal Power Act's 
equal-consideration clause. When rivers are developed for 
hydropower, the equal-consideration clause ensures that the 
needs of fish and wildlife are addressed, recreational 
opportunities of the river are provided, and local communities' 
needs are considered.
    The role for Federal land is thus to aggressively combat 
the increase in atmospheric carbon but not at the expense of 
other inherent values of the land.
    Third, healthy Federal land is our common ground and can 
unify all Americans for the present and future challenges 
associated with combating climate change.
    Stabilizing our climate will require change and sacrifice, 
but there must be some social rewards woven into the plan to 
assure that the public is vested in the effort over the long 
term.
    Healthy public lands provide a tangible benefit for our 
sacrifices and commitment to protecting our climate. Our public 
lands provide the opportunity for Americans to stay connected 
to the natural world, and, through this connection, we will 
have the commitment and collective endurance to achieve this 
goal of stabilizing our climate.
    In conclusion, we believe that facilitating ecosystem 
adaptation, protecting carbon sinks while supporting careful, 
renewable energy development, and motivating long-term public 
support for these challenges through enhanced Federal lands can 
be pursued in a manner where they can co-exist and complement 
each other.
    When climbing North America's highest mountain, Mount 
McKinley, climbers make momentous sacrifices. The climb is 
expensive, grueling, and dangerous, yet, every year, over a 
thousand aspiring summiteers embrace the challenge, yet, every 
year, fear, tempered with planning and commitment, the 
suffering, with the splendor of the view from the top of North 
America, like climbing Mount McKinley, the road to a stable 
climate will be challenging and committing. There is a great 
deal of fear from inaction, but we have a great deal to gain by 
being thoughtful, decisive, and doing this right.
    Thank you for the opportunity to appear before the 
Subcommittee.
    [The prepared statement of Mr. McCarthy follows:]

            Statement of Forrest McCarthy, Outdoor Alliance

    Mr. Chairman and Members of the Subcommittee:
    I am Forrest McCarthy. I live in Jackson Hole, Wyoming and I am the 
Public Lands Director of Winter Wildlands Alliance. I also serve on the 
Teton County Planning Commission, and have been an alpine mountain and 
backcountry ski guide for almost twenty years. As a mountain guide, I 
have had the privilege to spend a great deal of time in places like 
Antarctica, South America, Alaska and my home state of Wyoming.
    During my travels I became the first person to set foot on B-15, 
the largest iceberg ever recorded, near the Ross Shelf in Antarctica. 
My time in the Polar Regions later inspired me to earn a master's 
degree in physical geography from the University of Wyoming, where I 
studied how rapidly warming temperatures transform arctic Alaskan land 
cover. By replicating historic photographs I documented not only the 
recession of glaciers, but also the thawing of permafrost and 
advancement of shrubs, tundra, and tree cover.
    Today, I am testifying on behalf of the Outdoor Alliance, a 
coalition of six national, member-based organizations devoted to 
conservation and stewardship of our nation's public lands and waters 
through responsible human-powered outdoor recreation. Outdoor Alliance 
includes: Access Fund, American Canoe Association, American Hiking 
Society American Whitewater, International Mountain Bicycling 
Association, and Winter Wildlands Alliance and represents the interests 
of the millions Americans who hike, paddle, climb, backpack, mountain 
bike, backcountry ski and snowshoe on our nation's public lands, waters 
and snowscapes.
    Not unlike indicator species, human-powered outdoor pursuits can be 
seen as ``indicator activities'' with respect to climate change because 
we are some of the first people to experience the impacts of climate 
change on our public lands. Declining snowpack shortens ski and 
snowshoe seasons, makes alpine climbing more dangerous and can 
eliminate ice climbing altogether. Less snowpack also means less water 
in our creeks, rivers and lakes for paddling. Higher temperatures and 
prolonged droughts create severe imbalances in forest, alpine, desert, 
and river ecosystems that stress native species and degrade the quality 
of the outdoor recreation. One of the results of this imbalance, 
increased wildfire activity, directly impacts pursuits such as rock 
climbing, hiking and mountain biking and our collective ability to 
enjoy public lands.
    A personal loss for me is the legendary, Black Ice Couloir, a 
challenging ice climb high on the northwest face of the Grand Teton. 
Today, due to warming temperatures, all the ice is gone and future 
generations of mountaineers will never have the opportunity to attempt 
one of the most renowned alpine climbs in North America.
    The outdoor community's interest in climate protection is 
axiomatic--the places where we conduct our outdoor pursuits and that 
support the $730 billion annual outdoor recreation economy are 
imperiled by a warming climate. Our self interest in combating climate 
change, however, is coupled with some distinct insight as to how our 
federal lands can help us meet this challenge, and we are honored to be 
able to share these insights with you today.
    As of late, it seems that the primary role of federal lands in 
combating climate change is to passively provide evidence of not only 
the existence of climate change, but also the rapidity with which it is 
taking place. We envision a more proactive, three-part role for federal 
lands in combating climate change.
I.  Federal Lands Must Facilitate an Ecosystem Adaptation Policy That 
        Protects Flora And Fauna, but Also Takes into Account the Human 
        Aspects of Federal Lands
    In prior Congresses, both chambers generated thoughtful legislative 
approaches to climate protection. Wisely, some of these approaches 
directed towards ecosystem protection some of the revenues from market-
based efforts to cap and reduce carbon. As we understand it, adaptation 
is the portfolio of efforts to counteract the effects of a warming 
climate on ecosystems and the flora and fauna therein.
    Federal lands are where much ecosystem adaptation activity will 
take place, and federal land management agencies will likely play a 
material role in designing and implementing adaptation policy. 
Adaptation policy should include preserving large tracts of open space 
through a pragmatic approach ranging from protective federal 
designation to voluntary conservation easements. Adaptation must also 
include physical structures and land management techniques to 
facilitate migration and land use planning that puts a premium on 
contiguous open space. Our system of national trails and the critical 
open space through which they run, from the Appalachian Trail to the 
Continental Divide and the Pacific Crest Trails, may very well assist 
in this objective.
    A universal aspect of human-powered outdoor pursuits is that they 
take place outdoors in a context that includes not only the topography 
and gradient of a given place, but the flora and fauna as well. The 
ecosystem is not merely the setting for our pursuits; it is the very 
substrate. Taking care of the ecosystem must take precedence over how 
we enjoy and profit from it. We say this without qualification given 
the longstanding conservation and stewardship ethic in the outdoor 
community. This said, we also think there is an argument for 
conceptualizing adaptation goals and policies a little more broadly.
    Long before people recognized the idea of an ecosystem, individual 
parts were honored through everything from creation myths and totem 
poles to the landscapes of the Hudson River School artists and our 
government's foresight in creating a National Park System almost 100 
years ago. In addition to being the home to plants and animals, 
ecosystems and landscapes mean something to people, particularly to 
Americans. We suggest that as adaptation policy is developed and 
implemented, some consideration is given to how climate change will 
impact federal lands, waters and snowscapes as they relate to 
sustainable human uses. Consideration should include not only human-
powered recreation uses, but also the associated economic impacts to 
the outdoor recreation economy and other traditional uses such as 
hunting, fishing and wildlife enjoyment.
    This concept was explored last Congress in the Leiberman-Warner 
Climate Security Act of 2008, S. 3036, where a provision specifically 
directed the Secretaries of the Interior and Agriculture to take into 
account ``the potential to provide enhanced access to land and waters 
for fishing, hunting, and other public recreational uses'' when making 
spending decisions for adaptation purposes. S. 3036, 110th Cong. 
Sec. 4702(c)(4) (2008). We encourage both chambers to further explore 
this concept as it develops climate protection legislation in this 
Congress.
II.  Federal Lands Must Simultaneously Be Protected As Carbon Sinks And 
        Thoughtfully Developed For Renewable Energy
Federal Lands as Carbon Sinks
    Our federal lands contain millions of acres of forests and 
grasslands. As trees, plants and other organic material not only store 
carbon, but remove it from the atmosphere through photosynthesis, we 
think that another critical role federal lands can play in combating 
climate change is maximizing, to the extent practicable, the amount of 
forest land, both old growth and reforested areas.
    Protecting and enhancing forest carbon sinks can be pursued in a 
number of ways, but primarily through land designations and strategic 
acquisitions that protect existing forests and reduce development 
sprawl. We support a portfolio approach to land designation that 
includes wilderness areas, national scenic areas, national recreational 
areas, and especially open space designations in close proximity to 
population centers. These goals need not wait for climate protection 
legislation, but could be achieved, in part, by permanently protecting 
inventoried roadless areas in the Forest System, passing the Omnibus 
Public Land Management Act of 2008, and reauthorizing the Federal Land 
Transaction Facilitation Act before it expires in 2010.
    In addition to the protective designations and strategic 
acquisitions of federal land itself, there may be a role for federal 
land management agencies to facilitate or encourage the protection of 
state and private forestland for its carbon sink attributes.
Thoughtful Renewable Energy Development
    Despite the great assistance forested federal lands provide in 
climate change mitigation from their natural function, such mitigation 
will not offset man-made carbon emissions enough to protect the 
climate. To adequately reduce carbon emissions, alternative energy 
sources and technologies must be developed and much of this development 
will take place on federal land. While the outdoor community heartily 
welcomes the chance to reduce the nation's reliance on energy sources 
and technologies that damage our climate, we insist that this path is 
pursued in a manner that takes into account other aspects and values of 
federal land. Given the scale of renewable energy projects needed to 
adequately deal with climate protection, the landscape impact of 
renewable energy projects, including solar arrays, wind farms (and the 
necessary transmission lines) may very well dwarf the landscape impacts 
of traditional energy projects.
    As evidenced by our nation's current hardrock mining policy, when a 
single use of federal land is generally allowed to trump all other 
uses, the costs will eventually outweigh the benefits (especially if 
the policy is essentially left in place for 137 years). Thankfully, 
there are other federal laws on the books that balance the multiple 
uses of federal land more evenly, such as the Federal Power Act, 16 
U.S.C. Sec. 791a, et. seq. In outlining the powers of the Federal 
Energy Regulatory Commission (FERC) to issue licenses for the 
construction of hydropower projects, the statute requires FERC to:
        [G]ive equal consideration to the purposes of energy 
        conservation, the protection, mitigation of damage to, and 
        enhancement of, fish and wildlife (including related spawning 
        grounds and habitat), the protection of recreational 
        opportunities, and the preservation of other aspects of 
        environmental quality.
Federal Power Act Sec. 797(e), 16 U.S.C. Sec. 791a (2008).
    The practical effect of the equal consideration language, and the 
fact that hydropower projects are subject to a fixed term of 30 to 50 
years, is that FERC must balance power and non-power values in their 
decision process. When rivers are developed for hydropower, mitigation 
measures ensure that the needs of fish and wildlife are addressed, 
recreational opportunities on the river are provided, and local 
communities' needs are considered. In other cases where ecosystem and 
recreation values outweigh the value of the river for hydropower 
development, projects are not constructed or in some cases removed at 
the end of their license term.
    The outdoor community believes that analogous language to the 
Federal Power Act's equal consideration clause should be used to guide 
the pending development of alternative and renewable energy projects on 
federal land. We also believe that this language may be appropriate for 
other endeavors to reduce carbon in the atmosphere, such as 
subterranean carbon sequestration, or other yet to be developed 
engineering techniques. The role for federal land is thus to 
aggressively combat the increase in atmospheric carbon, but not at the 
expense of the other inherent values of the land.
    Aside from legislative direction, we also feel that it is incumbent 
upon all public lands user communities, from recreation communities to 
the businesses that rely on federal lands, to work directly and 
proactively with the renewable energy community. We believe this effort 
should develop common ground, and possibly some best management 
practices for assuring that renewable energy production and 
transmission can coexist with other sustainable uses of federal public 
land.
III.  Healthy Federal Land is Our Common Ground and Can Unify All 
        Americans for the Present and Future Challenges Associated with 
        Combating Climate Change
    Climate change is typically framed in dramatic and sobering terms. 
Currents of fear and guilt associated with an energy-intensive 
existence permeate much of the conversation, and there is great anxiety 
not only over the changes to the natural world, but the anticipated 
changes to the American economy and way of life. Though fear can be an 
excellent motivator in the short term, too much of it can lead to 
fatalism and apathy. Climate protection legislation is really only one 
of the first steps in a nation-wide effort that will last for decades. 
Fear must be tempered with hope and the expectation that there will be 
some positive developments along the way.
    When climbing North America's highest mountain, Mount McKinley, 
climbers make momentous sacrifices. Ascending McKinley is expensive, 
long, grueling, and dangerous. Yet every year over a thousand aspiring 
summiteers embrace the challenge. When climbing McKinley it is critical 
that climbers respect the mountain and understand the inherent risks 
involved. However, if an expedition exercises careful planning, good 
judgment, team work, effective communication, acute awareness, and 
commitment, the risks can be managed and the goal of reaching the 
summit obtained. Like climbing McKinley, the road to a stable climate 
will be challenging and committing; we must not be fearful, but rather 
thoughtful, careful and decisive.
    Stabilizing our climate will require change and sacrifice, but 
there must be some public rewards woven into the plan to assure the 
public remains vested in this critical effort over the long term. 
Healthy public lands provide a tangible reward for our sacrifices and 
commitment to protecting our climate and the ecosystems that depend on 
it. Public lands provide citizens with the opportunity to view 
wildlife, play in the rivers and snow, test one's skills on a steep 
rock or a single track, and experience first-hand the natural world. 
The importance of our public lands transcends their value as refuge for 
wildlife or as natural carbon sinks, they are the refuges for people as 
well. Our public lands provide the opportunity for Americans to stay 
connected to the natural world. Only through this connection will we 
have the commitment and collective endurance to achieve the goal of 
stabilizing our climate.
Conclusion
    As Congress pursues this daunting, but profoundly necessary 
legislative effort; Outdoor Alliance encourages a central role of 
science and perhaps a new level of bureaucratic flexibility to better 
cope with the interrelated nature of the challenges ahead.
    Because different parcels of federal lands are managed according to 
the priorities and peculiarities of the different land management 
agencies' organic acts, there is some utility in exploring new ways 
that the federal land management agencies can work collaboratively on 
climate protection. Likewise, we believe that the three roles for 
federal lands outlined in this testimony--facilitating ecosystem 
adaptation, protecting carbon sinks while supporting careful renewable 
energy development, and motivating long-term public support for the 
associated challenges, should be pursued in a manner where they can 
coexist and complement each other.
    Thank you for the opportunity to appear before the Subcommittee.
                                 ______
                                 
    Mr. Grijalva. Thank you very much for your testimony.
    Let me ask a couple of questions. Mr. Ridgeway, going back 
and referencing that fourth point about the involvement of 
private landowners in the process of identification and 
development of corridors, the discussion today has been about 
public lands, but the question is, how should private 
landowners be involved and connected to this process that you 
pointed out that they are an essential part of as well?
    Mr. Ridgeway. Yes. As you point out, Mr. Chairman, private 
landowners will be very essential to the protection of wildlife 
corridors because, of course, so many of those corridors are on 
private lands, and I think we will be discovering, with more 
clarity, just where those overlaps are as we begin this process 
of identifying further all of the wildlife corridors in the 
United States and across North America.
    Our coalition wants to bring tools to the table, tools that 
can be used by private landowners to allow them to continue to 
live and ranch on those lands but do it in ways that are 
consistent with long-term survival needs of wildlife, and 
tools, such as conservation easements, are very useful toward 
those goals. And we want to work together collaboratively, as a 
broad-based group, again, to bring the resources to the table 
that can be used, in that case, by private landowners to, 
again, ranch, maintain, and manage their properties in ways 
consistent with the wild animals that are on them.
    Mr. Grijalva. Are there particular wildlife corridors that 
Freedom To Roam can identify now?
    Mr. Ridgeway. Yes. There are many, and they come in two 
different categories. There are corridors that migrating 
animals use to get from A to B seasonally. There are also 
corridors that nonmigrating animals use to get between their 
different populations, which, if cut off, ruin those 
populations, as you saw on that map with the lynx.
    Perhaps one of the best known and identified and understood 
corridors in the United States is the path of the pronghorn 
that I showed you briefly in our presentation, and that one is 
well known because wildlife biologists have collared animals 
and followed them as they have gone from beginning to end on 
that corridor, and they know the boundaries and the measure of 
it very accurately.
    Interestingly, that corridor crosses public lands. It 
starts in a national park. It then goes across the bridge at 
Teton National Forest. It then enters into private lands, and 
most of those are ranches, but some of those ranches have 
already been subdivided, forcing the animals into the forest, 
where they prefer not to go.
    Antelope, because of their predators, like to stay in the 
open. They have eyes that can see for miles, and they hate 
going in the trees, and that path of the pronghorn corridor has 
almost been permanently disrupted because of two subdivisions 
of ranch lands that, given the resources, might have been able 
to avoid that subdivision, and that is, again, the resource 
that we want to bring to the table for private landowners.
    Mr. Grijalva. Thank you. Mr. McCarthy, the public lands are 
being called upon to help address our energy needs. Part of 
this whole discussion in the Full Committee and this 
Subcommittee will be the calls for increased oil and gas 
extraction and also the creation of a new capacity for nuclear 
energy production, which involves uranium mining near places 
like the Grand Canyon, for instance. But there is also 
discussion about creating a balance between the extraction/
protection side of this question.
    The user groups you represent, the outdoor industry that 
you represent; how would you define that balance?
    Mr. McCarthy. Mr. Chairman, I think the best model for 
that, as I mentioned earlier, is the Federal Power Act, with 
the equal-consideration clause, that was used on rivers, and, 
taking into account the history of damming rivers, that, in 
future river projects for energy, other attributes, including 
ecological recreation, need to be considered.
    I also think a good model is to look at these things 
proactively. I know there is an organization in Wyoming called 
the Biodiversity Conservation Alliance, which has already, in a 
Geographic Information System (GIS), mapped out all of the 
important areas for wildlife in the State of Wyoming and then 
overlaid with wind potential to say, these are the areas that 
have critical wildlife value and are not appropriate for wind 
development. These are areas that we need to proceed 
cautiously, and these are the areas where they do not have any 
conflict.
    Mr. Grijalva. Regulatory and statutory changes; would that 
be part of the equation in developing balance?
    Mr. McCarthy. Well, you asked, earlier in the hearing, 
appropriate of NEPA, and I think, you know, in consideration of 
those projects where environmental assessment of these 
projects, is it an appropriate application of that?
    Mr. Grijalva. Thank you. Ms. Jungwirth, you mentioned your 
experience in your community of Trinity. Could you talk to us 
about the impacts that you have seen of climate change that you 
have witnessed on Federal lands from that very close 
perspective that you have?
    Ms. Jungwirth. Sure. We have seen the size of fires move 
from a 100-acre fire to a 200,000-acre fire in the period of 
about 40 years.
    We have increased chronic obstructive pulmonary disease 
(COPD) in our elders, as the Hoopa Reservation, which is next 
door to us, they have really documented that.
    We have seen dewatering of streams. We have seen forests 
converting to brush fields.
    Last year, we lost our tourism and recreation industry that 
we were trying to diversify to, as a public land community, 
because nobody wants to come and look at an ashtray and breathe 
smoke.
    We will lose our lake-resort tourism business this summer 
because of the low waterflows, and we are also trying to 
diversify our economy by growing grapes, and the grape crop--
you know, they will not press smoked grapes. They actually test 
for smoke in California to see how bad it is for your grapes, 
and our grape crops were thrown in the garbage can.
    So it affects every single aspect of our lives.
    Mr. Grijalva. Thank you. Mr. Holt, any questions, comments?
    Mr. Holt. Yes, Mr. Chairman, if I may.
    Mr. Ridgeway, first of all, thank you for coming, and I 
commend you on your work for Freedom To Roam.
    It seems to me that this is a pretty complicated idea. In 
some sense, it is very simple. You just have these corridors, 
or ``string of emeralds,'' or however you want to call it, but, 
it seems to me, it is really very complicated to figure out how 
you can have a corridor that, clearly, if it is going to be 
interrupted with fences, well, you might make those fences 
passable for pronghorn or lynx. If you design it to make it 
passable for them, it might not be passable for other species.
    So I wanted to find out how well developed the idea is. I 
think there are, certainly, some ecologists at Princeton I know 
and at other places who having studying these things, but how 
thoroughly is it studied so you can find an optimal design for 
these things so that they will pass all of the critical 
species, and how do you determine the length? You talked about, 
for the pronghorn, you need a couple of hundred miles, I guess, 
but, for other species, you might need a thousand miles.
    So where does one get the information that puts all of this 
together to come up with an optimal design for how the 
corridors would be put together?
    Mr. Ridgeway. Well, it has to be, of course, based on best 
science, and that science is provided by wildlife biologists, 
and, as you pointed out, it is specific to species, that 
multiple species will use certain corridors, like the pronghorn 
corridor is also used by mule deer migrating north and south. 
In fact, the mule deer do not have problems with the fences 
because they can jump right over them. Pronghorn are forced to 
crawl under because, as an animal that runs very fast, they 
cannot jump high, so they have to go under.
    Again, the solutions are species specific. Again, in the 
case of mule deer and pronghorn in that area, in Montana and 
Wyoming, one of the critical factors in protecting their 
corridors is also protecting them with road crossings. In the 
case of both species, they can be lured and directed by fencing 
that they cannot get over or under into underpasses, but the 
underpasses have to be designed, again, to accommodate the 
needs of the specific species.
    In the case of a pronghorn, the underpasses have to be wide 
enough and open enough and not so tunnel-like that they are 
inhibited from crossing under them. A mule deer is easier to 
actually get to go through an underpass, and there are many 
underpasses that have been finished recently in Southern 
Wyoming that are very successfully being used by mule deer.
    There is much, much work to be done, by species, to, again, 
identify their specific needs, not only where the corridors are 
but what their needs are within those corridors. So that is 
work still to be done. We believe that our coalition can 
provide a great benefit by organizing many of the groups 
regionally around the country that are working on different 
aspects of this. They are often working independent of each 
other.
    One of the great jobs that needs to be done, for example, 
is to identify where their habitats are going to shift to under 
different global-warming scenarios.
    There are several groups around the country that are 
starting on that right now. We are discovering that they do not 
even know about each other yet. Scientists working on habitat 
shift, under global-warming scenarios here in Washington, D.C., 
with the Geological Survey, for example, do not know that 
colleagues out in California, at the Academy of Sciences, are 
doing the same thing.
    So we can provide a great service by coordinating those 
groups, regionally and internationally, that are beginning the 
work, all of the work, that has to be done, and it is very 
extensive. It is going to take some years, I think, to achieve 
the final goals, but it has to get started now.
    Mr. Holt. Which brings me to my next question. On what time 
scale are we talking about? If we are going to accommodate 
varieties of species and bring together all of this 
information, as you say, it is going to take a long time. How 
much time do we have? What is the time scale for which we will 
acquire land or acquire rights-of-way or whatever else needs to 
be done?
    Mr. Ridgeway. In my testimony, I said, we are entering 
unknown territory here. We do not know the answers to those 
questions precisely.
    The shift that you saw for the lynx; it was using the IPCC 
models developed in 2007 for the most pessimistic predictions 
that were out there at that time. We are two years later. The 
pessimistic predictions that you saw up there are now the 
middle-of-the-ground ones. That is the average that we chose to 
present to you. It is a shifting target. There is not much time 
on this. We have to get started right away.
    We believe the first step, as I said in my testimony, is to 
work together with your Subcommittee, especially, to achieve a 
definition of what ``wildlife corridors'' are. That is the 
first step.
    With a definition of what they are, corridors can begin to 
be identified and then designated. We would very much like to 
work with your Subcommittee to figure out how to make that 
happen. Those are the first steps, we believe.
    Mr. Holt. Thank you. Thank you, Mr. Chairman.
    Mr. Grijalva. Let me ask the gentlelady from Wyoming, Ms. 
Lummis, for her questions or comments.
    Mrs. Lummis. Thank you, Mr. Chairman.
    Well, first and foremost, I would like to welcome Mr. 
McCarthy to our hearing. This is a fellow gentleman from 
Wyoming, and I am delighted to see you here and am pleased that 
you have chosen to share your time and expertise with us.
    You know, as I do, that tourism is Wyoming's second largest 
industry and contributes $2.6 billion to Wyoming's economy, and 
a lot of that spending occurs on activities on public lands. So 
I am delighted that you have chosen to join us today and speak 
of your experiences in Wyoming and the West.
    Here is a quote that I am going to give to you from Gifford 
Pinchot, who was, of course, the first chief of the Forest 
Service: ``Conservation is the application of common sense to 
the common problems for the common good,'' very much a wise-use 
doctrine, and it essentially serves as the last century's 
Forest Service motto.
    Much of your testimony follows a similar line of thinking; 
that is, we pursue new renewable energy projects and fuels-
reduction strategies and other public land uses and that we do 
so with moderation in mind.
    So my question, Mr. Chairman, is about adaptive management 
flexibility, and would you agree that adaptive management 
flexibility for our public-land-management agencies is a key 
tool to protecting the concept of share use, and what 
specifically are your thoughts in that regard?
    Mr. McCarthy. Well, thank you for the warm welcome, 
Representative Lummis.
    ``Adaptive management.'' By ``adaptive,'' you are referring 
to ecological.
    Mrs. Lummis. Correct, Mr. Chairman.
    Mr. McCarthy. I think I would put a premium on open space.
    One of my other hats I wear is I am the planning 
commissioner in Teton County, in a county, 97 percent of which 
is Federal land. Currently, we are redoing our comprehensive 
plan that oversees some of the private lands that include the 
path of the pronghorns that Mr. Ridgeway spoke to.
    What I would address is we are currently trying to 
encourage conservation easements in those places. So putting 
together tax incentives and land trades to be able to protect 
those areas is one adaptive way I look at to accomplish this 
goal.
    Mrs. Lummis. Well, Mr. Chairman, that is music to my ears. 
I was involved in the Wyoming Stockgrowers Agricultural Land 
Trust, and we hold, along with the other rangeland trusts in 
the West, the Partnership of Rangeland Trusts, or ``PORT,'' the 
largest number of rangeland conservation easements in the 
United States, and it is a magnificent testament to public and 
private efforts to conserve land because, of course, wildlife 
does not know whether they are on public land or private land. 
They migrate according to habitual practices.
    So I am delighted to hear you say that. I look forward to 
working with you on conservation-easement issues. The tax 
advantages that were put into the Farm Bill last year made an 
enormous difference in our State of Wyoming, in terms of adding 
to the number of conservation easements that were donated for 
the tax advantages by people who, but for the tax advantages, 
would not have been able pencil out the opportunity to conserve 
land in that manner.
    So, again, Mr. McCarthy, thank you so much for joining us. 
I yield back, Mr. Chairman.
    Mr. Grijalva. Thank you very much.
    As this Committee continues to explore this priority issue 
of climate change on the Federal lands, I want to thank all our 
panelists today for a really excellent start.
    So, as we go through this, there are obvious things--
examination of statutory and regulatory issues as this 
Administration defines the issue of ``balance'' in terms of 
extraction and protection--that will fit into the discussion we 
need to have here.
    I think the important point, and the impression that I have 
from all of our panelists, is this is a real issue, and it has 
got to be taken seriously and dealt with seriously.
    Thank you very much for an excellent start, and this 
meeting is adjourned.
    [Whereupon, at 5:35 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
